No. ____________________

_______________________________________________________________________

IN THE
SUPREME COURT OF THE UNITED
STATES
_______________________________________________________

DAGHRIB SHAHEED, WAHEEDAH SHAHEED - PETITIONER
vs.
STEPHAN KROSKI, NEW YORK CITY POLICE OFFICER; IN AN INDIVIDUAL
AND OFFICIAL CAPACITY, PAUL BLISS, NEW YORK CITY POLICE OFFICER;
IN AN INDIVIDUAL AND OFFICIAL CAPACITY, LYDIA FIGUEROA, NEW
YORK CITY POLICE OFFICER; IN AN INDIVIDUAL AND OFFICIAL
CAPACITY, CITY OF NEW YORK – RESPONDENTS
_______________________________________________________________________

Appendices: Volume 2 of 2

Lawrence P. LaBrew, Esq.
Law Office of Lawrence LaBrew
Attorney for the Petitioners
30 Wall Street 8th Floor
New York, New York 10005-2205
Tel:(212) 385-7500
Fax:(212) 385-7501
e-mail: lawrencelabrew@verizon.net

INDEX OF APPENDICES
APPENDIX
Appendix A

Appendix B

Appendix C

Appendix D

Appendix E

Appendix F

Appendix G

Appendix H

Appendix I

Appendix J

PAGE NUMBER
Summary Order of the United States
Court of Appeals for the Second Circuit
affirming the Order and
Judgment of the District Court

A0001

United States Court of Appeals for the
Second Circuit: Order Consolidating
Docket Numbers 19-90 and 19-94

A0008

United States District Court for the
Southern District of New York: Decision
and Order on Motion to Dismiss

A0009

United States District Court for the
Southern District of New York: Order
and Opinion on Motion for Summary Judgment

A0028

United States District Court for the
Southern District of New York:
Order and Opinion on Motion
for Entry of Judgment

A0056

United States District Court for the
Southern District of New York:
Order on Motion in Limine

A0062

Petitioner Daghrib Shaheed’s Amended
Complaint

A0190

Respondents’ Answer to Petitioner
Daghrib Shaheed’s Amended Complaint

A0226

Petitioner Waheedah Shaheed’s Amended
Complaint

A0243

Respondents’ Answer to Petitioner Waheedah
Shaheed’s Amended Complaint

A0285

ii

APPENDIX (cont.)
Appendix K

PAGE NUMBER (cont.)
New York State Family Court Order
Issued Pursuant to N.Y. FAM.
CT. § 1034

A0304

New York State Family Court
Removal Order for Abdul Maleek Rahim

A0305

New York State Family Court
Removal Order for Hannah Olodan

A0309

Criminal Court of the City of New York
Certificate of Disposition, The People of the
State of New York v. Waheedah Shaheed,
Docket Number 2012NY050853

A0313

Criminal Court of the City of New York
Certificate of Disposition, The People of the
State of New York v. Daghrib Shaheed,
Docket number 2012NY044694

A0314

Criminal Court of the City of New York
Certificate of Disposition, The People of the
State of New York v. Waheedah Shaheed,
Docket Number 2012NY044692

A0315

New York State Family Court Order of
Dismissal

A0316

New York State Family Court Order of
Disposition

A0317

Appendix S

U.S. CONST. amend. IV

A0321

Appendix T

N.Y. CONST. art. VI, § 13

A0322

Appendix U

N.Y. CRIM. PROC. LAW § 1.20 (Consol. 2012)

A0324

Appendix V

N.Y. CRIM. PROC. LAW § 2.10 (Consol. 2012)

A0335

Appendix W

N.Y. CRIM. PROC. LAW § 2.20 (Consol. 2012)

A0359

Appendix L

Appendix M

Appendix N

Appendix O

Appendix P

Appendix Q

Appendix R

iii

APPENDIX (cont.)

PAGE NUMBER (cont.)

Appendix X

N.Y. CRIM. PROC. LAW § 10.10 (Consol. 2012)

A0362

Appendix Y

N.Y. CRIM. PROC. LAW § 120.10 (Consol. 2010)

A0364

Appendix Z

N.Y. CRIM. PROC. LAW § 120.20 (Consol. 2010)

A0365

Appendix AA

N.Y. CRIM. PROC. LAW § 120.70 (Consol. 2010)

A0367

Appendix BB

N.Y. CRIM. PROC. LAW § 120.80 (Consol. 2010)

A0368

Appendix CC

N.Y. CRIM. PROC. LAW § 690.05 (Consol. 2012)

A0370

Appendix DD

N.Y. CRIM. PROC. LAW § 690.25 (Consol. 2012)

A0372

Appendix EE

N.Y. CRIM. PROC. LAW § 690.35 (Consol. 2012)

A0373

Appendix FF

N.Y. CRIM. PROC. LAW § 690.35 (Consol. 2012)

A0377

Appendix GG

N.Y. CRIM. PROC. LAW § 690.40 (Consol. 2012)

A0378

Appendix HH

N.Y. CRIM. PROC. LAW § 690.45 (Consol. 2012)

A0380

Appendix II

N.Y. CRIM. PROC. LAW § 690.50 (Consol. 2012)

A0383

Appendix JJ

N.Y. FAM. CT. ACT § 141 (Consol. 2012)

A0386

Appendix KK

N.Y. FAM. CT. ACT § 153 (Consol. 2012)

A0387

Appendix LL

N.Y. FAM. CT. ACT § 153-A (Consol. 2012)

A0388

Appendix MM

N.Y. FAM. CT. ACT § 157 (Consol. 2012)

A0389

Appendix NN

N.Y. FAM. CT. ACT § 1022 (Consol. 2012)

A0390

Appendix OO

N.Y. FAM. CT. ACT § 1023 (Consol. 2012)

A0395

Appendix PP

N.Y. FAM. CT. ACT § 1025 (Consol. 2012)

A0396

Appendix QQ

N.Y. FAM. CT ACT § 1027 (Consol. 2012)

A0399

Appendix RR

N.Y. FAM. CT. ACT § 1029 (Consol. 2012)

A0403

iv

APPENDIX (cont.)

PAGE NUMBER (cont.)

Appendix SS

N.Y. FAM. CT. ACT § 1034 (Consol. 2012)

A0404

Appendix TT

N.Y. FAM. CT. ACT § 1035 (Consol. 2012)

A0408

Appendix UU

N.Y. FAM. CT. ACT § 1036 (Consol. 2012)

A0412

Appendix VV

N.Y. FAM. CT. ACT § 1037 (Consol. 2012)

A0414

Appendix WW

N.Y. PENAL LAW § 120.05 (Consol. 2012)

A0416

Appendix XX

N.Y. PENAL LAW § 195.05 (Consol. 2012)

A0420

Appendix YY

N.Y. PENAL LAW § 205.30 (Consol. 2012)

A0421

v

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 1 of 42

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
W AHEEDAH SHAHEED
Plaintiff

v.

AMENDED COMPLAINT
Civil Case No. 15 cv 3480

THE CITY OF NEW YORK
NEW YORK CITY POLICE OFFICER
STEPHAN KROSKI (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
PAUL BLISS {In an Individual Capacity and
In an Official Capacity)
NEW YORK CITY POLICE OFFICER
JONATHAN RODRIGUEZ (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE OFFICER
LYDIA FIGUEROA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE
LIEUTENANT KISHON HICKMAN (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE OFFICER
CHRISTOPHER MITCHELL (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE OFFICER
ALEX PEREZ {In an Individual Capacity
and In an Official Capacity)
Defendants
SAdditional Defendants continued)
Page 1 of 42

Appendix I

A0243

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 2 of 42

NEW YORK CITY POLICE CHIEF
WILLIAM MORRIS (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE
COMMISSIONER JAMES P. O'NEIL (In
an Individual Capacity and In an Official
Capacity)
NEW YORK CITY DEPUTY POLICE
CHIEF JOHN ESSIG (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY ASSIST ANT CHIEF
RODNEY HARRISON (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY DEPUTY CHIEF
ANDREW CAPUL (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE INSPECTOR
ROBERT LUKACH (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DEPUTY
INSPECTOR WILSON ARAMBOLES (In
an Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE INSPECTOR
FAUSTO PICHARDO (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE CAPTAIN
TIMOTHY WILSON (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY DEPUTY INSPECTOR
MARLON LARIN (In an Individual
Capacity and In an Official Capacity)
Defendants (cont.)
Page 2 of 42

A0244

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 3 of 42

NEW YORK CITY POLICE CAPTAIN
BRIAN FRANKLIN (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE INSPECTOR
ERIC PAGAN (In an Individual Capacity
and In an Official Capacity)
NEW YORK CITY POLICE
LIEUTENANT HUGH MACKENZIE (In
an Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE SERGEANT
CHARLES EWINGS (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE SERGEANT
MEDINA (In an Individual Capacity and In
an Official Capacity)
NEW YORK CITY POLICE OFFICER
EDWARD SALTMAN (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
DANIEL TROYER (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE A WILDA
MELHADO (In an Individual Capacity and
In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
DARREN MCNAMARA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
ANTHONY SELVAGGI (In an Individual
Capacity and In an Official Capacity)
Defendants (cont.)

Page 3 of 42

A0245

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 4 of 42

NEW YORK CITY POLICE DETECTIVE
ETHAN ERLICH (In an Individual Capacity
and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
HENRY MEDINA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
EDWARD BIRMINGHAM (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE DETECTIVE
CLIFFORD PARKS (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
ANTONIO RIVERA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
JOHN DOE (fictitious (name) (In an
Individual Capacity and In an Official
Capacity)
Defendants

I. Now comes the Plaintiff Waheedah Shaheed, by and through her attorney, Lawrence P.
LaBrew, of the Law Office of Lawrence LaBrew, complaining against the following Defendants
and alleging the following:
JURISDICTION AND VENUE
2. This action arises under the Constitution of the United States, particularly the First, Fourth,
Eighth, and Fourteenth Amendments to the Constitution of the United States, the Due Process
Clause of the United States Constitution, and under the laws of the United States, particularly the
Page 4 of 42

A0246

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 5 of 42

Civil Rights Act, Title 42 U.S.C. §§ 1983 and 1988.
3. This action also arises under the New York State Constitution, and New York State Law for
the intentional torts of Assault, Battery, Excessive Force, False Arrest, False Imprisonment,
Malicious Prosecution, and Intentional Infliction of Emotional Distress, and Trespass.
4. This Court has jurisdiction of this cause of action under Title 28 of the United States Code §§
1331 and 1343 (28 U.S.C.A. §§ 1331 and 1343).
5. This Court also has supplemental jurisdiction over the New York State causes of action under
Title 28 of the United States Code§ 1367 (28 U.S.C.A. § 1367).
6. The City of New York conducted an examination of the Plaintiff pursuant to N.Y. GEN.
MUN. LAW§ 50-h.
7. Venue is placed in this District because the City of New York is located in this District and the
Defendants are located in New York County.
DEMAND FOR A TRIAL BY JURY
8. The Plaintiff demands trial by Jury on all counts in this complaint pursuant to Seventh
Amendment to the United States Constitution, and pursuant to Rule 38 of the Federal Rules of
Civil Procedure.
PARTIES
9. Plaintiff Waheedah Shaheed is a 57 year old citizen of the United States who resides in New
York City.

I 0. Defendant New York City Police Officer Stephen Kroski is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 6 June 2012.
11. Defendant New York City Police Officer Paul Bliss is being sued individually, and in an
Page 5 of 42

A0247

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 6 of 42

official capacity, in relation to the events alleged in this complaint on 6 June 2012
12. Defendant New York City Police Officer Jonathan Rodriguez is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 6 June 2012.
13. Defendant New York City Police Lieutenant Kishon Hickman is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 6 June 2012, 29 June
2012, and 30 June 201
14. Defendant New York City Police Officer Christopher Mitchell is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 6 June 2012.
15. Defendant New York City Police Officer Alex Perez is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 6 June 201

29 June 2012,

and 30 June 2012.
16. Defendant New York City Police Chief William Morris is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 201

and 30 June

2012.
17. Defendant New York City Police Commissioner James P. O'Neil is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012,
and 30 June 2012.
18. Defendant New York City Police John Essig is being sued individually, and in an official
capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June 2012.
19. Defendant New York City Police Assistant Chief Rodney Harrison is being sued
individually, and in an official capacity, in relation to the events alleged in this complaint on 29
June 2012, and 30 June 2012.
Page 6 of 42

A0248

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 7 of 42

20. Defendant New York City Police Deputy Chief Andrew Capul is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
21. Defendant New Yark City Police Inspector Robert Lukach is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
22. Defendant New York City Police Deputy Inspector Wilson Aramboles is being sued
individually, and in an official capacity, in relation to the events alleged in this complaint on 29
June 2012, and 30 June 2012.
23. Defendant New York City Police Inspector Fausto Pichardo is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
24. Defendant New York City Police Captain Timothy Wilson is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
25. Defendant New York City Police Deputy Inspector Marlon Larin is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012,
and 30 June 2012.
26. Defendant New York City Police Captain Brian Franklin is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
27. Defendant New York City Police Inspector Eric Pagan is being sued individually, and in an
Page 7 of 42

A0249

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 8 of 42

official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
28. Defendant New York City Police Lieutenant Hugh MacKenzie is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012,
and 30 June 2012.
29. Defendant New York City Police Officer Charles Ewing is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
30. Defendant New York City Police Sergeant Medina is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
31. Defendant New York City Police Officer Alex Perez is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 6 June 2012, 29 June 2012,
and 30 June 2012.
32. Defendant New York City Police Officer Daniel Troyer is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
33. Defendant New York City Police Officer Awila Melhado is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
34. Defendant New York City Police Detective Darren McNamara is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012,
Page 8 of 42

A0250

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 9 of 42

and 30 June 2012.
35. Defendant New York City Police Detective Anthony Selvaggi is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
36. Defendant New York City Police Detective Ethan Erlich is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
37. Defendant New York City Police Detective Henry Medina is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
38. Defendant New York City Police Detective Edward Birmingham is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012,
and 30 June 2012.
39. Defendant New York City Police Detective Clifford Parks is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
40. Defendant New York City Police Detective Antonio Rivera is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
41. Defendant New York City Police Officer John Doe (fictitious name) is being sued
individually, and in an official capacity, in relation to the events alleged in this complaint on 6
June 2012, 29 June 2012, and 30 June 2012.
Page 9 of 42

A0251

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 10 of 42

42. The true names and identities of the "DOE" defendants are presently unknown to Plaintiff.
Plaintiff uses the fictitious name "DOE" to designate these Defendants. Plaintiffs allege that the
"DOE" Defendants, along with the other Defendants, are legally responsible for the incidents,
injuries, and damages set forth herein, and that each of the Defendants proximately caused the
incident, injuries, and damages by reason of their negligence, breach of duty, negligent
supervision, management or control, violation of constitutional rights, or by reason of other
personal, vicarious, or imputed negligence, fault, or breach of duty, whether based on agency,
employment, control, whether severally or jointly, or whether based on any other act or omission.
Plaintiff will seek to amend this Complaint as soon as the true names and identities of each of the
"DOE" defendants has been ascertained.
43. Each of the Defendants, including the "DOE" defendants, caused, and is legally responsible
for, the incidents, unlawful conduct, injuries, and damages alleged by personally participating in
the unlawful conduct, or acting jointly or conspiring with others to act, by authorizing or
allowing, explicitly or implicitly, policies, plans, customs, practices, actions, or omissions that
led to the unlawful conduct, by failing to take action to prevent the unlawful conduct, by failing
or refusing to initiate and maintain adequate training or supervision, and thus constituting
deliberate indifference to Plaintiffs rights, and by ratifying the unlawful conduct that occurred by
agents and officers under their direction and control, including failing to take remedial or
disciplinary action.
44. Plaintiffs is informed and believes and therefore alleges that at all times mentioned in this
Complaint, Defendant, and each of them, were the agents, employees, servants, joint ventures,
partners, and/or coconspirators of the other Defendants named in the Complaint and that at all
Page 10 of 42

A0252

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 11 of 42

times, each of the Defendants was acting within the course and scope of that relationship with the
other Defendants.
45. In doing the acts and/omissions alleged, Defendant, and each of them, acted under color of
authority and/or color of state law at all relevant times.
46. Plaintiff is informed and believes, and therefore alleges, that the violations of the Plaintiffs
constitutional rights complained of were caused by customs, policies, and/or practices of
authorized policymakers of Defendant City of New York, and other supervisory officials of
Defendant City of New York's Police Department, which encouraged, authorized, directed,
condoned, and/or ratified the unconstitutional and unlawful conduct complained of in this
Complaint. These customs, policies, and/or practices were the moving force behind the violations
alleged, and include, but are not limited to failing to maintain adequate policies, failing to
adequately train, supervise, and control police officers concerning entries into the homes of
individuals, failing to investigate and impose discipline on police officers who employ improper
investigation methods, and failing to adopt other remedial measures and policies to ensure that
such violations do not recur.
47. Each of the Defendants, including the "DOE" defendants caused, and are legally responsible
for, the incidents, unlawful conduct, injuries, and damages alleged by personally participating in
the unlawful conduct, or acting jointly or conspiring with others to act, by authorizibng or
allowing, explicitly or implicitly, policies, plans, customs, practices, actions, or omissions that
led to the unlawful conduct, by failing to take action to prevent the unlawful conduct, by failing
or refusing to initiate and maintain adequate training or supervision, and exercising deliberate
indifference to Plaintiffs rights, and by ratifying the unlawful conduct that occurred by the City
Page 11 of 42

A0253

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 12 of 42

of New York or by agents and officers under the direction and control of the City of New York,
and by failing to take remedial or disciplinary action against said agents or officers.
48. The City of New York is a municipal corporation and governmental subdivision of the State
ofNewYork.
FACTS
49. Plaintiff Waheedah Shaheed has a current medical history which includes end stage multiple
myeloma which is a terminal illness. Plaintiff also has a heart condition in the form of severe
mitral regurgitation. Plaintiff suffers from congenital scoliosis, osteoarthritis of the spine, hips
and knees. At the time of the incidents that are the subject of this complaint, Plaintiff ambulated
with the assistance of a rollator.
50. Plaintiff is a legal tenant on the lease at the location where the incidents alleged in this
complaint happened. On 6 June 2012, at about 6:30 in the evening, Defendant Police Officer
Stephan Kroski began banging on the door of the Plaintiff demanding entry into the Plaintiffs
apartment with other Defendant Police Officers.
51. Upon information and belief, that being the Plaintiff, the Plaintiffs son - Mr. Noah Shaheed
opened the door; and, while standing inside of the apartment, asked Defendant Police Officer
Kroski if he had a warrant. Upon information and belief, that being the Plaintiffs son,
Defendant Stephan Kroski stated that he did not need a warrant.
52. Upon information and belief, that being the Plaintiff, the Defendant Police Officers forced
their way into the Plaintiffs apartment without pennission or authority. Including the named
Defendants, there were numerous other New York City Police Officers who entered Plaintiffs
apartment.
Page 12 of 42

A0254

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 13 of 42

53. Upon information and belief, that being the Plaintiff, Plaintiffs daughter asked the Defendant
Police Officers to leave her apartment if they did not have a warrant. The Defendant Police
Officers refused to leave the apartment. Defendant Police Officer Kroski told Plaintiffs daughter
that "he did not need a warrant."
54. Upon information and belief, that being the Plaintiff, the following events occurred when the
Defendants entered the Plaintiff's home without permission and authority: Defendant Police
Officer Stephan Kroski came to Plaintiffs bedroom door and told the Plaintiff twice "Get up
you're coming with me." The Plaintiff asked Defendant Stephan Kroski ifhe had a warrant.
Defendant Stephan Kroski said "Well no." The Plaintiff told Defendant Stephan Kroski "Well
then, I am not going anywhere with you.'' The Plaintiff heard a loud noise, and at that point
Defendant Stephan Kroski turned and went down the hall.
55. The Plaintiff got out of bed; and, with the assistance of her rollator, when to the doorway of
her bedroom and looked down the hall. The Plaintiff saw approximately five or six police
officers inside of her apartment.
56. The Plaintiff asked Defendant Stephan Kroski if he had any warrant of any kind, from any
court - or from anywhere

that would permit the Defendants to come into the Plaintiff's home

without permission. Defendant Stephan Kroski said no. The Plaintiff told Defendant Kroski that
he must "leave her home now."
57. At this point Defendant Stephan Kroski grabbed the Plaintiff by both of her arms and threw
Plaintiff to the floor. Plaintiff struggled to get up, and Defendant Stephan Kroski punched the
Plaintiff in the eye with a closed fist. Plaintiff fell to the floor as a result of being struck in the
eye - with a closed fist

by Defendant Stephan Kroski. At this point, Defendant Stephan Kroski
Page 13 of 42

A0255

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 14 of 42

got on top of the Plaintiff, attempted to pin Plaintiff's arms down with his legs, while placing
both of his hands around Plaintiff's neck and choking Plaintiff. Plaintiff states that she
reasonably believed that Defendant Stephan Kroski was trying to kill her. As Plaintiff struggled
to breath, Plaintiff managed to free her hand, and Plaintiff squeezed Defendant Stephan Kroski's
testicles in an attempt to stop Defendant Stephan Kroski from choking Plaintiff.
58. Another New York City Police Officer pulled Defendant Stephan Kroski off of the Plaintiff.
Defendant Stephan Kroski attempted to attack the Plaintiff again, and was restrained again by a
New York City Police Officer. Upon information and belief, that being the Plaintiff, at this point
Defendant Stephan Kroski smashed Plaintiff's rollator.
59. Defendant New York City Police Officer Aguilar handcuffed the Plaintiff. The Plaintiff
asked Defendant Police Officer Aguilar if she was under arrest. and Defendant Police Officer
Aguilar told the Plaintiff that she was not under arrest. Defendant Police officer Aguilar told the
Plaintiff that they were told to go and get Plaintiff and bring Plaintiff to the Precinct." Plaintiff
asked who "they" were, and Defendant Police Officer Aguilar said that he did not know who
"they" were, but he repeated that the officers were told to come and get the Plaintiff.
60. Plaintiff requested to be taken to the hospital while Plaintiff was still inside of her home.
Plaintiff told a police officer that Plaintiff was cancer and heart patient. Plaintiff was having a
hard time breathing, and Plaintiff was bleeding from the mouth.
61. Plaintiff was taken from her residence in her bare feet without being allowed to put on any
shoes. Plaintiff noticed that several police officers lined the hallway outside of her apartment,
and there were at least ten (10) police cars parked in the vicinity of Plaintiffs apartment. Plaintiff
requested to be taken to a hospital while still inside of her residence. Plaintiff told a police officer
Page 14 of 42

A0256

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 15 of 42

that she was a cancer and heart patient and that she was having a hard time breathing. Plaintiff
again requested medical attention while being taken from her residence. Plaintiff - who was
bleeding from the mouth - was handcuffed and placed in a police vehicle. Plaintiff requested
medical attention while in said police vehicle. Plaintiff was taken to the 25 th Precinct. Upon
reaching the Precinct, Plaintiff told a Police Lieutenant that she needed an ambulance
immediately. Plaintiff specifically told the Police Lieutenant that she was a cancer patient and a
heart patient. Plaintiff told the Police Lieutenant that she was afflicted with End Stage Multiple
Myloma. Plaintiff informed said Police Lieutenant that End Stage Multiple Myeloma is a
terminal illness. Plaintiff told said Police Lieutenant that she did not know why she was here, and
that she did not know why her children were here. The Police Lieutenant said that he was going
to find out what was going on. Plaintiff was placed in a jail cell for hours without any medical
attention. Plaintiff informed numerous New York City Police Officers that she was having a hard
time breathing, and that she wanted to go to the hospital immediately. Plaintiff asked said Police
Officers why it was taking so long to get an ambulance to transport her to a hospital. Said New
York City Police Officers said that they did not know why it was taking so long for Plaintiff to
receive medical attention, and that "these things take time."
62. On the morning of 7 June 2012, Plaintiff was taken from a cell at the 25 1h Precinct. Plaintiff
was handcuffed and Plaintiffs ankles were shackled. After midnight Plaintiff was put on a
stretcher and transported to the hospital. At the hospital, Plaintiff was handcuffed to a bed, and
the Plaintiffs ankles were shackled. A Police Officer was stationed inside of the room- at the
hospital

where the Plaintiff was being treated.

63. The Plaintiff was seized, and held in custody at a hospital, handcuffed at said hospital, with a
Page 15 of 42

A0257

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 16 of 42

police officer stationed inside of Plaintiffs hospital room, and with Plaintiffs ankles shackled,
from 6 June 2012 to 16 June 2012. The New York City Police Officers stationed in and about
the Plaintiffs hospital room would not allow the Plaintiff to take a shower. The Plaintiff was
never taken before a Judge between 6 June 2012 and 16 June 2012.
64. On 16 June 2012 the Plaintiff was given a Desk Appearance Ticket in violation ofN.Y.
CRIM. PROC. LAW§ 150.20. The Desk Appearance Ticket had Police Officer Stephan
Kroski's name on it. The serial Number of the Desk Appearance Ticket was 25-127, and the
Arrest Number was M12650516-K. The Desk Appearance Ticket accused the Plaintiff of
allegedly committing the Class D Violent Felony of Assault in the Second Degree (N. Y. PENAL
LAW§ 120.05-3). The Desk Appearance Ticket directed the Plaintiff to appear in Court on 26
July 2012. The Plaintiff was released from custody on 16 June 2012 and directed to appear in
Court on 26 July 2012.
65. Plaintiff denies the allegations in all accusatory instruments filed in the Criminal Court of the
City of New York in connection with Arrest Number Ml2650516 (Docket Number
20 l 2NY044692). The Plaintiff states that the Defendant New York City Police Officers used
unnecessary and disproportionate force to effect an unauthorized arrest. Plaintiff states that the
Defendants used unlawful physical force against the Plaintiff as stated above. The aforereferenced case was dismissed on the merits, and sealed, on the merits on 18 September 2013.
66. On 29 June 2012, at approximately 6:30 in the evening, New York City Police Detective
McNamara knocked on the Plaintiff's door, and asked the occupants to open the door. Plaintiffs
son, Mr. Noah Shaheed, asked the Defendant Detective if the Detective had a warrant or some
other authorization. Defendant Detective McNamara said that he had a warrant. Plaintiffs
Page 16 of 42

A0258

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 17 of 42

mother, Ms. Waheedah Shaheed, asked Detective McNamara to produce the warrant. Plaintiff
states that Defendant McNamara failed to produce any warrant, or other documentation,
authorizing entry to the subject location.
67. Defendant McNamara asked the Plaintiff to open the door to talk. When the Plaintiff did not
assent to Defendant McNamara demands the Plaintiff was told (in sum and substance) by
Defendant McNamara that Plaintiff "open the door and we can do this the easy way, or we can
do this the hard way, and it'll be worst than June 6th."
68. Defendants continued banging on the door demanding entry. About two hours after the
Defendants initially arrived, the lights went out, the air conditioning went out, and all electrical
power to the apartment was terminated.

69. On 30 June 2012, a specialized police unit (the emergency services unit or ESU), the
Defendants forced their way into the apartment. The police officers were armed with assault
rifles, and they were dressed and equipped like military soldiers. They pointed their rifles at every
one inside the residence, and every one was told to get down on the floor.
70. Plaintiff states that her property was damaged, the family pet hamster was killed, and Plaintiff
was searched and handcuffed inside of her apartment. While being physically removed from her
apartment building, Plaintiff noticed that the building was surrounded by police oflicers.
71. Plaintiff was taken from her apartment in handcuffs, without any shoes on her feet-with
neighbors and a large number of people on the street - placed in an ambulance, and taken to
Harlem Hospital.
72. On 30 June 2012, at about 2:00 in the afternoon, Plaintiff was taken from Harlem Hospital to
the 25 th Precinct by New York City Police Officers. Plaintiff was placed in a jail cell. Plaintiff
Page 17 of 42

A0259

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 18 of 42

was in pain and having trouble breathing: and, Plaintiff spent the entire time in a jail cell without
Plaintiffs pain and heart medication.
73. On 1 July 2012 Plaintiff was taken to 100 Centre Street, in New York County, to be arraigned
on an accusatory instrument. Plaintiff was in such pain that Plaintiff had to be transferred to the
Bellevue Hospital emergency room. Plaintiff was handcuffed and shackled during her entire stay
at Bellevue Hospital, except when an x-ray of the Plaintiff was taken. Plaintiff was treated and
released from Bellevue Hospital to the custody of the New York City Police Department.
Defendant Police Officer Stephan Kroski arrived at Bellevue Hospital to transport the Plaintiff to
the 25 th Precinct. When the Plaintiff looked Defendant Stephan Kroski in the face, Defendant
Kroski made the following statement to the Plaintiff: "Don't look at me cause it might set me off,
and I don't know what I'll do to you.
74. After arriving at Bellevue Hospital Police Officer Troyer took the medical assessment of the
Plaintiff - that he received from Bellevue Hospital
Police Officers in the Precinct. In a loud voice

and read it out loud to other New York City

with other police officers present - Police

Officer Troyer stated the following: that the Plaintiff was suffering from stage four cancer and
congestive heart failure. Plaintiff spend the night in another New York City Police Precinct.
Plaintiff was brought before a Judge and arraigned on 2 July 2012.
75. Plaintiff was charged with Obstruction of Governmental Administration in the Second
Degree (N.Y. PENAL LAW§ 195.05)- under Docket Number 2012NY050853

for allegedly

refusing to open Plaintiffs door to the Police.
76. Plaintiff states that under the knock and announce clause of the Fourth Amendment to the
United States Constitution - and under clearly established New York State Law - that the
Page 18 of 42

A0260

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 19 of 42

Plaintiff was under no obligation

and had no duty - to open the door of her residence for New

York City Police Officers.
77. Plaintiff states that Docket Number 2012NY050853 was dismissed on the merits and sealed
on 2 April 2014.
78. Plaintiff states that she was arrested for exercising her First Amendment rights on 29 June

2012/30 June 2012.
FEDERAL CLAIMS
COUNT ONE: FALSE ARREST
79. Plaintiff re-alleges paragraphs I through 78 as though set forth in full herein.

80. The Plaintiff states that she was illegally seized, searched, and arrested in violation of the
Fourth, and Fourteenth, Amendments to the United States Constitution when she was arrested by
Defendant Police Officers on or about 6 June 2012.
81. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff on 6 June 2012.
82. The Plaintiff denies resisting a lawful arrest on or about 6 June 2012, and the Plaintiff denies
engaging in any conduct to obstruct governmental administration that would be construed as
resisting a lawful arrest on or about 6 June 2012, and the Plaintiff denies assaulting any
Defendant.
83. Defendant Police Officers (or any other police officer or peace officer) did not have an arrest
warrant for the Plaintiff on 6 June 2012.
84. Defendant Police Officers (or any other police officer or peace officer) did not have a search
warrant to enter the Plaintiff's residence on 6 June 2012.
Page 19 of 42

A0261

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 20 of 42

85. Plaintiff states that she was intentionally confined without her co1t1sc:nt, and that the arrest and
imprisonment of the Plaintiff was not privileged or justified.
86. Plaintiff states that Plaintiff was seized, falsely arrested, and falsely imprisoned in violation
of the Fourth Amendment to the United States Constitution.

87. Upon information and belief, that being the Plaintiff in this case, the Plaintiff was had not
committing any crime or oftense when she was arrested on 6 June 2012, and Plaintiff was
not in possession of - or in close proximity to - any contraband, instrumentalities of a crime,
fruits of a crime, or any other evidence of criminal wrongdoing.

88. Plaintiff states that the Defendant intentionally seized the Plaintiff and that the conduct of the
Defendant shocks

conscience.

89. As a direct and proximate result of the wrongful conduct of Defendants as alleged above,
Plaintiff suffered mental anguish, loss of earnings, loss of capacity for the enjoyment of life, loss
of liberty, physical injury, pain and suffering, and injury to the Plaintiff's reputation and good
name.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount

(5,000,000.00) million

dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff

awarded punitive damages in the amotmt often (10,000,000.00) million

dollars as that amount will sufficiently punish Defendant Police Officers, and Defendant Police
Detectives, for willful and malicious conduct. Said award of punitive damages will serve as an
example to prevent a repetition of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
Page 20 of 42

A0262

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 21 of 42

D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT TWO: FALSE IMPRISONMENT
Plaintiff re-alleges paragraphs 1 through 89 as though set forth in full herein.
90. The Plaintiff states that she was falsely imprisoned in violation of the Fourth, and Fourteenth,
Amendments to the United States Constitution when she was arrested by Defendant Police
Officers on or about 6 June 2012.
91. Plaintiff states the Defendants did not have permission or authority to enter her residence, and
that no member of her residence consented to the police entry into her apartment.
92. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff because on 6 June 2012.
93. The Plaintiff denies resisting a lawful arrest on or about 6 June 2012, and the Plaintiff states
that Plaintiff never obstructed governmental administration when the Police entered Plaintiffs
residence on 6 June 2012. The Plaintiff denies engaging in any conduct that could be construed
as resisting a lawful arrest on or about 6 June 2012. Plaintiff also denies assaulting any
Defendant in this case.

94. Defendant Police Officers (or any other police officer or peace officer) did not have an arrest
warrant for the Plaintiff on 6 June 2012.

95. Defendant Police Officers (or any other police officer or peace officer) did not have an
search warrant for the Plaintiffs residence on 6 June 2012.
96. Plaintiff states that she was intentionally confined without her consent, and that the arrest and
imprisonment of the Plaintiff was not privileged or justified.
Page 21 of 42

A0263

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 22 of 42

97. Plaintiff states that Plaintiff was seized, falsely arrested, and falsely imprisoned in violation
of the Fourth Amendment to the United States Constitution.
98. Upon information and belief, that being the Plaintiff in this case, the Plaintiff was had not
committing any crime or offense when she was arrested on 6 June 2012, and Plaintiff was
not in possession of - or in close proximity to - any contraband, instrumentalities of a crime,
fruits of a crime, or any other evidence of criminal wrongdoing.
99. Plaintiff states that the Defendant intentionally seized the Plaintiff and that the conduct of the
Defendant shocks the conscience.
100. As a direct and proximate result of the wrongful conduct of Defendant Police Officers as
alleged above, Plaintiff suffered mental anguish, loss of earnings, loss of capacity for
the enjoyment oflife, loss ofliberty, physical injury, pain and suffering, and injury to the
Plaintiff's reputation and good name.

WHEREFORE, Plaintiff respectfully requests judgment against Defendant Police Officers and
Defendant Kroski as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as that amount will sufficiently punish Defendant Police Officers' willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
Page 22 of 42

A0264

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 23 of 42

prosecution of this action to be paid by the Defendants.
COUNT THREE: FALSE ARREST
101. Plaintiff re-alleges paragraphs 1 through 100 as though set forth in full herein.
102. The Plaintiff states that she was illegally seized, searched, and arrested in violation of the
First, Fourth, and Fourteenth Amendments to the United States Constitution when she was
arrested by Defendant Police Officers on or about 29 June 2012 or 30 June 2012.
103. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff on 29 June 2012 or 30 June 2012.
104. The Plaintiff states that she committed no crime - and violated no law - on about 29 June
2012 or 30 June 2012. The Plaintiff states that she has a First Amendment right to speak in her
own home.
I 05. Plaintiff states that pursuant to the knock and announce clause of the Fourth Amendment to
the United States Constitution

and clearly established New York Law - the Plaintiff did not

have to open her door for the Defendants.
I 06. As a direct and proximate result of the wrongful conduct of Defendants as alleged above,
Plaintiff suffered mental anguish, loss of earnings, loss of capacity for the enjoyment of life, loss
of liberty, physical injury, pain and suffering, and injury to the Plaintiffs reputation and good
name.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
Page 23 of 42

A0265

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 24 of 42

dollars as that amount will sufficiently punish Defendant Police Officers, and Defendant Police
Detectives, for willful and malicious conduct. Said award of punitive damages wiH serve as an
example to prevent a repetition of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT FOUR: FALSE IMPRISONMENT
Plaintiff re-alleges paragraphs 1 through 106 as though set forth in full herein.
107. The Plaintiff states that she was falsely imprisoned in violation of the First, Fourth, and
Fourteenth, Amendments to the United States Constitution when she was seized and arrested by
Defendant Police Officer Lydia Figueroa, and other Defendants, on or about 29 June 2012 and 30
June 2012.
108. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff on 29 June 2012 or 30 June 2012.
109. The Defendants (or any other police officer or peace officer) did not have an arrest warrant
for the Plaintiff on 29 June 2012 or 30 June 2012.
110. The Defendants (or any other police officer or peace officer) did not have a search warrant
to enter the Plaintiffs residence on 29 June 2012 or 30 June 2012.
111. Plaintiff states that she was intentionally confined without her consent, and that the arrest
and imprisonment of the Plaintiff was not privileged or justified.
112. Plaintiff states that Plaintiff was seized, falsely arrested, and falsely imprisoned in violation
of the Fourth Amendment and Fourteenth Amendment to the United States Constitution.
Page 24 of 42

A0266

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 25 of 42

113. Plaintiff states that she was arrested for exen;ising her First Amendment rights.

114. Upon information and belief, that being the Plaintiff in this case, the Plaintiff had not, and
was not, committing any crime or offense when she was seized/arrested on 30 June 2012, and
Plaintiff was not in possession of - or in close proximity to - any contraband, instrumentalities of
a crime, fruits of a crime, or any other evidence of criminal wrongdoing.
115. Plaintiff states that the Defendants intentionally seized the Plaintiff and that the conduct of
the Defendants shocks the conscience.

116. As a direct and proximate result of the wrongful conduct of the Defendants as alleged
above, Plaintiff suffered mental anguish, loss of earnings, loss of capacity for the enjoyment of
life, loss ofliberty, physical injury, pain and suffering, and injury to the Plaintiffs reputation and
good name.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:

A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;

B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as that amount will sufficiently punish Defendant Police Officers for Defendant's willful
and malicious conduct and that said award of punitive damages will serve as an example to
prevent a repetition of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.

Page 25 of 42

A0267

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 26 of 42

COUNT FIVE: SUBSTANTIVE DUE PROCESS VIOLATION FOR RECKLESS
INVESTIGATION
117. Plaintiff re-alleges paragraphs 1 through 116 as though set forth in full herein.
118. Plaintiff states that Defendant Police Officer denied the Plaintiff substantive due process.
and that the intentional conduct of the New York City Police Officer Stephen Kroski "shocks the
conscience".
119. The Plaintiff states the Defendant Police Officers conducted a reckless investigation in that
the Defendants arrested the Plaintiff- on or about 6 June 2012 - without probable cause, or
arguable probable cause, to believe that the Plaintiff had committed a crime.
120. Plaintiff states that she was at her apartment when Defendant Stephen Kroski, and other
Defendant Police Officers, entered the Plaintiffs apartment without permission or authority.
121. Plaintiff states that she was beaten, seized/arrested., and Plaintiff never gave the Defendant
Police Officers permission to enter here apartment.

WHEREFORE, Plaintiff respectfully requests judgment against the Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;

B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officers for Defendant's willful and
malicious conduct and that said award of punitive damages will serve as an example to prevent a
repetition of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the

Page 26 of 42

A0268

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 27 of 42

prosecution of this action to be paid by the Defendants.
COUNT SIX: SUBSTANTIVE DUE PROCESS VIOLATION FOR RECKLESS
INVESTIGATION
122. Plaintiff re-alleges paragraphs 1 through 12 l though set forth in full herein.
123. Plaintiff states that the Defendant New York City Police Officers denied the Plaintiff
substantive due process, and that the intentional conduct of Defendant New York City Police
Officers "shocks the conscience" in relation to the Plaintiffs arrest on or about 29 June 2012, or
30 June 2012.
124. The Plaintiff states that Defendant New York City Police Officers conducted a reckless
investigation in that the Defendants seized/arrested the Plaintiff without probable cause, or
arguable probable cause, to believe that the Plaintiff had committed a crime.
125. Plaintiff states that she was at her apartment when Defendants entered the Plaintiffs
apartment without permission or authority.
126. Plaintiff states that she was beaten seized/arrested for not consenting to open her door when
the Defendants demanded entry to Plaintiffs residence.

WHEREFORE, Plaintiff respectfully requests judgment against the Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officers for Defendants' willful and
malicious conduct and that said award of punitive damages will serve as an example to prevent a
repetition of such conduct in the future;

Page 27 of 42

A0269

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 28 of 42

C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT SEVEN: THE CITY OF NEW YORK PROVIDED INADEQUATE TRAINING AND
INADEQUATE SUPERVISION TO DEFENDANT POLICE OFFICER STEPHEN KROSKI
AND OTHER DEFENDANT POLICE OFFICERS
127. Plaintiff re-alleges paragraphs 1 through 126 as though set forth in full herein.
128. Plaintiff states that the City of New York was deliberately indifferent, and failed to properly
train or supervise the Defendant New York City Police Officers.
129. On 6 June 2012 the Defendants came to the Plaintiffs residence and demanded entry
without an arrest warrant and without a search warrant.
130. The Plaintiff had not committed any crime or violated any law.
131. The Defendants forced their way into the Plaintift' s apartment without consent. Plaintiff
was seized/arrested and physically beaten by Defendant Police Officers.
132. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot enter an individual's home if they
do not have an arrest warrant, a search warrant, or some compelling reason.
133. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot use excessive physical force
against an individual when they enter an individual's home without an arrest warrant, a search
warrant, or some compelling reason, and that individual has not committed any criminal offense.
134. Plaintiff states that the conduct of the Defendants'

as outlined in this complaint- will

frequently result in the deprivation of the constitutional rights of individuals.
Page 28 of 42

A0270

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 29 of 42

WHEREFORE, Plaintiff respectfully requests judgment against Defendant as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
C. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT EIGHT: THE CITY OF NEW YORK PROVIDED INADEQUATE TRAINING AND
INADEQUATE SUPERVISION TO DEFENDANT POLICE OFFICER LYDIA FIGUEROA
AND OTHER DEFENDANT POLICE OFFICERS
135. Plaintiff re-alleges paragraphs 1 through 134 as though set forth in full herein.
136. Plaintiff states that the City of New York was deliberately indifferent, and failed to properly
train or supervise the Defendant New York City Police Officers.
137. On 29 June 2012 and 30 June 2012 the Defendants came to the Plaintiff's residence and
demanded entry without an arrest warrant and without a search warrant.
138. The Plaintiff had not committed any crime or violated any law.
139. The Defendants forced their way into the Plaintiffs apartment without consent. Plaintiff
was seized/arrested and physically beaten by Defendant Police Officers.
140. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot enter an individual's home if they
do not have an arrest warrant, a search warrant, or some compelling reason.
141. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot use excessive physical force
against an individual when they enter an individual's home without an arrest warrant, a search
Page 29 of 42

A0271

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 30 of 42

warrant, or some compelling reason, and that individual has not committed any criminal offense.
142. Plaintiff states that the conduct of the Defendants'

as outlined in this complaint - will

frequently result in the deprivation of the constitutional rights of individuals.

WHEREFORE, Plaintiff respectfully requests judgment against Defendant as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and

C. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT NINE: FOURTH AMENDMENT MALICIOUS PROSECUTION CLAIM
143. Plaintiff re-alleges paragraphs 1 through 142 as though set forth in full herein.
144. The Plaintiff states that she was malicious prosecuted within the purview of the Fourth

Amendment and Fourteenth Amendment of the United States Constitution.
145. The Plaintiff states that she was deprived of her liberty on 6 June 2012 when she was

arrested and seized without probable cause, and that said arrest and seizure was unreasonable
because the Plaintiff had not committed any crime or violated any law.
146. The Plaintiff states that she was arraigned and forced to come to Court on every court date

regarding the afore-mentioned arrest prior to the case being dismissed on the merits and sealed.
14 7. The Plaintiff states that the Plaintiff had committed any crime when she was arrested by

Defendant Police Officers on 6 June 2012.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
Page 30 of 42

A0272

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 31 of 42

dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT TEN: FOURTH AMENDMENT MALICIOUS PROSECUTION CLAIM
148. Plaintiff re-alleges paragraphs 1 through 147 as though set forth in full herein.
149. The Plaintiff states that she was malicious prosecuted within the purview of the Fourth
Amendment and Fourteenth Amendment of the United States Constitution.
150. The Plaintiff states that she was deprived of her liberty on or about 29 June 2012, and/or 30
June 2012 when she was arrested and seized without probable cause, and that said arrest and
seizure was unreasonable because the Plaintiff had not committed any crime or violated any law.
151. The Plaintiff states that she was arraigned and forced to come to Court on every court date
regarding the afore-mentioned arrest prior to the case being dismissed on the merits and sealed.
152. The Plaintiff states that the Plaintiff had committed any crime when she was arrested by
Defendant Police Officers on or about 29 June 2012, and 30 June 2012.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
Page 31 of 42

A0273

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 32 of 42

B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of pw1itive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT ELEVEN: EXCESSIVE FORCE
153. Plaintiff re-alleges paragraphs 1 through 152 as though set forth in full herein.
154. Plaintiff states that on or about 6 June 2012 the misconduct of Defendant Police Officers as alleged above - violated Plaintiffs right to be free from the W1reasonable and excessive use of
force.
155. Defendants' misconduct directly and proximately caused Plaintiff to suffer injury including
bodily injury, pain and suffering, shock, extreme emotional distress, and humiliation.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently pW1ish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;

C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
Page 32 of 42

A0274

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 33 of 42

D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT TWELVE: EXCESSIVE FORCE
156.

Plaintiff re-alleges paragraphs 1 through 155 as though set forth in full herein.

157. Plaintiff states that on, about, or between 29 June 2014 and 30 June 2014, the misconduct of
the Defendants, and several John Doe Defendants

as alleged above - violated Plaintiffs right to

be free from the unreasonable and excessive use of force as guaranteed by the Fourth Amendment
and the Fourteenth Amendment to the United States Constitution.
158. Defendants' misconduct directly and proximately caused Plaintiff to suffer injury including
bodily injury, pain and suffering, shock, extreme emotional distress, and humiliation.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive dan1ages will serve as an example to prevent a repetition
of such conduct in the future;

C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
Page 33 of 42

A0275

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 34 of 42

prosecution of this action to be paid by the Defendants.
NEW YORK STA TE CLAIMS
159. The Plaintiff states that the City of New York is vicariously liable for the New York State

intentional torts - as alleged in this complaint - committed by Defendants under the doctrine of

respondeat superior.
160. Plaintiff states that there is a master-servant relationship between the Defendants and the
City ofNew York.
161. The Plaintiff states that the Defendants were operating within the scope of their emplo1n1ent
- in their official capacity - when they committed the acts as alleged in this Complaint, and that
the Defendants were acting in furtherance of the City of New York's business or purpose.
COUNT THIRTEEN: FALSE ARREST AND IMPRISONMENT
162. Plaintiff re-alleges paragraphs l through 161 as though set forth in full herein.
163. Plaintiff states that she was falsely arrested, falsely imprisoned, and intentionally confined
without her consent when Defendant New York City Police Officers

acting with other

Defendants, intentionally seized and arrested the Plaintiff - on 6 June 2012

without probable

cause.
164. Plaintiff states that the arrest - and confinement - of the Plaintiff was not otherwise privileged
or justified; and Plaintiff was conscious of the confinement
165. Plaintiff states that the false arrest/false imprisonment - and intentional confinement without
consent - was done with malice.
166. Plaintiff states that the false arrest/false imprisonment was not otherwise privileged.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
Page 34 of 42

A0276

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 35 of 42

A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;

B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT FOURTEEN: FALSE ARREST AND FALSE IMPRISONMENT
167. Plaintiff re-alleges paragraphs 1 through 166 as though set forth in full herein.
168. Plaintiff states that she was falsely arrested, falsely imprisoned, and intentionally confined
without her consent when Defendant New York City Police Officers intentionally seized and
arrested the Plaintiff - on 29 June 2012 or 30 June 2012 - without probable cause.
169. Plaintiff states that the arrest - and confinement - of the Plaintiff was not otherwise privileged
or justified; and Plaintiff was conscious of the confinement.
170. Plaintiff states that the false arrest/false imprisonment - and intentional confinement without
consent - was done with malice.
171. Plaintiff states that the false arrest/false imprisonment was not otherwise privileged.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
Page 35 of 42

A0277

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 36 of 42

B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT FIFTEEN: INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS
172. Plaintiff re-alleges paragraphs 1 through 171 as though set forth in full here.
173. The Plaintiff states that, on 6 June 201

the Defendants engaged, were deliberately

indifferent, or condoned conduct that was extreme and outrageous.
174. That said conduct of the Defendants was performed with the intent to cause, or in disregard
of a substantial probability of causing, severe emotional distress.

175. The Plaintiff states that the actions of the Defendants caused severe emotional distress.
WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;

C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
Page 36 of 42

A0278

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 37 of 42

D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT SIXTEEN: INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS
176. Plaintiff re-alleges paragraphs 1 through 175 as though set forth in full here.
177. The Plaintiff states that on, about, or between 29 June 2012 and 30 June 2012, the
Defendants engaged, were deliberately indifferent, or condoned conduct that was extreme and
outrageous.
178. That said conduct of the Defendants was performed with the intent to cause, or in disregard
of a substantial probability of causing, severe emotional distress.
179. The Plaintiff states that the actions of the Defendants caused severe emotional distress.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT SEVENTEEN: MALICIOUS PROSECUTION
180. Plaintiff re-alleges paragraphs I through 179 as though set forth in full herein.
Page 37 of 42

A0279

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 38 of 42

181. The Plaintiff states that the criminal judicial proceedings that is the subject of this complaint
was terminated in favor of the Plaintiff because all charges were dismissed on the merits.
182. The Plaintiff states that the Defendant Police Officers did not have probable cause to arrest
the Plaintiff on 6 June 2012.
183. Plaintiff states that the Defendants arrested the Plaintiff for the wrong, or an improper
motive and that the judicial proceeding was not commenced so that justice could be served.
184. Plaintiff states that the Defendants arrested the Plaintiff because
Defendant's own statements

according to one of the

the Defendants wanted to teach the Plaintiff a lesson.

185. Plaintiff states that the Defendants acted with malice when they seized/arrested the Plaintiff.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT EIGHTEEN: MALICIOUS PROSECUTION
Plaintiff re-alleges paragraphs I through 185 as though set forth in full herein.
186. The Plaintiff states that the criminal judicial proceedings that is the subject of this complaint
Page 38 of 42

A0280

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 39 of 42

was terminated in favor of the Plaintiff because all charges were dismissed on the merits.
187. The Plaintiff states that the Defendant Police Officers, and the other Defendants, did not
have probable cause to arrest the Plaintiff on or about 29 June 2012 or 30 June 2012.
188. Plaintiff states that the Defendants arrested the Plaintiff for the wrong, or an improper
motive and that the judicial proceeding was not commenced so that justice could be served.
189. Plaintiff states that the Defendants arrested the Plaintiff because - according to one of the
Defendant's own statements - the Defendants wanted to teach the Plaintiff a lesson.
190. Plaintiff states that the Defendants acted with malice when they seized/arrested the Plaintiff.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT NINETEEN: ASSAULT
191. Plaintiff re-alleges paragraphs 1 through 190 as though set forth in full herein.
192. Plaintiff states that on 6 June 2012, Defendant Police Officers intentionally placed the
Plaintiff in fear of imminent harmful or offensive conduct.
Page 39 of 42

A0281

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 40 of 42

193. Plaintiff states that the Defendants made an unjustified threat of force against the Plaintiff
that created a reasonable apprehension of immediate physical harm, and that the Defendants
acted on the afore-mentioned threat and caused the Plaintiff physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT TWENTY: ASSAULT
194. Plaintiff re-alleges paragraphs 1 through 193 as though set forth in full herein.
195. Plaintiff states that on, about, or between 29 June 2012 and 30 June 2012, the Defendants
intentionally placed the Plaintiff in fear of imminent harmful or offensive conduct.
196. Plaintiff states that the Defendants made an unjustified threat of force against the Plaintiff
that created a reasonable apprehension of immediate physical harm, and that the Defendants
acted on the afore-mentioned threat and caused the Plaintiff physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
Page 40 of 42

A0282

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 41 of 42

dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT TWENTY ONE: BATTERY
197. Plaintiff re-alleges paragraphs 1 through 196 as though set forth in full herein.
198. Plaintiff states that on 6 June 2012 Defendant Police Officers intentionally make bodily
contact with the Plaintiff and caused the Plaintiff to suffer physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
Page 41 of 42

A0283

Case 1:15-cv-03480-PAE Document 56 Filed 01/20/17 Page 42 of 42

COUNT TWENTY TWO: BATTERY
199. Plaintiff re-alleges paragraphs 1 through 198 as though set forth in full herein.
200. Plaintiff states that on, about, or between 29 June 2012 and 30 June 2012, the Defendant
Police Officers intentionally make bodily contact with the Plaintiff and caused the Plaintiff to
suffer physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million

dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.

/

'

!

/

'/;

I
·-:-'--tr--t-..:........C.--=---1t--+=>'-1---1.~£..._----\/Lawrence P. L re
Law Office of a rence LaBrew
Attorney for Plaintiff Waheedah Shaheed
160 Broadway Suite 600 6th Floor
New York, New York 10038
Tel(212)385-7500

Page 42 of 42

A0284

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 1 of 19

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
----------------------------------------------------------------------- x
WAHEEDAH SHAHEED,
Plaintiff,
-againstTHE CITY OF NEW YORK; NEW YORK CITY
POLICE OFFICER STEPHAN KROSKI (In an Individual
Capacity and In an Official Capacity); NEW YORK CITY
POLICE OFFICER PAUL BLISS (In an Individual
Capacity and In an Official Capacity); NEW YORK CITY
POLICE OFFICER JONATHAN RODRIGUEZ (In an
Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE OFFICER LYDIA FIGUEROA (In
an Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE DETECTIVE JOHN DOE
(fictitious name) (In an Individual Capacity and In an
Official Capacity); NEW YORK CITY POLICE
DETECTIVE JAMES DOE (fictitious name) (In an
Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE OFFICER JANE DOE (fictitious
name) (In an Individual Capacity and In an Official
Capacity); NEW YORK CITY POLICE OFFICER JOHN
DOE (fictitious name) (In an Individual Capacity and In an
Official Capacity); NEW YORK CITY POLICE OFFICER
JAMES DOE (fictitious name) (In an Individual Capacity
and In an Official Capacity),

ANSWER TO THE
COMPLAINT ON BEHALF
OF THE CITY OF NEW
YORK, STEPHAN KROSKI,
PAUL BLISS, JONATHAN
RODRIGUEZ AND LYDIA
FIGUEROA
15 CV 3480 (PAE)
Jury Trial Demanded

Defendants.
----------------------------------------------------------------------- x
Defendants City of New York, Stephan Kroski, Paul Bliss, Jonathan Rodriguez
and Lydia Figueroa by their attorney, Zachary W. Carter, Corporation Counsel of the City of
New York, for their answer to the complaint, respectfully allege, upon information and belief, as
follows:
1.

Deny the allegations set forth in paragraph “1” of the complaint, except admit that

plaintiff purports to bring this action and name the parties stated therein.
Appendix J

A0285

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 2 of 19

2.

Deny the allegations set forth in paragraph “2” of the complaint, except admit that

plaintiff purports to bring this action as stated therein.
3.

Deny the allegations set forth in paragraph “3” of the complaint, except admit that

plaintiff purports to bring this action as stated therein.
4.

Deny the allegations set forth in paragraph “4” of the complaint, except admit that

plaintiff purports to invoke the jurisdiction of the Court as stated therein.
5.

Deny the allegations set forth in paragraph “5” of the complaint, except admit that

plaintiff purports to invoke the supplemental jurisdiction of the Court as stated therein.
6.

Admit the allegations set forth in paragraph “6” of the complaint.

7.

Deny the allegations set forth in paragraph “7” of the complaint, except admit that

plaintiff purports to base venue as stated therein.
8.

Paragraph “8” of the complaint sets forth a demand for a jury trial and therefore,

no response is required.
9.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “9” of the complaint.
10.

Deny the allegations set forth in paragraph “10” of the complaint, except admit

that the City of New York employed Stephen Kroski as a police officer at the 25th Precinct on
June 6, 2012, and admit that plaintiff purports to sue defendant Kroski in his individual and
official capacities.
11.

Deny the allegations set forth in paragraph “11” of the complaint, except admit

that the City of New York employed Paul Bliss as a police officer at the 25th Precinct on June 6,
2012, and admit that plaintiff purports to sue defendant Bliss in his individual and official
capacities.

-2-

A0286

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 3 of 19

12.

Deny the allegations set forth in paragraph “12” of the complaint, except admit

that the City of New York employed Jonathan Rodriguez as a police officer at the 25th Precinct
on June 6, 2012, and admit that plaintiff purports to sue defendant Rodriguez in his individual
and official capacities.
13.

Deny the allegations set forth in paragraph “13” of the complaint, except admit

that the City of New York employed Lydia Figueroa as a police officer at the 25th Precinct on
June 29, 2012, and admit that plaintiff purports to sue defendant Figueroa in her individual and
official capacities.
14.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “14” of the complaint.
15.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “15” of the complaint.
16.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “16” of the complaint.
17.

Deny the allegations set forth in paragraph “17” of the complaint.

18.

Deny the allegations set forth in paragraph “18” of the complaint.

19.

Deny the allegations set forth in paragraph “19” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
what plaintiff was informed or believes.
20.

Deny the allegations set forth in paragraph “20” of the complaint.

21.

Deny the allegations set forth in paragraph “21” of the complaint.

22.

Deny the allegations set forth in paragraph “22” of the complaint.

-3-

A0287

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 4 of 19

23.

Deny the allegations set forth in paragraph “23” of the complaint, except admit

that the City of New York is a municipal corporation organized under the laws of the State of
New York.
24.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “24” of the complaint,
25.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “25” of the complaint, except admit that on the evening of June
6, 2012, defendant officers Stephan Kroski, Jonathan Rodriguez and Paul Bliss were at or near
26 East 129th Street, Apartment 3A in Manhattan.
26.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “26” of the complaint.
27.

Deny the allegations set forth in paragraph “27” of the complaint, except admit

that police officers entered the apartment.
28.

Deny the allegations set forth in paragraph “28” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
what plaintiff said or heard.
29.

Deny the allegations set forth in paragraph “29” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
what plaintiff said or heard.
30.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “30” of the complaint.

-4-

A0288

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 5 of 19

31.

Deny the allegations set forth in paragraph “31” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
what plaintiff said.
32.

Deny the allegations set forth in paragraph “32” of the complaint, except admit

that plaintiff was arrested.
33.

Deny the allegations set forth in paragraph “33” of the complaint.

34.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “34” of the complaint, except admit that plaintiff was arrested.
35.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “35” of the complaint.
36.

Deny the allegations set forth in paragraph “36” of the complaint, except admit

that plaintiff was transported to the 25th Precinct, and deny knowledge or information sufficient
to form a belief as to the truth of the allegations concerning what plaintiff purportedly said to
unidentified police officers or what unidentified police officers purportedly said to her.
37.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “37” of the complaint, except admit that plaintiff was taken to
the hospital.
38.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “38” of the complaint, except admit plaintiff was arrested and
taken to the hospital.
39.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “39” of the complaint, except admit that plaintiff was arrested
for assault, obstructing governmental administration and resisting arrest.

-5-

A0289

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 6 of 19

40.

Deny the allegations set forth in paragraph “40” of the complaint, except admit

that plaintiff was arrested under arrest number M12650516 relating to New York County
Criminal Court Docket No. 2012NY044692, and that plaintiff’s criminal case was dismissed on
September 18, 2013.
41.

Deny the allegations set forth in paragraph “41” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
any purported conversations plaintiff may have had with Det. McNamara.
42.

Deny the allegations set forth in paragraph “42” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
any purported conversations plaintiff may have had with Det. McNamara.
43.

Deny the allegations set forth in paragraph “43” of the compliant, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
what happened to the apartment.
44.

Deny the allegations set forth in paragraph “44” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
the purported forced entry.
45.

Deny the allegations set forth in paragraph “45” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
the purported forced entry and plaintiff’s removal from the apartment.
46.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “46” of the complaint.
47.

Deny the allegations set forth in paragraph “47” of the complaint, except admit

that plaintiff was taken from Harlem Hospital to the 25th Precinct.

-6-

A0290

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 7 of 19

48.

Deny the allegations set forth in paragraph “48” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
plaintiff’s transfer to and from Bellevue Hospital.
49.

Deny the allegations set forth in paragraph “49” of the complaint.

50.

Deny the allegations set forth in paragraph “50” of the complaint, except admit

that plaintiff was charged with obstructing governmental administration.
51.

Deny the allegations set forth in paragraph ”51” of the complaint insofar as it sets

forth averments of fact; insofar as it sets forth conclusions of law, no response is required.
52.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “52” of the complaint, except admit that the charges against the
plaintiff were dismissed by the District Attorney’s Office on April 2, 2014.
53.

In response to the allegations set forth in paragraph “53” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“52”, inclusive of this answer, as if fully set forth herein.
54.

Deny the allegations set forth in paragraph “54” of the complaint, except admit

that plaintiff was arrested on June 6, 2012.
55.

Deny the allegations set forth in paragraph “55” of the complaint.

56.

Deny the allegations set forth in paragraph “56” of the complaint.

57.

Deny the allegations set forth in paragraph “57” of the complaint.

58.

Deny the allegations set forth in paragraph “58” of the complaint.

59.

Deny the allegations set forth in paragraph “59” of the complaint.

60.

Deny the allegations set forth in paragraph “60” of the complaint.

61.

Deny the allegations set forth in paragraph “61” of the complaint.

-7-

A0291

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 8 of 19

62.

Deny the allegations set forth in paragraph “62” of the complaint.

63.

Deny the allegations set forth in paragraph “63” of the complaint and its

wherefore clause and subparts.
64.

In response to the allegations set forth in the unnumbered paragraph, under the

title “Count Two : False Imprisonment” on page 15 of the complaint, defendants repeat and
reallege their responses set forth in the preceding paragraphs “1” through “63”, inclusive of this
answer, as if fully set forth herein.
65.

Deny the allegations set forth in paragraph “64” of the complaint.

66.

Deny the allegations set forth in paragraph “65” of the complaint.

67.

Deny the allegations set forth in paragraph “66” (which is an incomplete

sentence) of the complaint.
68.

Deny the allegations set forth in paragraph “67” of the complaint.

69.

Deny the allegations set forth in paragraph “68” of the complaint.

70.

Deny the allegations set forth in paragraph “69” of the complaint.

71.

Deny the allegations set forth in paragraph “70” of the complaint.

72.

Deny the allegations set forth in paragraph “71” of the complaint.

73.

Deny the allegations set forth in paragraph “72” of the complaint.

74.

Deny the allegations set forth in paragraph “73” of the complaint.

75.

Deny the allegations set forth in paragraph “74” of the complaint.

76.

Deny the allegations set forth in paragraph “75” of the complaint and its

wherefore clause and subparts.

-8-

A0292

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 9 of 19

77.

In response to the allegations set forth in paragraph “76” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“76”, inclusive of this answer, as if fully set forth herein.
78.

Deny the allegations set forth in paragraph “77” of the complaint.

79.

Deny the allegations set forth in paragraph “78” of the complaint.

80.

Deny the allegations set forth in paragraph “79” of the complaint.

81.

Deny the allegations set forth in paragraph ”80” of the complaint insofar as it sets

forth averments of fact; insofar as it sets forth conclusions of law, no response is required.
82.

Deny the allegations set forth in paragraph “81” of the complaint and its

wherefore clause and subparts.
83.

In response to the allegations set forth in the unnumbered paragraph, under the

title “Count Four : False Imprisonment” on page 18 of the complaint, defendants repeat and
reallege their responses set forth in the preceding paragraphs “1” through “82”, inclusive of this
answer, as if fully set forth herein.
84.

Deny the allegations set forth in paragraph “82” of the complaint except admit

that plaintiff was arrested.
85.

Deny the allegations set forth in paragraph “83” of the complaint.

86.

Deny the allegations set forth in paragraph “84” of the complaint.

87.

Deny the allegations set forth in paragraph “85” of the complaint.

88.

Deny the allegations set forth in paragraph “86” of the complaint.

89.

Deny the allegations set forth in paragraph “87” of the complaint.

90.

Deny the allegations set forth in paragraph “88” of the complaint.

91.

Deny the allegations set forth in paragraph “89” of the complaint.

-9-

A0293

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 10 of 19

92.

Deny the allegations set forth in paragraph “90” of the complaint and its

wherefore clause and subparts.
93.

In response to the allegations set forth in paragraph “91” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“92”, inclusive of this answer, as if fully set forth herein.
94.

Deny the allegations set forth in paragraph “92” of the complaint.

95.

Deny the allegations set forth in paragraph “93” of the complaint.

96.

Deny the allegations set forth in paragraph “94” of the complaint.

97.

Deny the allegations set forth in paragraph “95” of the complaint and its

wherefore clause and subparts.
98.

In response to the allegations set forth in paragraph “96” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“97”, inclusive of this answer, as if fully set forth herein.
99.

Deny the allegations set forth in paragraph “97” of the complaint.

100.

Deny the allegations set forth in paragraph “98” of the complaint.

101.

Deny the allegations set forth in paragraph “99” of the complaint.

102.

Deny the allegations set forth in paragraph “100” of complaint and its wherefore

clause and subparts.
103.

In response to the allegations set forth in paragraph “101” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“102”, inclusive of this answer, as if fully set forth herein.
104.

Deny the allegations set forth in paragraph “102” of the complaint.

105.

Deny the allegations set forth in paragraph “103” of the complaint.

- 10 -

A0294

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 11 of 19

106.

Deny the allegations set forth in paragraph “104” of the complaint.

107.

Deny the allegations set forth in paragraph “105” of the complaint.

108.

Deny the allegations set forth in paragraph “106” of the complaint.

109.

Deny the allegations set forth in paragraph “107” of the complaint.

110.

Deny the allegations set forth in paragraph “108” of the complaint and its

wherefore clause and subparts.
111.

In response to the allegations set forth in paragraph “109” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“110”, inclusive of this answer, as if fully set forth herein.
112.

Deny the allegations set forth in paragraph “110” of the complaint.

113.

Deny the allegations set forth in paragraph “111” of the complaint.

114.

Deny the allegations set forth in paragraph “112” of the complaint.

115.

Deny the allegations set forth in paragraph “113” of the complaint.

116.

Deny the allegations set forth in paragraph “114” of the complaint.

117.

Deny the allegations set forth in paragraph “115” of the complaint.

118.

Deny the allegations set forth in paragraph “116” of the complaint and its

wherefore clause and subparts.
119.

In response to the allegations set forth in paragraph “117” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“118”, inclusive of this answer, as if fully set forth herein.
120.

Deny the allegations set forth in paragraph “118” of the complaint.

121.

Deny the allegations set forth in paragraph “119” of the complaint.

- 11 -

A0295

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 12 of 19

122.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “120” of the complaint.
123.

Deny the allegations set forth in paragraph “121” of the complaint and its

wherefore clause and subparts.
124.

In response to the allegations set forth in paragraph “122” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“123”, inclusive of this answer, as if fully set forth herein.
125.

Deny the allegations set forth in paragraph “123” of the complaint.

126.

Deny the allegations set forth in paragraph “124” of the complaint.

127.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “125” of the complaint.
128.

Deny the allegations set forth in paragraph “126” of the complaint and its

wherefore clause and subparts.
129.

In response to the allegations set forth in paragraph “127” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“128”, inclusive of this answer, as if fully set forth herein.
130.

Deny the allegations set forth in paragraph “128” of the complaint.

131.

Deny the allegations set forth in paragraph “129” of the complaint and its

wherefore clause and subparts.
132.

In response to the allegations set forth in paragraph “130” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“131”, inclusive of this answer, as if fully set forth herein.
133.

Deny the allegations set forth in paragraph “131” of the complaint.

- 12 -

A0296

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 13 of 19

134.

Deny the allegations set forth in paragraph “132” of the complaint and its

wherefore clause and subparts.
135.

Deny the allegations set forth in paragraph “133” of the complaint.

136.

Deny the allegations set forth in paragraph “134” of the complaint insofar as it

purports to set forth averments of fact; insofar as it sets forth conclusions of law, no response is
required.
137.

Deny the allegations set forth in paragraph “135” of the complaint insofar as it

purports to set forth averments of fact; insofar as it sets forth conclusions of law, no response is
required.
138.

In response to the allegations set forth in paragraph “136” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“137”, inclusive of this answer, as if fully set forth herein.
139.

Deny the allegations set forth in paragraph “137” of the complaint.

140.

Deny the allegations set forth in paragraph “138” of the complaint.

141.

Deny the allegations set forth in paragraph “139” of the complaint.

142.

Deny the allegations set forth in paragraph “140” of the complaint and its

wherefore clause and subparts.
143.

In response to the allegations set forth in paragraph “141” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“142”, inclusive of this answer, as if fully set forth herein.
144.

Deny the allegations set forth in paragraph “142” of the complaint.

145.

Deny the allegations set forth in paragraph “143” of the complaint.

146.

Deny the allegations set forth in paragraph “144” of the complaint.

- 13 -

A0297

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 14 of 19

147.

Deny the allegations set forth in paragraph “145” of the complaint and its

wherefore clause and subparts.
148.

In response to the allegations set forth in paragraph “146” of the complaint,

defendants repeats and reallege their responses set forth in the preceding paragraphs “1” through
“147”, inclusive of this answer, as if fully set forth herein.
149.

Deny the allegations set forth in paragraph “147” of the complaint.

150.

Deny the allegations set forth in paragraph “148” of the complaint.

151.

Deny the allegations set forth in paragraph “149” of the complaint and its

wherefore clause and subparts.
152.

In response to the allegations set forth in paragraph “150” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“151”, inclusive of this answer, as if fully set forth herein.
153.

Deny the allegations set forth in paragraph “151” of the complaint.

154.

Deny the allegations set forth in paragraph “152” of the complaint.

155.

Deny the allegations set forth in paragraph “153” of the complaint and its

wherefore clause and subparts.
156.

In response to the allegations set forth in paragraph “154” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“155”, inclusive of this answer, as if fully set forth herein.
157.

Deny the allegations set forth in paragraph “155” of the complaint, except admit

that the charges were dismissed.
158.

Deny the allegations set forth in paragraph “156” of the complaint.

159.

Deny the allegations set forth in paragraph “157” of the complaint.

- 14 -

A0298

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 15 of 19

160.

Deny the allegations set forth in paragraph “158” of the complaint.

161.

Deny the allegations set forth in paragraph “159” of the complaint and its

wherefore clause and subparts.
162.

In response to the allegations set forth in the unnumbered paragraph under the

title “Count Eighteen: Malicious Prosecution” on page 33, defendants repeat and reallege their
responses set forth in the preceding paragraphs “1” through “161”, inclusive of this answer, as if
fully set forth herein.
163.

Deny of the allegations set forth in paragraph “160” of the complaint, except

admit that the charges were dismissed.
164.

Deny the allegations set forth in paragraph “161” of the complaint.

165.

Deny the allegations set forth in paragraph “162” of the complaint.

166.

Deny the allegations set forth in paragraph “163” of the complaint.

167.

Deny the allegations set forth in paragraph “164” of the complaint and its

wherefore clause and subparts.
168.

In response to the allegations set forth in paragraph “165” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“167”, inclusive of this answer, as if fully set forth herein.
169.

Deny the allegations set forth in paragraph “166” of the complaint.

170.

Deny the allegations set forth in paragraph “167” of the complaint and its

wherefore clause and subparts.
171.

In response to the allegations set forth in paragraph “168” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“170”, inclusive of this answer, as if fully set forth herein.

- 15 -

A0299

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 16 of 19

172.

Deny the allegations set forth in paragraph “169” of the complaint, except

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
plaintiff’s state of mind.
173.

Deny the allegations set forth in paragraph “170” of the complaint and its

wherefore clause and subparts.
174.

In response to the allegations set forth in paragraph “171” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“173”, inclusive of this answer, as if fully set forth herein.
175.

Deny the allegations set forth in paragraph “172” of the complaint and its

wherefore clause and subparts.
176.

In response to the allegations set forth in paragraph “173” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“175”, inclusive of this answer, as if fully set forth herein.
177.

Deny the allegations set forth in paragraph “174” of the complaint and its

wherefore clause and subparts.

AS AND FOR A FIRST AFFIRMATIVE DEFENSE:
178.

The complaint fails to state a claim upon which relief can be granted.
AS AND FOR A SECOND AFFIRMATIVE DEFENSE:

179.

Any injury alleged to have been sustained resulted from plaintiff’s own culpable

or negligent conduct and/or the intervening conduct of third parties, and was not the proximate
result of any act by the defendants.

- 16 -

A0300

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 17 of 19

AS AND FOR A THIRD AFFIRMATIVE DEFENSE:
180.

There was probable cause for the entry and for plaintiff’s arrest, detention and

prosecution.
AS AND FOR A FOURTH AFFIRMATIVE DEFENSE:
181.

Defendants acted within the lawful and proper exercise of their discretion.
AS AND FOR A FIFTH AFFIRMATIVE DEFENSE:

182.

Plaintiff provoked any incident.
AS AND FOR A SIXTH AFFIRMATIVE DEFENSE:

183.

No punitive damages can be assessed against the City of New York.
AS AND FOR A SEVENTH AFFIRMATIVE DEFENSE:

184.

To the extent any force was used, it was reasonable, necessary, and justified.
AS AND FOR AN EIGHTH AFFIRMATIVE DEFENSE:

185.

Defendants have not violated any rights, privileges or immunities under the

Constitution or laws of the United States or the State of New York or any political subdivision
thereof, or any act of Congress providing for the protection of civil rights.
AS AND FOR A NINTH AFFIRMATIVE DEFENSE:
186.

To the extent the complaint alleges any claims against the City of New York

arising under state law, such claims are barred by the doctrine of immunity for judgmental errors
in the exercise of governmental functions.
AS AND FOR A TENTH AFFIRMATIVE DEFENSE:
187.

The individual defendants have not violated any clearly established constitutional

or statutory right of which a reasonable person would have known and, therefore, are protected
by qualified immunity.

- 17 -

A0301

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 18 of 19

WHEREFORE, Defendants City of New York, Stephan Kroski, Paul Bliss, Jonathan
Rodriguez and Lydia Figueroa request judgment dismissing the complaint in its entirety, together
with the costs and disbursements of this action, and such other and further relief as the Court
may deem just and proper.
Dated:

New York, New York
August 11, 2015
ZACHARY W. CARTER
Corporation Counsel of the
City of New York
Attorney for Defendants City of New York, Stephan
Kroski, Paul Bliss, Jonathan Rodriguez and Lydia
Figueroa
100 Church Street
New York, New York 10007
(212) 356-2404
By:

To:

/s/
Deborah L. Mbabazi
Assistant Corporation Counsel

VIA ECF
Lawrence P. LaBrew, Esq.
Attorney for Plaintiff
160 Broadway, Suite 600
New York, NY 10038

- 18 -

A0302

Case 1:15-cv-03480-PAE Document 11 Filed 08/11/15 Page 19 of 19

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Docket No. 15 CV 3480 (PAE)
WAHEEDAH SHAHEED,
Plaintiff,
-againstCITY OF NEW YORK; NEW YORK CITY POLICE OFFICER STEPHAN
KROSKI (In an Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE OFFICER PAUL BLISS (In an Individual Capacity
and In an Official Capacity); NEW YORK CITY POLICE OFFICER
JONATHAN RODRIGUEZ (In an Individual Capacity and In an Official
Capacity); NEW YORK CITY POLICE OFFICER LYDIA FIGUEROA (In
an Individual Capacity and In an Official Capacity); NEW YORK CITY
POLICE DETECTIVE JOHN DOE (fictitious name) (In an Individual
Capacity and In an Official Capacity); NEW YORK CITY POLICE
DETECTIVE JAMES DOE (fictitious name) (In an Individual Capacity and
In an Official Capacity); NEW YORK CITY POLICE OFFICER JANE DOE
(fictitious name) (In an Individual Capacity and In an Official Capacity);
NEW YORK CITY POLICE OFFICER JOHN DOE (fictitious name) (In an
Individual Capacity and In an Official Capacity); NEW YORK CITY
POLICE OFFICER JAMES DOE (fictitious name) (In an Individual
Capacity and In an Official Capacity)
Defendants.
ANSWER TO COMPLAINT ON BEHALF OF DEFENDANTS CITY
OF NEW YORK, STEPHAN KROSKI, PAUL BLISS, JONATHAN
RODRIGUEZ AND LYDIA FIGUEROA
ZACHARY W. CARTER
Corporation Counsel of the City of New York
Attorney for Defendants City of New York, Stephan Kroski, Paul Bliss,
Jonathan Rodriguez and Lydia Figueroa
100 Church Street
New York, N.Y. 10007
by: Deborah L. Mbabazi
Assistant Corporation Counsel
Tel: (212) 356-2404
Due and timely service is hereby admitted.
New York, N.Y. ............................................................. , 2015
.......................................................................................... Esq.
Attorney for ..............................................................................

- 19 -

A0303

Case 1:14-cv-07424-PAE Document 99-21 Filed 08/10/17 Page 1 of 1
(

~y COURT OF THE STATE OF NEW YORK
. Y OF NEW YORK

the- Matter of the Application ofthe CoRllllissioner of
Administration for Children•s Services, Special ORDER AlITHORIZING ENTRY OF
, ·Services for Children. for Authori2::ation to &.te. Preroi~es PRE.MIS HS PURSUANT TO PCA
Known as:
Section : 034
Z6 East 129th Strfft, Apartmcot 3A
New York. NY 10035
Docket l fo.: NN-21912~13/12
Pursuant to Family. Court A0l ~1034
1

:rlie

- - ----"--- --~~-"------ - - .

Uppo·Lhe ap.plfcttiQnof'1bc ~ion~ qfTbe Adtll,irusliBlion. for, :l'lil~'s Sei,.,ces and
QPO!l inf~at.ion pr~enled in support tl:ier~f. :th~ Court flhds tlia't th<-rc is probable·1~ Q t!)
belitve thatan.~bwi~ 9f ncgleiitedchlld l'liay bt ® the ptemises kno, ,n

as

26 East 129111 Street. ~rtment 3A

New York, NY 10035

·oRI>ERED .that ag¢rits for the Co~op.~ ofThe Adm.mistt..tiotrfor Chj~ti;·
s ·ervices, a pm.IQ~ <tQ,:iducting a child protecti.ve in~g~Q~ lll:companied :~ypolice·•m-1;)
autho#zcd to enter- the above premi.s,:is using furclQle entry to clet~e iftb~ cinldnm

I .

\ 8 fl§ J

.. . .

~known as? t

Jllllttfl-1. an,r JM • .l.llltJ Id .

pr.d;ent and to proceed thereafter wit~ a ~d ptOtt ctiv~ invesfi~tirin·•
~ t to:§ l 034(2) (o} of the ~ew Yotk ·FanPly. Co\irt'A¢t..e1l·$b.all :take.~Jurte~
apprtip~ate actions pu.rswmt t.o §690.58 (1) ·or-the NeWYQr~-Qrminal J!ro~ure Law.
OlIDERFD that t}liB authorizatic;lll be execut~ fudhwith and such wil I be void if OOf executed
within tm (1 O} da.}S.
'

nus Order ma.y be executed 1111y day oftbe week a1 any time.
Dated: June 29, 2012
New York. New York

Appendix K

BNT:/~___,

1

HON~ CLARK v: RICHA} WSON J.F.4

'

. I

A0304

31fmnfIIt QI~ !If tfr.e.~ rtf Ntur ,Unrlt.
. · illfftr rtf Nw W~h ,
eo

V.PAv.Tn : IITRJ:FC'r

NJ;;Vf YOR~ N,Y, 10D!l!

..

,.

:;t

I\

ii

.-

..

-, I, ~rian Kelly, Clark of Court of the·Famtly Court of the State of New York, County
of New York,··

.

. ~-'

·~ ~-

CERTIFY: that'! have compared the foregoing.copies of the file{s) r~ferericed above
with the original
thereof and same are true e:optes thereof; :~.
•.
~--/

..

IN WITNESS WHEREOF, I have here u_nto s~t.'~Y ~:?~d a'ffixed t~e.seaf
,. State of New York, County of New Yor~, t~,s •: .•~ - : -,- - - day
rl,

•:=

o._J~ht~~niF,V Court ofth~
.....

ofAo/tti<&~W18. .

'J

CLERK OF COURT

RECEIVED BY: ...4\'--,-.,-}G.,~""'--~,._____;;:;::-..::M,t,rp.;::_:__ _ _ __

PRINT NAME:,.::::i:c-~~__.._i~==_;_t,!;::::___ _ _ __
DATED: -'----1- ----"~.. .,___,~_ _
. ------''------

Appendix L
A0305

,·
·.•

At a term of the Family Court of the State ofNew York
held in.and for the County of New York at
60 i;,~y:ettc:·$trcet, }l'ew York New York
On~ /de.· I

Co '.2-.-Q(l-

PRESENT:

fJ }J - ~_(q /2- / L.

In the Matter of

DOCKET NO:

A Child Under the Age of Eighteen ...... .
Alleged to be,¥~rl!ied)~tt~~P.Y

Order oh Application -for
Temporary Removal of
Child
(After Petition Filed)

A-,gDUL=- HA-u;f:,\(., '\0+-r.1-E-~

WA--H-Gr; D4-H- sH-A-tfEtP

Respondent{t!,

NOTICE:··
PLACEMENT OF YOUR CHILD IN FOSTER CARE MAY RESULT IN THE LOSS OF YOUR PARENTAL RIGHTS TO YOUR CHILD. IF
YOUR CHILD STAYS IN FOSTER CARE FOR 15 OF THE MOST RECENT 22 MOl'<"tHS, THE AGENCY MAY BE REQUIRED BYLAW TO
FILE A PETITION TO TERMil'i"ATE YOUR PARENTAL RIGHTS AND MAY FILE BEFORE THE END OF TirE 15 MONTH PERIOD.
ADDITIONALLY, IF SEVERE ORREJ>EATED ABUSE _PROVEN BY CLEAR AND COJ:\-VINCING EVIDE...~CE,
FINDING MAY
CONSTITUTE THE BASIS TO TERMl'\'ATE YOUR PARENTAL RIGHTS.

rs

rnrs

f.itl:

:J°'·.

SHA½f~]fli£~:.··'
r

.

d,;1}c,§;
<
..
--.r

A petition und~,4.r,ttele I O:.~f:~e}?~ly i(:!9µn'Acfha\i-ing :Ileen
~it~girtg th~t ,th~\;iJrc,~~ M.tJ.T~if:¢hJid is.
(a)(an)(negle:gt¢}Q1'iJ.d) (al:iµ~;e~ c~l.4).(sev.~-r.efy: or r.epeiited.ltabiis~-,.chiI:d);,;;~·tpreliroin:my b¢.$.g:B,~yjng(\r~!'.!; h~I~),y

the Court pursuant to Section 1027 of the Family Court Act;--nnd tll~':tbUQJWUi~:.P.<':rsi;i~{~)::h4:vin&'i:iP.P.-~~4tWi.tli)(W.l,~µ.~'
counsel herein to determine whether the child's interests require protection pending a final order disposition [specft.y]:
Resp(Sp~~ni----· ....
. ....... __ . . . . . . .(yii!.ihX(Witb:c:iuJ:)edu:nshl
..
(if r~pliJ.tl~~~n: ~9J,pr~~~Jl.ll~J;10n~Mt'.(w~)(wa:ihi6f)'.riritrflc:d;of this.Iteill'ing by (
).
[if r~p:Ot!.4-~rtt mu:~pi;~~It~dJ~~ppp.d~!lJ. (\\iW-e:M(iiid riof waiYeJ the,'d~lifto counsel.
_ _ _ attorney for the child, --~petitioner; and
·

of

The Court having determined that;
a.

!:

.

application pursuant to Family Court Act Section (1921)(10~2)(102-+,),~-

b:~ [required in cases involving Native-American Children] The following indiv_iduals have been duly notified

(parent/custodian)(tribe/nation)(United States Secretary of the Interior); and the tnoe/nation having (appeared and
participated as a party)(appeared and declined to assume jurisdiction)(appeared and requested transfer of
jurisdiction)(not appeared);
·

c.

Said chil~?,l(l~ferest~_
require protection pending a final order of disposition and that continuation of
residence-.fzy:·t'lie chifditltlre c-Juld's home:
,___'Y__,\v.'o.uliL · ·,¢6n(ritry to the welfare and best interests of the child and that temporary removal of said
clittcf'r1,ohi: his · · : tifif!l would not b~ contrary to the welfare and best interest of the child because: [be

-~ ci cl ·

d.

·

,

~)-~

Imminent risk t~ the ch~tl~_w.ou~ou.ld
_•lim~•red by the fa,u.,me of ,n ~ " of protection directing the
removal of _.t:ef'zf.>~~-- rom -t e chtld's residence; and
.

. ,...,.,, IOT

r-r..ov

A0306

_Page 2 of3

e.

6as~:'1able efforts were made prior to the date of the hearing herein to prevent or eliminate the need for

Reasonable efforts 'Were nofrti.rufa-p iI6.1~ toJ e date· of the hearing II«!rein tu prevent or eliminate the need for
removal from the home, but the lack of such efforts was reasonable and appropriate under the circumstances.
The specific reasons why itwas reasonable and appropriate not to make such efforts
are:._ _ _-,..._......,.-,-_ _,..,_ _ _.....,...,,--_.,,....,...,....___,,-=-_,..,.-,,------,.,......,,~,.,....,......,.,-~--":.;....-'-'----'----_;__;::.:.......;"---'--.:

efforts were lt'ot'ntane"pi-"for

_- _ . Reasona'ble
to °ihe diifo"iifthiiiea~itig her~in to prevent ~r elh~inat~th~ ~eed or -~oval from the home and the lack of such efforts was not reasonable and appropriate under the circumstances;
and
f.
,--,,--~---=,...;·.;,···,.'""
.... --,..,.. . ""'"·''·-"'·'·' -"-_..'--'•·::...··....:..:...-~--"--~-"-"--'----''-----; and

g.

Based upon the investigation conducted by the Commissioner of Social Services it appears that [specify
to the child with whom such child may
appropriately reside and such person )(seeks approval as a foster parent pursuant to the Social Services Law for the
purpose ofprovicling care for sucb child)(wishes to provide care and custody for the child without foster care subsidy
during the pendenoy of any orders herein)(there is no suitable person related to the child with whom such child may
appropriately reside.)

name](______________ is a suitable person related

NOW therefore, it is [delete inapplicable provision];

·... · ,·•·

ORDBRTID that the application for protootioa and/or removal is hru:!3P ... uµ:a:zit~d) "' ·:..':. :-_··,@;~fit is further
.
. .. :··. -~......- .
::
(ORDERED that said child be released to the custody of_-,--,------'-"---=···.-said child's parents(s) or other
·
. . );(and it is further)
person legally responsible for said child's care(under the supervision 01:
(ORDERED that said child be temporarily removed from the place where saM child is residing by any peace officer
or agent of a duly at1thorized agency, society or institution and that said child be brought to ACS pending further proceedings
herein;)(and it is further)

(ORD:ElP!$P.: . ~t!_t p~µdti.1-g:fl!.:rthei:-,_p~ti~~ding the chilfl(ron) $Ir~_ii b·~ pla,e_fj~--.'.,n. _custody of

_Uie.Gomm.i~sionett:i.fSr-qci~-~zyJq~~f
. .. th~ Co®.ttis'$ioµ¥·cfi'$0.¢taI &~fo:tlS::o:f

}Jr(,

lJt:-Si.. ._

C~unly
Coui~ly tq· reidde1with· .;,!'pecify]
..,.,,,,.,the following relative or other suitable person [specijj,J
·; (and it is further)

(ORDERED that.(llV\JA;...,__1:Ip~p_fta1)C_l'.l.'1:J~~
- ~M.D.) is hereby authorized to provide such
~':1-ergency medical or.,sµrgt·~Jd:Jf~i)..t~~ for the said dii1a · :· · be necessary to safeguard the child's life or health;) (and
1t 1s further)
-·. .
.
·
[Required in child abuse cases unless petition commenced on the basis of medical examination and discretionary in
child neglect cases pursuant to 1027(g)J
(ORDERED that the child undergo a medical examiaation, pursuant to FCA§251 by the following physician
fsp_~_ifyJ
. which shall include the taking of colored photographs and if appropriate a radiological
examination, the results of which, along with the pl10tographs 1 shall be submitted to the Court; (and it is further)
(ORDERED that colored photographs be taken of visible trauma to the child, if any; (and it is furtl1er)

A0307

Page 3 of3

:_provide)(arrange
(child)(child's family) pursuantchild protective
l015-a or 1022((
Family
(ORDERED that the

to section

agency shall

ofthe

services or assis.tanceJf(and it

for) the following
Court Act (specify};,.:.".

to the

..

P~~~t$;oi~;::t~;}r~~\:~1,:~~t.:~~::r;;:.!~~~:.J:~~,~\7;;;a~:.:~·r:.:.:~6.:the
cli!li$.ft~);;~~.:t~ltd-Jli.li results iif~q~}pY.~.~ti~!fo.n:-:in,::flrefmhiJ_s '.\Jiiif~mti Ca?e ltet?o~)f(~.4 ~t¼::W®:!!"t):
-·
. (QgP.ijR;ij~fih.atsifi'e:~ffimii:~1ri~~'?fS.pd~i;§~~~$ shJi ii:ti~i~~t~\v.'h!itli'et-:there are.·#,tm,1.1~arents,
. --~Wdv.!'~r~~tllt!t,-$!ilt$.f~::P~G>n(tr \vi.th•whoiif~O;~J19.(~JJ.
inf9tW:Jb~
may--~P:W~~tj~fij'.y-l}is.fd'e.:.and shall

o~the

other
..

,;Ji~~PY':l!j.f:~1~11.t.~~J;:i_~:w1:rs1taltnso&t'aiinwlifilh§r-~Hffe'··JJ~~Wi~~),:\r.t~.1~--~~t;,~~Pt~v.aJJ~!f.6'.siet(;rf,. ·· ':ii}.,t;rr,,§f't?
"'--lffi;,e111,
·, . .-o·... faJi.- ,th.J~:.,.,~~~1:-.s.-J.,.,,.
-~1.-;,,.rrf(;fl:I' ,o-.;.·:~fsf:.:;to}liro,iiiiti.,aiite'gfot-.wsted;b
pr~v.
.).:!:{ .. ... ·P. .
. •. ,,:; for
.....iha,
_,,,.iiliild(;"'®'·;
,. •. ,.• ,"'f,, •• 1.. ·:. ·i'\m
,.. ._._ fo"'ti'tr'i~~srl
•..•Ai_...
. ~,rti.:i-:.;.-.;.;
, ~-~-.th .
. :1>1~.tt :-,., .. ',-:-,.•i.;,;,
: ~'"-,.,-,_,,;,.;:. ~,-t1··;.,-1_
,;_b'·"''
-.; ._,:1•••·;,,..._;;.,.ti··A1/t::·;,-_r_;;.-.;;,;1.
fo.v.e·...-r
a.:;;_n i-n,,•-i;~_..;t,fu.:"ll-',;;,m,_;~..-.:..__ D;e-i'~~>nkik:..-'ii._· .l·t •
,_:P.....,0"'1¥'.!J'
?.t- ~i::Y-9k,~~,~,.~~m,;,.~M.~,;,"'' "'·.!.I. JJ ,..,. . ,..,.,.. f Ef'-~fa~
-.,
__.,\.&....~;'!--..• ~,.-J.~ .. _
;:, ..M.n~.1~..-. ___.,. ··"""""'/>:
JS
0
:-:-·

this•

~;tfllW

Services

further)
.,..
(ORDERED that, within 24 hours of
ord~;; thtfommissioner of Social
sl;.ali cornm~ce a.-i
·investigation of lhe following relatives or other suitable perf;.ms as foster parents and thereafter approve such person(s) to be
foster parents, if qualified, and, if not, to report such fact to fue Court, all p.arties a:nd counsel, including the attor~ey for
child, forthwith ;~ie¢i,ffif.
. . .... . ... .
.· ·; (and it !S further)

the

',,,;...J..)nJ~" Date4::"J"tme lt>

-~~\2~i•1J1R~~~;_·-.,,,..,-~-~~:=-a
..
;$4.iRl~i®!l'~~~t.-tm
lb.-DAYS:A~-S~Wt:B:B¥· ~-t';a,Jt'r!'.0,R,.:'mE.LAW-'.('r,ttARPlNt-1~
'°EA"R~...
. .•· .....

. · ...

,ail;,,.~~

_ Order mailed on [specify,(l~~~J \\Ii!Ito wliotn-,mailedJ:, _ _~ - - -

._ Order recirlved iu court •pii'(sr. ~~ifr:aa.te{~~.Miho whom givcn];,-il'.;p·b-Zi~Hi

TRUE COPY

MADE IN Ti
ANQSHOYJ

OF; ,
N .·

A0308

,:n.

.i

DEFENDANT'S
, EXHlE!IT

ft-_z. ..

l!O LAFAYJcTTE ST'RJS:E'T
NS:V{ 'l'ORX. N.Y. 10013

'•·

• I, Brian Kelly, Clerk of Court of the· Family Court of the State o-i="New York, County of New York,

. -~ •.

~-.!

..:,

·.!'·

CERTIFY: thafl have compared the foregoing copies of the file(s) r~ferenc~d-above with the original
thereof and same are true copies thereof; ·
•
•

JN WITNESS WHEREOF, I have here u_nto ~et my hand and affixed the seal <?f tne Family Court ofth~
• State of New York, County of'New York, this

~-OCT .1 2 20f8Y of,
/

· ·

;,,, ·· 2018.

··-~··
,<
<., .·. •. · •..·. . .

A.,,LrvLJ'v'-- . ·.: , . . . .

.,

CLERK OF COURT

RECEIVED BY:____,~_·.-',,··....,·
.....,(4,__·~"T"""·.
w_9.-.._----".,LC(!):::_~'-'-V}SC......,
..:,,,__:_C"--_ __

PR!Ni:- NAME: -~-+----1.
·F.= - - - ' - ~ - - - - - - - - - - - -

--OH-tC,-!-T---,1-2=-?-.:0~18,____ _

DATED: _ _ _
·_·

Appendix M
A0309

At a term of the Family Court of the State ofN ew York
held in and for the County ofN ew York at
60 Ll!-fayette-Street, New York New York
, 0 11

'tftJn&. :-4ii~itt .

PRESENT:

In the Matter of

'r+ANNf l-t

DOCKETNO:

t)./..,0D.ltN

NN·- 2. 1q1 5-12

Order on Application for
Temporary Removal of

A Child Under the Age of$!g!!teeµ. _.. ,..
Alleged to be

Cl:Hd
(After Petitien~J:i"Je'd.}

Wti-rr E.E'Dttt-t 6 l+Jri1~l)
Respondent('3J'"•

NOTICE:
PLACEMF.."'lT OF YOUR CHILD IN FOSTER CARE .MAY RESl-11.'.!: .IN THE LOSS,QF 'ff,UR P ~ l t t . .Ritlli'fuis-'T-0:Yt\'titt Cit'..!J)~Ijt
YOUR CIDLD STAYS IN FOSTER CARE FOR 15 OF THE MOST P..'1:CENT 22 M0~~ THE/s.@~!jJf_. . .. :: )t~.~-BY ti'W:T'O
J!1LE A PETITION TO TEllMJNATE YOUR p.ARE."iTAL RlGJ.ITS f.Jm ),JAY FILE BEFORE THE END . :.s'M:bl\"nl PERIOD.
ADDITIONALLY, IF SEVERE OR REPEATED ABUS.E IS PROVE)'
CLEA!l AND CONVJNCI:';iG EVIDENCE, T.mB~DlNG MAY
CONSTITUTE THE 'BASIS TO TERMINATE YOlJRP-.ARX. - :AL,F"',HTS.

:w

THE NEXT COURT DATE IS

b. :;. . ·.:, / -z_.

THE PERMA:"\"E.NCY HEARIN·"'·G--:S::=HA:-c-:c:'f.:'c±-:,~:-::-:--::-:-::'-'--:-c'r.-+-'-'--~-"'-""""'-"

i/

file~(:,:,ifu this

t,., petiti9.µ,. UI1der, A.rti<:l_e 10 of th_eFfil!l_ily Court Act having ~-een
·court alleging tha; the above named child
@~$.~;~,~).($!?)f~Y ·"!r.:~e~t.M:'ff~htise'th~fold);-atid a preliminary hearing having been :ield by
the· Courtpi.rrsuantto Section 1027 of the Family Court Act; :i.nd the following person(s) having appeared (with)(without)

counsel herein to determine whether the child's interests req;~ire protection pending a final order of disposition [specW,]:
Respondent.. , . . . . .
.... . (wi:ih).(without)counse~
[ifrespondexn not present] ~sppxide.nt~~.nQ'iill.•:& oftbis hearing by ( ,},..c_ S
).
{if respondent unrepresented]Respondent (waived)(did not •·•!!'ive) the right to counsel.
_ _ _ attorney for the child, _·__ _petitioner; and
The Court having determined that:

a.

;: .

,vi-s made; ii.or tti this app!icatfon pursm.
m.age prior lo ili is he1trin ; and

'. to Farrdy Co11!f Act Section ~l).{l.0~2~(lOOffllJ:!o

mr .

lt

[,-equ.it 'd:h1 c/:1.sesilnv.lving Na/n,'.e~~,..Jean Chfld!f-1_.' The f9_ll.9w~in.. nd~vi9ua~ have:ljet!i dtily n;;p:
('p. ar~ .' _cu~~b~ian)( .... e/narlon){Unit :· S~tes Se:ci,~, -~f ~e-,~nt.fti ; i\-'1d flm'lrib,e4;iati~baving (_ aJj e.aire.d ?.nd
.pa 1patea as a p ·. •}(appeared an decuned to a.ssun~A, Jllflsd!t:t'.".:l ·{appeared and reqt/4med transfi -af
juii du:1ion)(noc peared);
·
.

c.

Said child's interests~equire pr-0tectio; :?ending 2. final order of dispo~i".:io:n and tb.at continuation of
fosi<lencehy the child in the child's home:
_.X,vould be contrary to the welfare and best\ -iterests -':lfthe child and that temporary removal o: said
cbU~from-tms~ome would not
contra"'!' to the rielfare a11d best interest ofthtfcbUrl be,cnuse;f~e
1
11;,er:if!.cl
.
t">'\O~ A,,~ r,t.:efr(0 &.cl ~..).,., ($.tUJl<-e:, fo.r...)/.;.r;, 5-Pjf'd ch, fi

·I

bi

CJ.RS

.

I.?.

~....c

. •

_ _would n t be contrary to the welfare and b.

d.

;;t

intere1:ts of the child,

Imminent C.sk In t h ~ ~. , ; , . 1 ~ e t ·1minnted by the ;,,ru,noe of an mde,c of protection di,-ecting the
.
. . rJfro_m the chi!G 'z resideor:~; and
·
·
removal of y:ps

'

C'.' :JRT COPY

'

A0310

Page 2 of3

e.

~Reasonable efforts were made prior to the date o/?:he hearing herein to prevent or eliminate the need for •
·
.
.
:r.empval fr.om .th.esfoiinei The specifi~;ef!ti:ttsi mad~ we,re:

)lt~~-~~I.W;rt]f;!¢F~=~t~W~~~~~~~~~:;:••·

:~~_jteasonabi~ efforts ~~re iiot ciacie.prlor to.the daJ~ o(theJJ.:e~_g herein°t{fpt~ent or elimi®.i~j{);~ need for
removal from the home~ but the lack of such efforts •>a..s reas¢.~il;lJ¢ and appr.~~fµjte_p:rider the ~~~~tances,
The specific reasons why it was reasonable and appn:·.:priate not to make such efforts·

g.

Based upon the investigation conducted by the Commis:;~oner of Social Services it appears that {specijj,
name](_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ is a suil:21-:le person related to the child with whom such child may
appropriately resiqe and such person )(seeks approval as :> foster parent pursuant to the Social Services Law for the
p1.trpose of providing care for such cbild)(wisbes t9 prow je care and custody for th~ child •without foster care su::,sidy
• during ~e pendency of any orders herein )(there is no su:;:~ble person related to th~ child with whom such child may
li-PP!opriately reside.)
:,
::c
,·

NOW therefore, it is [delete inapplicable provision]:·

....

ORDERED that the application for prot~ction and/c;:-· removal is he;reb~~~\:tif:ii.ti)}and ~tis ~rther
(ORDERED that said child be released to the custoi,y of-'---'-~--'--~-'---'--_,.·__ .said child's parents(s) or other
person legally responsible for said child's care(under the sur,;rvision·of,
...j;(and jt is further) ·

(ORDERED that said child be temporarily remov.~',from th~ place where said chil4 is residing by any peace officer
or agent of a duly authorized agency, society or institution a.., d that sa~d child be brought to ACS pending further.proceedings
'
·
herein;)(and it is further)
(ORDERED that pending further proceeding the ct'..:f:!(ren) shalJ·be pi_aced iri the cu$tody of
_}(..the Comm!ss~oner of Soc~al Serv!~es of ,Ac;.
YGl'.)fcounty ..
.
.• . .
. .. .the Comm1ss1oner of Social Services of
- ·.County to reside with [specffy..J
the following relative pr other suitable person [:.'";ecify} ·
; (anci --~! is further)

::.iew

AN), ·

(ORD~RED that(_
Hospital)(_ ... ,),~ J
M.D.) is hereby autho_rized _to pro-vid.e such
emergency medical or surgical proqedures for the said child <s ma~ be :iccessary to safeguard the child's life or heaJth;) (and
it is further)
·
[Required in child abuse cases unless petition comr,·mced on the basis of medical exa.'nination and discre:ionary in
child neglect cases pursuant Lo 1027(g}}
·
(ORDERED that the child undergo !1- medical exam': ation, pmstiant to FCA§251 by the following physician
[specify] _ _ _ _ _ _ , which shall include the taking of c~jlorcd ph'.ltographs and if appropriate a radiological
examination, the results of which, along with the photograpl:~·. shall be submitted to the Court; (and it is further)
(ORDERED that colored photographs be taken ofv!:ible trau::na to the child, if any; (anrJ it is further)

A0311

Page 3 of3
(ORDERED that the child protective agency shall (provide)(arrange for) the following services or assistance to the
(child)(child's family) pursuant to section 1015-a or l022(c) ofthe Family Court Act (specify]:
;}(and it
.

•

(ORDERED that the Commissioner of Social Services shall conduct a diligent search for any non-respondent
parents of the child(ren), inform them of the pendency of the proceeding and of the opportunity for seeking custody of the
child(ren) and record the results of such investigation in the child's Unifom1 Case Record); (and it is further)

(ORDERED that the Commissioner of Social Services shall investigate whether there are any grandparents, other
relatives or other suitable persoi:l(s) with whom the child(rcn) may appropriately reside and shall inform them of the
pendency of the proceeding and shall ascertain whether such person(s) wish to seek approval as fosler parent(s) in order to
provide care for the child(ren) or wish to provide care and custody for the child(ren) without foster care subsidy during the
pendency of any order herein; and shall record the result of such investigation in the child's Uniform Case Record); (and it is
further)
(ORDERED that, within 24 hours of this order, the Commissioner of Social Services shall commence an
investigation of the following relatives or other suitable persons as foster pareL1ts and thereafter approve such person(s) to be
foster parents, if qualifie_~. and, if not, to report such fact to the Court, all parties and counsel, including the attorney for the
child, forthwith [specfjy)i
. .. . ... .. ,_ ......._.., .. . . :·;;(and it is further)
:•.·
·-::·,.

Dated:

J\JN O6 ?JWl

PURSUANT TO SECTION J 113 Of THE FAMILY COURT ACT, A>. APPEAL FROM THIS OR.DER MUST BE TAKEN WITHING 30 DAYS OF
RECEIPT OF THE ORDER BY APPELLANT lN COURT, 35 DAYS FROM TH&. J,)A'l'c UI' MAILING OF THE ORDER TO.APPELLANT BY THE
CLERK OF 'J'H~ C.:OUR'l', OR 30 DAYS AFTER SERVICE BY A PARTY OR THE LAW OUARDlAN UPON THE API'IiLLANT, WHICHEVER IS
EARLIEST.
.

Order mailed on [specify date(s) and to whom mai!Bd]: ..,,,...,,....,___,----,
Order received in court on [specify date(s) and to whom given]:____

,-.,,.""'

,_..... ___,..,

A0312

Case 1:14-cv-07424-PAE Document 99-23 Filed 08/10/17 Page 1 of 1

CRIMINAL COURT OF THE CITY OF NEW YORK
COUNTY OF NEW YORK

THE P~OPLE OF THE STATE OF NEW

vs

SHAJ:LElm, w;,.J-mfilIBJ·i

Defendant

-

CERTIFICATE OF DISPOSITION
NUMBER;
409849

YORK

_

26 EAST___
129
Addres_s
_ §TR

105;!,7632P
_N_Y_S..,.tD-N=u~mber
-.
_ .

06}2912012_

bat~ of Attist/Is~ue
Summons No:

Docket Number~ 2012NY050853

l,9'5. Q$_--_ _ _ _ _ __
Arraignment Charges
Case Disposition Information:

-~-Date------04/02/2014

__ ~our~Acti.9~

_ --

DISM - S~EEDY TRJAL PROVISIONS

____..:rud_g~----___ - - - ~
TISCH,A

Part.

C

NO FEE CERTIFICATION

GOVERNMENT AGENCY

COONSEL ASSIGNED

NO RECORD OF ATTORNEY ~EADILY AVAILABLE. DEFENDANT STATES COUNSEL WAS ASSIGNED
SOURCE
THIS

ACCUSATORY INSTRUMENT

DOCKET BOOK/CRIMS

CRC30JO[CRS963]

THAT THIS IS A TRUE EXCERPT OF THE RECORD ON FILE IN

~~J;t;t',p··:1crA~-srGN1i"fuRE AND sEAL

05/16./2.015

DATE

FEE: NONE

(CAUTION: THIS DOCUMENT IS NOT OFFICIAL UNLESS EMBOSSED WITH THE COURT
SEAL OVER THE SIGNATURE OF THE CCURT OFFICIAL.)

SEALED
r.iureu.ant to Section 160.
Appendix N

,o ot

the

er
A0313

DEF0035

Case 1:14-cv-07424-PAE Document 99-24 Filed 08/10/17 Page 1 of 1

s~

b.n1 b•).JJ). (··r

CRIMINAL COURT OF THE CITY OF NEW YORK
COUNTY OF NEW YORK
.
THE PEOPLE OF THE STATE OF NEW

NUMBER:

YORK

vs

_.SJ!AliEED ,DAGHRIB
bef~ndant

CERTIFICATE OF DISPOSITION

_ __

_ _ _

1 6'/ 16~/"""'1=9...,,8...,,6'-·_ _ _ __

Dat~ Of Birth

2 .6 . EAS'C 129 S T _ __ _ _ ___ __ ~ -- -

.

""'
N...,;
Y_

_

_

_ __

NY

_ __ _

State

J...0'ff0-?'8-71.H

NYSID Number

Address

'C:i:ty ..

3 957 31

.
06/0.6-/20.l'.2
:Date of Arrest/Issue

Z·ip

Docket Number: 2012NY044694

Summons No:

Arraignment ~arge·s
Case Di sposition I nformation:
Dat.e

·09/H3/2.013
.

cour t Action

DISM - SPEEDY TRIAL PROVISIONS

. -=J-=u=
d..,g~e'--- SCHERZER,A

- --

eart
c · ...· .

-

;

NO FEE CERTIFICATION
GOVERNMENT AGENCY'

COUNSEL ASSIGNED

NO RECORD OF ATTORNEY READILY AVAZLABLE, DEFENDANT STATES COUNSEL WAS ASSIGNED
SOURCE

DOCKET BOOK/CRIMS

ACCUSATORY INSTRUMENT
CERTIFY THAT THIS

rs

CRC303 0 [CRS963]

A TRUE EXCERPT OF THE RECORD ON FILE IN

03 / 05./2015
~AT·E - -

S IGNATURE AND SEAL

F EE: NONE

(CAUTION: THIS DOCUMENT IS NOT OFFICIAL UNLESS EMBOSSED WI TH THE COURT
SEAL OVER THE SIGNATURE OF THE COURT OFFICIAL. )

SEALED
pt&rBUtU}t

Appendix O

to Section 160. ;o of the

c::

DEF0012

A0314

Case 1:14-cv-07424-PAE Document 99-25 Filed 08/10/17 Page 1 of 1

CRIMINAL COURT OF THE CITY OF NEW YORK
COUNTY OF NEW YORK
THE PEOPLE OF THE STATE OF NEW

vs

YORK

CERTIFICATE OF DISPOSITION
NUMBER: 409850

§ttAHEED,~J)J:JBEDAH
befend'a nt
·

Date of Birth ·····

26 .3- 129 STREET
Address

NYSID Number

C;ity

01/02/1958

.ilOSl.763:2"'-P---.- - - -

..O,....,R=H·...
· _ ____,_.,.._.....,.....,NY.:.,:...
·· ........___,_~~~-· stai:e Zip

Summons No:

Docket Number: 2012NY044692
J.~d-. o:$ 20:5 . 30,. 1 ils=. o~~-------

Arrafgnment Charges

- -----"-'06_/07 /2012
. ..
Date of Afrest:7Issue

------------------------

Case Disposition Information:
. Court Action~,...__ _ __
DISM - SPEEDY TRIAL PROVISIONS

NO FEE CERTIPICATION

GOVERNMENT AGENCY

COUNSEL ASSIGNBD

NO RECORD OF ATTORNEY READILY AVAILABLE. DEFENDANT STATES COUNSEL WAS ASSIGNED

SOURCE

DOCKET BOOK/CRIMS

CRC31J30[CRS963]

A\;.,.J,{Ii;R!):~·<CERTIFY THAT THIS IS A TRUE EXCERPT OF ~HE };{ECORD ON FILE IN

I.'j_J~~1,(,

~J-~ii\r.
TH

ACCUSATORY INSTRUMENT

t~'t;-W~JFICIAL SIGNATURE AND SEAL

06/ 16 /.2015
DATE

FEE: NON8

(CAUTION: THIS DOCUMENT IS NOT OFFICIAL UNLESS EMBOSSED WITH THE COURT
SEAL OVER THE SIGNATURE OF THE COURT OFF::CIAL.)

Appendix P

A0315

DEF0019

Case 1:14-cv-07424-PAE Document 110-5 Filed 09/11/17 Page 1 of 1
GF16 08/2010

At a term of the Family Court of the
State of New York, held in and for
the County of New York, at 60
Lafayette Street, New York, NY
10013, on January 26, 2015

PRESENT:

Hon. Clark V. Richardson

In the Matter of
Hannah Olodan (DOB: 9/18/1996),

A Child under Eighteen Years of Age
Alleged to be Neglected by

File#:
Docket#:

7513
NN-21913-12

CPS#:

5280801

ORDER OF DISMISSAL

Waheedah Shaheed,

Respondent. •
A petition under Article 10 of the Family Court Act, having been filed in this Court on June
6, 2012 for the following: Neglect;
And the matter having duly come on to be heard before this Court and the following having
appeared: ACS-NY; Waheedah Shaheed; Sandrine Anne Valentine;
NOW, after examination and inquiry into the facts and circumstances of the case, it is hereby
ADJUDGED that the petition is dismissed due to subject child has reached the age of
emancipation; it is therefore
ORDERED that the petition herein is dismissed without prejudice.
PURSUANT TO SECTION 1113 OF THE FAMILY COURT ACT, AN APPEAL
FROM THIS ORDER MUST BE TAKEN WITHIN 30 DAYS OF RECEIPT OF
THE ORDER BY APPELLANT IN COURT, 35 DAYS FROM THE DATE OF
MAILING OF THE ORDER TO APPELLANT BY THE CLERK OF COURT, OR
30 DAYS AFTER SERVICE BY A PARTY OR THE ATTORNEY FOR THE
CHILD UPON THE APPELLANT, WI-FCHEVER IS EARLIEST.
THIS IS

Dated: January 26, 2015

C

ENTER

Hun. Clark V. Richardson, JFC

Appendix Q

A0316

Case 1:14-cv-07424-PAE Document 110-6 Filed 09/11/17 Page 1 of 4
10-10 3/2009

F.C.A.§§ 1017, 1033-b, 1040, 1044,
1046, 1051, 1052, 1053,
1054, 1055, 1057, 1059

At a term of the Family Court of the
State of New York, held in and for
the County of New York, at 60
Lafayette Street, New York, NY
10013, on January 26, 2015

PRESENT:

Hon. Clark V. Richardson

In the Matter of

Abdul Maleck Rahim (DOB: 3/2/2001),
A Child under Eighteen Years of Age
Alleged to be Neglected by

Waheedah Shaheed,

File#:
Docket#:

7513
NN-21912-12

CPS#:

5280801

ORDER OF DISPOSITION
Respondent.

NOTICE: WILLFUL FAILURE TO OBEY THE TERMS AND CONDITIONS OF THIS
ORDER MAY RESULT IN COMMITMENT TO JAIL FOR A TERM NOT TO EXCEED
SIX MONTHS.
IF YOUR CHILD IS PLACED IN FOSTER CARE, YOU MAY LOSE YOUR RIGHTS TO
YOUR CHILD AND YOUR CHILD MAY BE ADOPTED WITHOUT YOUR CONSENT.
IF YOUR CHILD STAYS IN FOSTER CARE FOR 15 OF THE MOST RECENT 22
MONTHS, THE AGENCY MAY BE REQUIRED BY LAW TO FILE A PETITION TO
TERMINATE YOUR PARENTAL RIGHTS AND MAY FILE BEFORE THE END OF THE
15-MONTH PERIOD.
IF SEVERE OR REPEATED ABUSE IS PROVEN BY CLEAR AND CONVINCING
EVIDENCE, THIS FINDING MAY CONSTITUTE THE BASIS TO TERMINATE YOUR
PARENTAL RIGHTS.
The petition of ACS-NY under Article 10 of the Family Court Act, having been filed in this
Court on June 6, 2012 alleging that the above-named Respondent negl€cted the above-named child;
and
Notice having been duly given to the Respondent pursuant to section 1036 or 1037 of the
Family Court Act; and

And the matter having thereafter duly come on for a DISPOSITIONAL HEARING
before the Court,
And the child having been represented by an attorney and the Court having considered the
position of the child regarding the permanency plan;
A0317
Appendix R

Case 1:14-cv-07424-PAE Document 110-6 Filed 09/11/17 Page 2 of 4
Page: 2 of 4
Docket No: NN-21912-12
10-10

NOW therefore, upon findings made in the dispositional hearings; and upon all
proceedings had herein,
Order of Disposition
And the Court, having considered the best interests and safety of the child, including
whether the child would be at risk of abuse or neglect if returned to the parent(s) or other
person(s) legally responsible, hereby orders the following:
ORDERED that the child is released to the custody of the respondent mother without
supervision of a child protective agency, social services official, or duly authorized agency; and it
is further
ORDERED that if the child absconds from the above-named custodial person or facility,
written notice shall be given within 48 hours to the Clerk of Court by the custodial person or by an
authorized representative of the facility, stating the name of the child, the docket number of this
proceeding, and the date on which the child ran away; and it is further
ORDERED that, not later than 60 days prior to the expiration of this order, the Commissioner
of Social Services shall report to the Court, the child's attorney, the parties, their attorneys and the
non-respondent parent(s) on the status and circumstances of the child and family and any actions
contemplated, if any, by the agency with respect to the child and family.
TRUE COPY OF

Dated: January 26, 2015

ENTER

,\L ~!t--=
Hit,. M,~~nrn- D
,· '"''' )WiJ CY THE RFCO uS
. TE C:~ NEW Y
'

'

r:~ - .

·-!

,·-

sucH
i

•

---

c

C
·

r

·Hon,. Clark V. Richardson, JFC

PURSUANT TO SECTION 1113 OF THE FAMILY COURT ACT, AN APPEAL FROM
THIS ORDER MUST BE TAKEN WITHIN 30 DAYS OF RECEIPT OF THE ORDER BY
APPELLANT IN COURT, 35 DAYS FROM THE DATE OF MAILING OF THE ORDER
TO APPELLANT BY THE CLERK OF COURT, OR 30 DAYS AFTER SERVICE BY A
PARTY OR THE ATTORNEY FOR THE CHILD UPON THE APPELLANT, WHICHEVER
IS EARLIEST.
Check applicable box:
D Order mailed on [specify date(s) and to whom mailed]: _ _ _ _ _ _ _ _ _ _ _ _ _ __
D Order received in court on [specify date(s) and to whom given]: _ _ _ _ _ _ _ _ _ _ _ __

APPENDIX A [22 NYCRR §205.83]

A0318
§ 205.83 Terms and Conditions of Order in Accordance With Sections 1053, 1054, and 1057

Case 1:14-cv-07424-PAE Document 110-6 Filed 09/11/17 Page 3 of 4
Page: 3 of 4
Docket No: NN-21912-12
10-10

of the Family Court Act (Child Protective Proceeding)
(a) An order suspending judgment entered pursuant to section 1052 of the Family Court Act
shall, where the child is in foster care, set forth the visitation plan between respondent and the
child and between the child and his or her sibling or siblings, if any, and shall require the agency
to notify the respondent of case conferences. A copy of the order, along with the current service
plan, shall be furnished to the respondent. Any order suspending judgment shall contain at least
one of the following terms and conditions that relate to the adjudicated acts or omissions of the
respondent, directing the respondent to:
(1)
refrain from or eliminate specified acts or conditions found at the fact-finding
hearing to constitute or to have caused neglect or abuse;
(2)
provide adequate and proper food, housing, clothing, medical care, and for the
other needs of the child;
(3)
provide proper care and supervision to the child and cooperate in obtaining,
accepting or allowing medical or psychiatric diagnosis or treatment, alcoholism or
drug abuse treatment, counseling or child guidance services for the child;
(4)
take proper steps to insure the chid's regular attendance at school;
(5)
cooperate in obtaining and accepting medical treatment, psychiatric diagnosis and
treatment, alcoholism or drug abuse treatment, employment or counseling
services, or child guidance, and permit a child protective agency to obtain
information from any person or agency from whom the respondent or the child is
receiving or was directed to receive treatment or counseling.
(b) An order pursuant to section 1054 of the Family Court Act placing the person to whose
custody the child is released under the supervision of a child protective agency, social services
officer or duly authorized agency, or an order pursuant to section I 057 placing the respondent
under the supervision of a child protective agency, social services official or authorized agency,
shall contain at least one of the following terms and conditions requiring the respondent to:
(1)
observe any of the terms and conditions set forth in subdivision (a) of this section;
(2)
cooperate with the supervising agency in remedying specified acts or omissions
found at the fact-finding hearing to constitute or to have caused the neglect or
abuse;
(3)
meet with the supervising agency alone and with the child when directed to do so
by that agency;
(4)
report to the supervising agency when directed to do so by that agency;
(5)
cooperate with the supervising agency in arranging for and allowing visitation in
the home or other place;
(6)
notify the supervising agency immediately of any change ofresidence or
employment of the respondent or of the child;
(7)
do or refrain from doing any other specified act of omission or commission that,
in the judgment of the court, is necessary to protect the child from injury or
mistreatment and to help safeguard the physical, mental and emotional well-being
of the child;
(c) When an order is made pursuant to section 1054 or 1057 of the Family Court Act:
( 1)
the court shall notify the supervising agency in writing of its designation to act
and shall furnish to that agency a copy of the order setting forth the terms and
conditions imposed;
A0319

Case 1:14-cv-07424-PAE Document 110-6 Filed 09/11/17 Page 4 of 4
Page: 4 of 4
Docket No: NN-21912-12
10-10

(2)
(3)

the order shall be accompanied by a written statement informing the respondent
that a willful failure to obey the terms and conditions imposed may result in
commitment to jail for a term not to exceed six months;
the court may, if it concludes that it is necessary for the protection of the child,
direct the supervising agency to furnish a written report to the court at stated
intervals not to exceed six months setting forth whether, and to what extent:
(i)
there has been any alteration in the respondent's maintenance of the child
that is adversely affecting the child's health or well-being;
(ii)
there is compliance with the terms and conditions of the order of
supervision;
(iii)
the supervising agency has furnished supporting services to the
respondent.

(d) A copy of the order setting forth its duration and the terms and conditions imposed shall be
furnished to the respondent.

A0320

U.S. CONST. amend. IV

Amendment 4 Unreasonable searches and seizures.
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

Appendix S
A0321

2012 N.Y. CONST. art. VI § 13

§ 13. [Family court]
a.The family court of the state of New York is hereby established. It shall consist of at
least one judge in each county outside the city of New York and such number of
additional judges for such counties as may be provided by law. Within the city of New
York it shall consist of such number of judges as may be provided by law. The judges
of the family court within the city of New York shall be residents of such city and shall
be appointed by the mayor of the city of New York for terms of ten years. The judges
of the family court outside the city of New York, shall be chosen by the electors of the
counties wherein they reside for terms of ten years.
b.The family court shall have jurisdiction over the following classes of actions and
proceedings which shall be originated in such family court in the manner provided by
law: (1) the protection, treatment, correction and commitment of those minors who are
in need of the exercise of the authority of the court because of circumstances of neglect,
delinquency or dependency, as the legislature may determine; (2) the custody of minors
except for custody incidental to actions and proceedings for marital separation, divorce,
annulment of marriage and dissolution of marriage; (3) the adoption of persons; (4) the
support of dependents except for support incidental to actions and proceedings in this
state for marital separation, divorce, annulment of marriage or dissolution of marriage;
(5) the establishment of paternity; (6) proceedings for conciliation of spouses; and (7)
as may be provided by law: the guardianship of the person of minors and, in conformity
with the provisions of section seven of this article, crimes and offenses by or against
minors or between spouses or between parent and child or between members of the
same family or household. Nothing in this section shall be construed to abridge the
authority or jurisdiction of courts to appoint guardians in cases originating in those
courts.
c.The family court shall also have jurisdiction to determine, with the same powers
possessed by the supreme court, the following matters when referred to the family court
from the supreme court: habeas corpus proceedings for the determination of the custody
of minors; and in actions and proceedings for marital separation, divorce, annulment of
marriage and dissolution of marriage, applications to fix temporary or permanent
support and custody, or applications to enforce judgments and orders of support and
of
A0322

Appendix T

2012 NY Const Art VI, § 13

custody, or applications to modify judgments and orders of support and of custody
which may be granted only upon the showing to the family court that there has been a
subsequent change of circumstances and that modification is required.
d.The provisions of this section shall in no way limit or impair the jurisdiction of the
supreme court as set forth in section seven of this article.
History
Add, 1961, eff Sept 1, 1962.
Former § 13, formerly § 15, renumbered, 1925, continued, 1938, repealed, 1961, eff Sept
1, 1962.
Prior § 13, add, 1894, renumbered § 10, 1925. Source, 1777, art 33; 1821, art 5, § 2;
1846, art 6, § 1; 1869, Judiciary art, § 1.
Sub b, amd, L 1973, eff Jan 1, 1974.

End of Document

A0323

2012 N.Y. CRIM. PROC. LAW § 1.20

§ 1.20. Definitions of terms of general use in this chapter

Except where different meanings are expressly specified in subsequent provisions of
this chapter, the term definitions contained in section 10.00 of the penal law are
applicable to this chapter, and, in addition, the following terms have the following
meanings:
1."Accusatory instrument" means an indictment, an indictment ordered reduced
pursuant to subdivision one-a of section 210.20 of this chapter, an information, a
simplified information, a prosecutor's information, a superior court information, a
misdemeanor complaint or a felony complaint. Every accusatory instrument,
regardless of the person designated therein as accuser, constitutes an accusation
on behalf of the state as plaintiff and must be entitled "the people of the state of
New York" against a designated person, known as the defendant.
2."Local criminal court accusatory instrument" means any accusatory instrument
other than an indictment or a superior court information.
3."Indictment" means a written accusation by a grand jury, more fully defined
and described in article two hundred, filed with a superior court, which charges
one or more defendants with the commission of one or more offenses, at least
one of which is a crime, and which serves as a basis for prosecution thereof.
3-a."Superior court information" means a written accusation by a district attorney
more fully defined and described in articles one hundred ninety-five and two
hundred, filed with a superior court pursuant to article one hundred ninety-five,
which charges one or more defendants with the commission of one or more
offenses, at least one of which is a crime, and which serves as a basis for
prosecution thereof.
4."Information" means a verified written accusation by a person, more fully
defined and described in article one hundred, filed with a local criminal court,
which charges one or more defendants with the commission of one or more
offenses, none of which is a felony, and which may serve both to commence a
criminal action and as a basis for prosecution thereof.
A0324

Appendix U

2012 NY CPL § 1.20

5. [1]"Simplified traffic information" means a written accusation, more fully
defined and described in article one hundred, by a police officer or other public
servant authorized by law to issue same, filed with a local criminal court, which,
being in a brief or simplified form prescribed by the commissioner of motor
vehicles, charges a person with one or more traffic infractions or misdemeanors
relating to traffic, and which may serve both to commence a criminal action for
such offense and as a basis for prosecution thereof.
5. [2]
(a)"Simplified information" means a simplified traffic information, a
simplified parks information, or a simplified environmental conservation
information.
(b)"Simplified traffic information" means a written accusation by a police
officer, or other public servant authorized by law to issue same, more fully
defined and described in article one hundred, filed with a local criminal court,
which, being in a brief or simplified form prescribed by the commissioner of
motor vehicles, charges a person with one or more traffic infractions or
misdemeanors relating to traffic, and which may serve both to commence a
criminal action for such offense and as a basis for prosecution thereof.
(c)"Simplified parks information" means a written accusation by a police
officer, or other public servant authorized by law to issue same, filed with a
local criminal court, which, being in a brief or simplified form prescribed by
the commissioner of parks and recreation, charges a person with one or more
offenses, other than a felony, for which a uniform simplified parks
information may be issued pursuant to the parks and recreation law and the
navigation law, and which may serve both to commence a criminal action for
such offense and as a basis for prosecution thereof.
(d)"Simplified environmental conservation information" means a written
accusation by a police officer, or other public servant authorized by law to
issue same, filed with a local criminal court, which being in a brief or
simplified form prescribed by the commissioner of environmental
conservation, charges a person with one or more offenses, other than a felony,
for which a uniform simplified environmental conservation simplified [3]
information may be issued pursuant to the environmental conservation law,

[1]

[n1] There are two subdivisions 5.

[2]

[n2] There are two subdivisions 5.

[3]

[n3] So in original.

A0325

2012 NY CPL § 1.20

and which may serve both to commence a criminal action for such offense
and as a basis for prosecution thereof.
6."Prosecutor's information" means a written accusation by a district attorney,
more fully defined and described in article one hundred, filed with a local
criminal court, which charges one or more defendants with the commission of
one or more offenses, none of which is a felony, and which serves as a basis for
prosecution thereof.
7."Misdemeanor complaint" means a verified written accusation by a person,
more fully defined and described in article one hundred, filed with a local
criminal court, which charges one or more defendants with the commission of
one or more offenses, at least one of which is a misdemeanor and none of which
is a felony, and which serves to commence a criminal action but which may not,
except upon the defendant's consent, serve as a basis for prosecution of the
offenses charged therein.
8."Felony complaint" means a verified written accusation by a person, more fully
defined and described in article one hundred, filed with a local criminal court,
which charges one or more defendants with the commission of one or more
felonies and which serves to commence a criminal action but not as a basis for
prosecution thereof.
9."Arraignment" means the occasion upon which a defendant against whom an
accusatory instrument has been filed appears before the court in which the
criminal action is pending for the purpose of having such court acquire and
exercise control over his person with respect to such accusatory instrument and
of setting the course of further proceedings in the action.
10."Plea," in addition to its ordinary meaning as prescribed in sections 220.10
and 340.20, means, where appropriate, the occasion upon which a defendant
enters such a plea to an accusatory instrument.
11."Trial." A jury trial commences with the selection of the jury and includes all
further proceedings through the rendition of a verdict. A non-jury trial
commences with the first opening address, if there be any, and, if not, when the
first witness is sworn, and includes all further proceedings through the rendition
of a verdict.
12."Verdict" means the announcement by a jury in the case of a jury trial, or by
the court in the case of a non-jury trial, of its decision upon the defendant's guilt
or innocence of the charges submitted to or considered by it.

A0326

2012 NY CPL § 1.20

13."Conviction" means the entry of a plea of guilty to, or a verdict of guilty upon,
an accusatory instrument other than a felony complaint, or to one or more counts
of such instrument.
14."Sentence" means the imposition and entry of sentence upon a conviction.
15."Judgment." A judgment is comprised of a conviction and the sentence
imposed thereon and is completed by imposition and entry of the sentence.
16."Criminal action." A criminal action (a) commences with the filing of an
accusatory instrument against a defendant in a criminal court, as specified in
subdivision seventeen; (b) includes the filing of all further accusatory instruments
directly derived from the initial one, and all proceedings, orders and motions
conducted or made by a criminal court in the course of disposing of any such
accusatory instrument, or which, regardless of the court in which they occurred
or were made, could properly be considered as a part of the record of the case by
an appellate court upon an appeal from a judgment of conviction; and (c)
terminates with the imposition of sentence or some other final disposition in a
criminal court of the last accusatory instrument filed in the case.
17."Commencement of criminal action." A criminal action is commenced by the
filing of an accusatory instrument against a defendant in a criminal court, and, if
more than one accusatory instrument is filed in the course of the action, it
commences when the first of such instruments is filed.
18."Criminal proceeding" means any proceeding which (a) constitutes a part of a
criminal action or (b) occurs in a criminal court and is related to a prospective,
pending or completed criminal action, either of this state or of any other
jurisdiction, or involves a criminal investigation.
19."Criminal court" means any court defined as such by section 10.10.
20."Superior court" means any court defined as such by subdivision two of
section 10.10.
21."Local criminal court" means any court defined as such by subdivision three
of section 10.10.
22."Intermediate appellate court" means any court possessing appellate
jurisdiction, other than the court of appeals.
23."Judge" means any judicial officer who is a member of or constitutes a court,
whether referred to in another provision of law as a justice or by any other title.
24."Trial jurisdiction." A criminal court has "trial jurisdiction" of an offense
when an indictment or an information charging such offense may properly be
A0327

2012 NY CPL § 1.20

filed with such court, and when such court has authority to accept a plea to, try or
otherwise finally dispose of such accusatory instrument.
25."Preliminary jurisdiction." A criminal court has "preliminary jurisdiction" of
an offense when, regardless of whether it has trial jurisdiction thereof, a criminal
action for such offense may be commenced therein, and when such court may
conduct proceedings with respect thereto which lead or may lead to prosecution
and final disposition of the action in a court having trial jurisdiction thereof.
26."Appearance ticket" means a written notice issued by a public servant, more
fully defined in section 150.10, requiring a person to appear before a local
criminal court in connection with an accusatory instrument to be filed against
him therein.
27."Summons" means a process of a local criminal court or superior court, more
fully defined in section 130.10, requiring a defendant to appear before such court
for the purpose of arraignment upon an accusatory instrument filed therewith by
which a criminal action against him has been commenced.
28."Warrant of arrest" means a process of a local criminal court, more fully
defined in section 120.10, directing a police officer to arrest a defendant and to
bring him before such court for the purpose of arraignment upon an accusatory
instrument filed therewith by which a criminal action against him has been
commenced.
29."Superior court warrant of arrest" means a process of a superior court
directing a police officer to arrest a defendant and to bring him before such court
for the purpose of arraignment upon an indictment filed therewith by which a
criminal action against him has been commenced.
30."Bench warrant" means a process of a criminal court in which a criminal
action is pending, directing a police officer, or a uniformed court officer,
pursuant to paragraph b of subdivision two of section 530.70 of this chapter, to
take into custody a defendant in such action who has previously been arraigned
upon the accusatory instrument by which the action was commenced, and to
bring him before such court. The function of a bench warrant is to achieve the
court appearance of a defendant in a pending criminal action for some purpose
other than his initial arraignment in the action.
31."Prosecutor" means a district attorney or any other public servant who
represents the people in a criminal action.
32.[Until June 30, 2013] "District attorney" means a district attorney, an
assistant district attorney or a special district attorney, and, where appropriate, the
A0328

2012 NY CPL § 1.20

attorney general, an assistant attorney general, a deputy attorney general or a
special deputy attorney general.
32.[Eff June 30, 2013] "District attorney" means a district attorney, an assistant
district attorney or a special district attorney, and, where appropriate, the attorney
general, an assistant attorney general, a deputy attorney general [fig 1] , a special
deputy attorney general, or the special prosecutor and inspector general for the
protection of people with special needs or his or her assistants when acting
pursuant to their duties in matters arising under article twenty of the executive
law.
33."Peace officer" means a person listed in section 2.10 of this chapter.
34."Police officer." The following persons are police officers:
(a)A sworn member of the division of state police;
(b)Sheriffs, under-sheriffs and deputy sheriffs of counties outside of New
York City;
(c)A sworn officer of an authorized county or county parkway police
department;
(d)A sworn officer of an authorized police department or force of a city, town,
village or police district;
(e)A sworn officer of an authorized police department of an authority or a
sworn officer of the state regional park police in the office of parks and
recreation;
(f)A sworn officer of the capital police force of the office of general services;
(g)An investigator employed in the office of a district attorney;
(h)An investigator employed by a commission created by an interstate
compact who is, to a substantial extent, engaged in the enforcement of the
criminal laws of this state;
(i)The chief and deputy fire marshals, the supervising fire marshals and the
fire marshals of the bureau of fire investigation of the New York City fire
department;
(j)A sworn officer of the division of law enforcement in the department of
environmental conservation;
(k)A sworn officer of a police force of a public authority created by an
interstate compact;
(l)Long Island railroad police.
A0329

2012 NY CPL § 1.20

(m)A special investigator employed in the statewide organized crime task
force, while performing his assigned duties pursuant to section seventy-a of
the executive law.
(n)A sworn officer of the Westchester county department of public safety
services who, on or prior to June thirtieth, nineteen hundred seventy-nine was
appointed as a sworn officer of the division of Westchester county parkway
police or who was appointed on or after July first, nineteen hundred seventynine to the title of police officer, sergeant, lieutenant, captain or inspector or
who, on or prior to January thirty-first, nineteen hundred eighty-three, was
appointed as a Westchester county deputy sheriff.
(o)A sworn officer of the water-supply police employed by the city of New
York [fig 1] , appointed to protect the sources, works, and transmission of
water supplied to the city of New York, and to protect persons on or in the
vicinity of such water sources, works, and transmission.
(p)Persons appointed as railroad policemen pursuant to section eighty-eight of
the railroad law.
(q)An employee of the department of taxation and finance (i) assigned to
enforcement of the taxes imposed under or pursuant to the authority of article
twelve-A of the tax law and administered by the commissioner of taxation and
finance, taxes imposed under or pursuant to the authority of article eighteen of
the tax law and administered by the commissioner, taxes imposed under
article twenty of the tax law, or sales or compensating use taxes relating to
[fig 1] petroleum products or cigarettes imposed under article twenty-eight or
pursuant to the authority of article twenty-nine of the tax law and
administered by the commissioner or (ii) designated as a revenue crimes
specialist and assigned to the enforcement of the taxes described in paragraph
(c) of subdivision four of section 2.10 of this title, for the purpose of applying
for and executing search warrants under article six hundred ninety of this
chapter, for the purpose of acting as a claiming agent under article thirteen-A
of the civil practice law and rules in connection with the enforcement of the
taxes referred to above and for the purpose of executing warrants of arrest
relating to the respective crimes specified in subdivision four of section 2.10
of this title.
(r)Any employee of the Suffolk county department of parks who is appointed
as a Suffolk county park [fig 1] police officer.
(s)A university police officer appointed by the state university pursuant to
paragraph 1 of subdivision two of section three hundred fifty-five of the
education law.

A0330

2012 NY CPL § 1.20

(t)A sworn officer of the department of public safety of the Buffalo municipal
housing authority who has achieved or been granted the status of sworn police
officer and has been certified by the division of criminal justice services as
successfully completing an approved basic course for police officers.
(u)Persons appointed as Indian police officers pursuant to section one
hundred fourteen of the Indian law.
(v)Supervisor of forest ranger services; assistant supervisor of forest ranger
services; forest ranger 3; forest ranger 2; forest ranger 1 employed by the state
department of environmental conservation or sworn officer of the division of
forest protection and fire management in the department of environmental
conservation responsible for wild land search and rescue, wild land fire
management in the state as prescribed in subdivision eighteen of section 90105 and title eleven of article nine of the environmental conservation law,
exercising care, custody and control of state lands administered by the
department of environmental conservation.
34-a."Geographical area of employment." The "geographical area of
employment" of certain police officers is as follows:
(a)[Until Sept 1, 2013 (see 1999 note below] Except as provided in paragraph
(d) of this subdivision, New York state constitutes the "geographical area of
employment" of any police officer employed as such by an agency of the state
or by an authority which functions throughout the state, or a police officer
designated by the superintendent of state police pursuant to section two
hundred twenty-three of the executive law;
(a)[Eff Sept 1, 2013 (see 1999 note below)] Except as provided in paragraph
(d), New York state constitutes the "geographical area of employment" of any
police officer employed as such by an agency of the state or by an authority
which functions throughout the state;
(b)A county, city, town or village, as the case may be, constitutes the
"geographical area of employment" of any police officer employed as such by
an agency of such political subdivision or by an authority which functions
only in such political subdivision; and
(c)Where an authority functions in more than one county, the "geographical
area of employment" of a police officer employed thereby extends through all
of such counties.
(d)The geographical area of employment of a police officer appointed by the
state university is the campuses and other property of the state university,
A0331

2012 NY CPL § 1.20

including any portion of a public highway which crosses or abuts such
property.
35."Commitment to the custody of the sheriff," when referring to an order of a
court located in a county or city which has established a department of
correction, means commitment to the commissioner of correction of such county
or city.
36."County" ordinarily means (a) any county outside of New York City or (b)
New York City in its entirety. Unless the context requires a different
construction, New York City, despite its five counties, is deemed a single county
within the meaning of the provisions of this chapter in which that term appears.
37."Lesser included offense." When it is impossible to commit a particular crime
without concomitantly committing, by the same conduct, another offense of
lesser grade or degree, the latter is, with respect to the former, a "lesser included
offense." In any case in which it is legally possible to attempt to commit a crime,
an attempt to commit such crime constitutes a lesser included offense with
respect thereto.
38."Oath" includes an affirmation and every other mode authorized by law of
attesting to the truth of that which is stated.
39."Petty offense" means a violation or a traffic infraction.
40."Evidence in chief" means evidence, received at a trial or other criminal
proceeding in which a defendant's guilt or innocence of an offense is in issue,
which may be considered as a part of the quantum of substantive proof
establishing or tending to establish the commission of such offense or an element
thereof or the defendant's connection therewith.
41."Armed felony" means any violent felony offense defined in section 70.02 of
the penal law that includes as an element either:
(a)possession, being armed with or causing serious physical injury by means
of a deadly weapon, if the weapon is a loaded weapon from which a shot,
readily capable of producing death or other serious physical injury may be
discharged; or
(b)display of what appears to be a pistol, revolver, rifle, shotgun, machine gun
or other firearm.
42."Juvenile offender" means (1) a person, thirteen years old who is criminally
responsible for acts constituting murder in the second degree as defined in
subdivisions one and two of section 125.25 of the penal law, or such conduct as a
sexually motivated felony, where authorized pursuant to section 130.91 of the
penal law; and (2) a person fourteen or fifteen years old who is criminally A0332

2012 NY CPL § 1.20

responsible for acts constituting the crimes defined in subdivisions one and two
of section 125.25 (murder in the second degree) and in subdivision three of such
section provided that the underlying crime for the murder charge is one for which
such person is criminally responsible; section 135.25 (kidnapping in the first
degree); 150.20 (arson in the first degree); subdivisions one and two of section
120.10 (assault in the first degree); 125.20 (manslaughter in the first degree);
subdivisions one and two of section 130.35 (rape in the first degree);
subdivisions one and two of section 130.50 (criminal sexual act in the first
degree); 130.70 (aggravated sexual abuse in the first degree); 140.30 (burglary in
the first degree); subdivision one of section 140.25 (burglary in the second
degree); 150.15 (arson in the second degree); 160.15 (robbery in the first degree);
subdivision two of section 160.10 (robbery in the second degree) of the penal
law; [fig 1] or section 265.03 of the penal law, where such machine gun or such
firearm is possessed on school grounds, as that phrase is defined in subdivision
fourteen of section 220.00 of the penal law; or defined in the penal law as an
attempt to commit murder in the second degree or kidnapping in the first degree,
or such conduct as a sexually motivated felony, where authorized pursuant to
section 130.91 of the penal law.
43."Judicial hearing officer" means a person so designated pursuant to provisions
of article twenty-two of the judiciary law.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971, with substance derived from Crim C § 2-a;
amd, L 1970, ch 997, §§ 5-9, eff Sept 1, 1971, L 1971, ch 544, §§ 1, 2, L 1971, ch 795, §
1, L 1971, ch 884, §§ 1-4, L 1972, ch 383, § 2, L 1972, ch 315, § 3, L 1972, ch 564, § 1, L
1972, ch 589, § 1, L 1972, ch 661, §§ 28, 29, eff Sept 1, 1972, L 1972, ch 662, § 5, eff
Sept 1, 1972, L 1972, ch 729, § 2, eff Jan 1, 1973, L 1972, ch 858, § 1, eff June 2, 1972, L
1973, ch 461, § 1, L 1973, ch 780 § 1, L 1973, ch 781, § 1, L 1973, ch 782, § 1, L 1973, ch
948, §§ 1, 2, L 1974, ch 22, § 1, eff Feb 26, 1974, L 1974, ch 250, § 1, eff April 30, 1974,
L 1974, ch 281, § 1, L 1974, ch 282, §§ 1, 2, L 1974, ch 467,§§ 1-3, eff June 22, 1974, L
1974, ch 707, §§ 3, 4, eff Sept 1, 1974, L 1974, ch 877, §§ 1, 2, eff Sept 1, 1974, L 1975,
ch 509, § 1, L 1975, ch 667, § 13, L 1976, ch 265, § 2, eff Sept 1, 1976, L 1976, ch 590, §
1, L 1977, ch 487, § 1, L 1978, ch 205, § 1, L 1978, ch 481, §§ 8, 32, eff Sept 1, 1978, L
1978, ch 655, § 39, L 1978, ch 756, § 1, L 1979, ch 330, § 1, L 1979, ch 411, § 7, L 1979,
ch 533, § 6, L 1980, ch 285, § 1, eff June 19, 1980, L 1980, ch 843, § 1, eff Sept 1, 1980, L
1981, ch 335, § 2, eff Sept 1, 1981, L 1982, ch (see 1982 note below) 658, § 1, L 1983, ch
840, § 9, eff April 1, 1983, L 1983, ch 969, §§ 7, 8, eff Aug 8, 1983 (see 1983 note below),
L 1985, ch 65, § 3, L 1986, ch 318, § 1, L 1988, ch 521, § 2, L 1990, ch 209, § 9, eff Sept
1, 1990, L 1991, ch 166, § 340, eff June 12, 1991, L 1991, ch 542, § 1, eff July 23, 1991,
L
A0333

2012 NY CPL § 1.20

1993, ch 446, § 1, eff Nov 1, 1993, L 1993, ch 508, § 11 (see 1993 and 2008 notes below),
L 1995, ch 2, §§ 68, 69 , eff Sept 1, 1995 (see 1995 note below), L 1998, ch 424, §§ 1, 2,
eff Jan 1, 1999, L 1998, ch 435, § 1, eff Nov 1, 1998,L 1999, ch 428, § 2, eff Nov 1, 1999,
expires and repealed Sept 1, 2013 (see 1999 note below), L 2000, ch 599, § 1, eff Dec 20,
2000, L 2001, ch 504, § 5, eff Nov 21, 2001, L 2002, ch 318, §§ 1, 2, eff Aug 6, 2002 (see
2002 note below), L 2003, ch 121, § 1, eff July 1, 2003, L 2003, ch 264, § 35, eff Nov 1,
2003, L 2005, ch 558, § 2, eff Aug 23, 2005 L 2006, ch 693, § 1, eff Sept 13, 2006, L 2007,
ch 7, § 46, eff April 13, 2007 (see 2007 note below), L 2011, ch 61, § 55 (Part K), eff Sept
1, 2011 (see 2011 note below), L 2012, ch 501, § 4 (Part A), eff June 30, 2013 (see 2012
note below).

End of Document

A0334

2012 N.Y. CRIM. PROC. LAW § 2.10

§ 2.10. Persons designated as peace officers

Notwithstanding the provisions of any general, special or local law or charter to the
contrary, only the following persons shall have the powers of, and shall be peace
officers:
1.Constables or police constables of a town or village, provided such designation
is not inconsistent with local law.
2.The sheriff, undersheriff and deputy sheriffs of New York city and sworn
officers of the Westchester county department of public safety services appointed
after January thirty-first, nineteen hundred eighty-three to the title of public
safety officer and who perform the functions previously performed by a
Westchester county deputy sheriff on or prior to such date.
3.Investigators of the office of the state commission of investigation.
4.Employees of the department of taxation and finance designated by the
commissioner of taxation and finance as peace officers and assigned by the
commissioner of taxation and finance
(a)to the enforcement of any of the criminal or seizure and forfeiture
provisions of the tax law relating to (i) taxes imposed under or pursuant to the
authority of article twelve-A of the tax law and administered by the
commissioner, (ii) taxes imposed under or pursuant to the authority of article
eighteen of the tax law and administered by the commissioner, (iii) taxes
imposed under article twenty of the tax law, or (iv) sales or compensating use
taxes relating to [fig 1] petroleum products or cigarettes imposed under article
twenty-eight or pursuant to the authority of article twenty-nine of the tax law
and administered by the commissioner or
(b)to the enforcement of any provision of the penal law relating to any of the
taxes described in paragraph (a) of this subdivision and relating to crimes
effected through the use of a statement or document filed with the department
in connection with the administration of such taxes or
Appendix V

A0335

2012 NY CPL § 2.10

(c)as revenue crimes specialist and assigned to the enforcement of any of the
criminal provisions of the tax law relating to taxes administered by the
commissioner of taxation and finance other than those taxes set forth in
paragraph (a) of this subdivision or any provision of the penal law relating to
such taxes [fig 1] , and those provisions of the penal law (i) relating to any of
the foregoing taxes and (ii) relating to crimes effected through the use of a
statement or document filed with the department in connection with the
administration of such foregoing taxes or
(d)to the enforcement of any provision of law which is subject to enforcement
by criminal penalties and which relates to the performance by persons
employed by the department of taxation and finance of the duties of their
employment.
Provided, however, that nothing in this subdivision shall be deemed to
authorize any such employee designated as a peace officer after November
first, nineteen hundred eighty-five to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to
section 400.00 of the penal law, and further provided that, prior to such
designation by the commissioner each such employee shall have successfully
completed the training requirements specified in section 2.30 of this [fig 1]
article. Provided, further, that any license issued to such employee pursuant to
such peace officer designation by the commissioner shall relate only to the
firearm issued to such employee by the department of taxation and finance
and such permit shall not cover any other firearms. The foregoing sentence
shall not be deemed to prohibit such peace officer from applying for a
separate permit relating to non-departmental firearms.
5.Employees of the New York city department of finance assigned to
enforcement of the tax on cigarettes imposed by title D of chapter forty-six of the
administrative code of the city of New York by the commissioner of finance.
6.Confidential investigators and inspectors, as designated by the commissioner,
of the department of agriculture and markets, pursuant to rules of the department.
7.Officers or agents of a duly incorporated society for the prevention of cruelty to
animals.
7-a.[Expires and repealed Aug 11, 2014] Officers or agents of a duly
incorporated society for the prevention of cruelty to children in Rockland county;
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer or agent to carry, possess, repair, or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
A0336

2012 NY CPL § 2.10

penal law; and provided further that such officer or agent shall exercise the
powers of a peace officer only when he is acting pursuant to his special duties.
8.Inspectors and officers of the New York city department of health when acting
pursuant to their special duties as set forth in section 564-11.0 of the
administrative code of the city of New York; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
9.Park rangers in Suffolk county, who shall be authorized to issue appearance
tickets, simplified traffic informations, simplified parks informations and
simplified environmental conservation informations.
10.Broome county park rangers who shall be authorized to issue appearance
tickets, simplified traffic informations, simplified parks informations, and
simplified environmental conservation informations; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
11.Park rangers in Onondaga and Cayuga counties, who shall be authorized to
issue appearance tickets, simplified traffic informations, simplified parks
informations and simplified environmental conservation informations, within the
respective counties of Onondaga and Cayuga.
12.Special policemen designated by the commissioner and the directors of inpatient facilities in the office of mental health pursuant to section 7.25 of the
mental hygiene law, and special policemen designated by the commissioner and
the directors of facilities under his jurisdiction in the office of mental retardation
and developmental disabilities pursuant to section 13.25 of the mental hygiene
law; provided, however, that nothing in this subdivision shall be deemed to
authorize such officers to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
13.Persons designated as special policemen by the director of a hospital in the
department of health pursuant to section four hundred fifty-five of the public
health law; provided, however, that nothing in this subdivision shall be deemed
to authorize such officer to carry, possess, repair or dispose of a firearm unless
the appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
14.[Repealed]
A0337

2012 NY CPL § 2.10

15.Uniformed enforcement forces of the New York state thruway authority, when
acting pursuant to subdivision two of section three hundred sixty-one of the
public authorities law; provided, however, that nothing in this subdivision shall
be deemed to authorize such officer to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
16.Employees of the department of health designated pursuant to section thirtythree hundred eighty-five of the public health law; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
17.Uniformed housing guards of the Buffalo municipal housing authority.
18.Bay constable of the city of Rye, the villages of Mamaroneck, South Nyack
and bay constables of the towns of East Hampton, Hempstead, Oyster Bay,
Riverhead, Southampton, Southold, Islip, Shelter Island, Brookhaven, Babylon,
Smithtown, Huntington and North Hempstead; provided, however, that nothing
in this subdivision shall be deemed to authorize the bay constables in the city of
Rye, the village of South Nyack or the towns of Brookhaven, Babylon, Southold,
East Hampton, Riverhead, Islip, other than a bay constable of the town of Islip
who prior to April third, nineteen hundred ninety-eight served as harbormaster
for such town and whose position was reclassified as bay constable for such town
prior to such date, Smithtown, Huntington and Shelter Island to carry, possess,
repair or dispose of a firearm unless the appropriate license therefor has been
issued pursuant to section 400.00 of the penal law.
19.Harbor masters appointed by a county, city, town or village.
20.Bridge and tunnel officers, sergeants and lieutenants of the Triborough bridge
and tunnel authority.
21.a. Uniformed court officers of the unified court system.
b.Court clerks of the unified court system in the first and second departments.
c.Marshall, deputy marshall, clerk or uniformed court officer of a district
court.
(d) [1]Marshalls or deputy marshalls of a city court, provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to
carry, possess, repair or dispose of a firearm unless the appropriate license
therefor has been issued pursuant to section 400.00 of the penal law.
[1]

[n1] So in original.

A0338

2012 NY CPL § 2.10

e.Uniformed court officers of the city of Mount Vernon.
f.Uniformed court officers of the city of Jamestown.
22.Patrolmen appointed by the Lake George park commission; provided however
that nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
23.Parole officers or warrant officers in the [fig 1] department of corrections and
community supervision.
23-a.Parole revocation specialists in the [fig 1] department of corrections and
community supervision; provided, however, that nothing in this subdivision shall
be deemed to authorize such employee to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
24.Probation officers.
25.Officials, as designated by the commissioner of the department of [fig 1]
corrections and community supervision pursuant to rules of the department, and
correction officers of any state correctional facility or of any penal correctional
institution.
26.Peace officers designated pursuant to the provisions of the New York state
defense emergency act, as set forth in chapter seven hundred eighty-four of the
laws of nineteen hundred fifty-one, as amended, when acting pursuant to their
special duties during a period of attack or imminent attack by enemy forces, or
during official drills called to combat natural or man-made disasters, or during
official drills in preparation for an attack by enemy forces or in preparation for a
natural or man-made disaster; provided, however, that nothing in this subdivision
shall be deemed to authorize such officer to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law; and provided further, that such officer shall have the
powers set forth in section 2.20 of this article only during a period of imminent
or actual attack by enemy forces and during drills authorized under section
twenty-nine-b of article two-B of the executive law, providing for the use of civil
defense forces in disasters. Notwithstanding any other provision of law, such
officers shall have the power to direct and control traffic during official drills in
preparation for an attack by enemy forces or in preparation for combating natural
or man-made disasters; however, this grant does not include any of the other
powers set forth in section 2.20 of this article.
A0339

2012 NY CPL § 2.10

27.New York city special patrolmen appointed by the police commissioner
pursuant to subdivision c or e of section 434a-7.0 or subdivision c or e of section
14-106 of the administrative code of the city of New York; provided, however,
that nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law and the employer has
authorized such officer to possess a firearm during any phase of the officers onduty employment. Special patrolmen shall have the powers set forth in section
2.20 of this article only when they are acting pursuant to their special duties;
provided, however, that the following categories of New York city special
patrolmen shall have such powers whether or not they are acting pursuant to their
special duties: [fig 1] school safety officers employed by the board of education
of the city of New York; parking control specialists, taxi and limousine
inspectors, urban park rangers and evidence and property control specialists
employed by the city of New York; and further provided that, with respect to the
aforementioned categories of New York city special patrolmen, where such a
special patrolman has been appointed by the police commissioner and, upon the
expiration of such appointment the police commissioner has neither renewed
such appointment nor explicitly determined that such appointment shall not be
renewed, such appointment shall remain in full force and effect indefinitely, until
such time as the police commissioner expressly determines to either renew or
terminate such appointment.
28.All officers and members of the uniformed force of the New York city fire
department as set forth and subject to the limitations contained in section 487a15.0 of the administrative code of the city of New York; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
29.Special policemen for horse racing, appointed pursuant to the provisions of
the pari-mutuel revenue law as set forth in chapter two hundred fifty-four of the
laws of nineteen hundred forty, as amended; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
30.Supervising fire inspectors, fire inspectors, the fire marshal and assistant fire
marshals, all of whom are full-time employees of the county of Nassau fire
marshal's office [fig 1] .
31.[Repealed]
A0340

2012 NY CPL § 2.10

32.Investigators of the department of motor vehicles, pursuant to section three
hundred ninety-two-b of the vehicle and traffic law; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
33.A city marshall of the city of New York who has received training in firearms
handling from the federal bureau of investigation or in the New York city police
academy, or in the absence of the available training programs from the federal
bureau of investigation and the New York city police academy, from another law
enforcement agency located in the state of New York, and who has received a
firearms permit from the license division of the New York city police
department.
34.Waterfront and airport investigators, pursuant to subdivision four of section
ninety-nine hundred six of the unconsolidated laws; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
35.Special investigators appointed by the state board of elections, pursuant to
section 3-107 of the election law.
36.Investigators appointed by the state liquor authority, pursuant to section
fifteen of the alcoholic beverage control law; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
37.Special patrolmen of a political subdivision, appointed pursuant to section two
hundred nine-v of the general municipal law; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
38.A special investigator of the New York city department of investigation who
has received training in firearms handling in the New York police academy and
has received a firearms permit from the license division of the New York city
police department.
39.Broome county special patrolman, appointed by the Broome county attorney;
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
A0341

2012 NY CPL § 2.10

40.Special officers employed by the city of New York or by the New York city
health and hospitals corporation; provided, however, that nothing in this
subdivision shall be deemed to authorize such officer to carry, possess, repair or
dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law. The New York city health and
hospitals corporation shall employ peace officers appointed pursuant to this
subdivision to perform the patrol, investigation, and maintenance of the peace
duties of special officer, senior special officer and hospital security officer,
provided however that nothing in this subdivision shall prohibit managerial,
supervisory, or state licensed or certified professional employees of the
corporation from performing such duties where they are incidental to their usual
duties, or shall prohibit police officers employed by the city of New York from
performing these duties.
41.Fire police squads organized pursuant to section two hundred nine-c of the
general municipal law, at such times as the fire department, fire company or an
emergency rescue and first aid squad of the fire department or fire company are
on duty, or when, on orders of the chief of the fire department or fire company of
which they are members, they are separately engaged in response to a call for
assistance pursuant to the provisions of section two hundred nine of the general
municipal law; provided, however, that nothing in this subdivision shall be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law.
42.Special deputy sheriffs appointed by the sheriff of a county within which any
part of the grounds of Cornell university or the grounds of any state institution
constituting a part of the educational and research plants owned or under the
supervision, administration or control of said university are located pursuant to
section fifty-seven hundred nine of the education law; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
43.Housing patrolmen of the Mount Vernon housing authority, acting pursuant to
rules of the Mount Vernon housing authority; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
44.The officers, employees and members of the New York city division of fire
prevention, in the bureau of fire, as set forth and subject to the limitations
contained in subdivision one of section 487a-1.0 of the administrative codeA0342
of the

2012 NY CPL § 2.10

city of New York; provided, however, that nothing in this subdivision shall be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law.
45.Persons appointed and designated as peace officers by the Niagara frontier
transportation authority, pursuant to subdivision thirteen of section twelve
hundred ninety-nine-e of the public authorities law.
46.Persons appointed as peace officers by the Sea Gate Association pursuant to
the provisions of chapter three hundred ninety-one of the laws of nineteen
hundred forty, provided, however, that nothing in this subdivision shall be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law.
47.Employees of the [fig 1] department of [fig 2] financial services when
designated as peace officers by the superintendent of [fig 3] financial services
and acting pursuant to their special duties as set forth in article four of the
financial services law; provided, however, that nothing in this subdivision shall
be deemed to authorize such officer to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
48.New York state air base security guards when they are designated as peace
officers under military regulations promulgated by the chief of staff to the
governor and when performing their duties as air base security guards pursuant to
orders issued by appropriate military authority; provided, however, that nothing
in this subdivision shall be deemed to authorize such guards to carry, possess,
repair or dispose of a firearm unless the appropriate license therefor has been
issued pursuant to section 400.00 of the penal law.
49.Members of the army national guard military police and air national guard
security personnel belonging to the organized militia of the state of New York
when they are designated as peace officers under military regulations
promulgated by the adjutant general and when performing their duties as military
policemen or air security personnel pursuant to orders issued by appropriate
military authority; provided, however, that nothing in this subdivision shall be
deemed to authorize such military police or air security personnel to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
50.Transportation supervisors in the city of White Plains appointed by the
commissioner of public safety in the city of White Plains; provided, however,

A0343

2012 NY CPL § 2.10

that nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
51.Officers and members of the fire investigation division of the fire department
of the city of Rochester, the city of Binghamton and the city of Utica, when
acting pursuant to their special duties in matters arising under the laws relating to
fires, the extinguishment thereof and fire perils; provided, however, that nothing
in this subdivision shall be deemed to authorize such officer to carry, possess,
repair or dispose of a firearm unless the appropriate license therefor has been
issued pursuant to section 400.00 of the penal law.
52.Security hospital treatment assistants, as so designated by the commissioner
of the office of mental health while transporting persons convicted of a crime to
court, to other facilities within the jurisdiction of the office of mental health, or to
any state or local correctional facility; provided, however, that nothing in this
subdivision shall be deemed to authorize such employee to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of penal law.
53.Authorized agents of the municipal directors of weights and measures in the
counties of Suffolk, Nassau and Westchester when acting pursuant to their
special duties as set forth in section one hundred eighty-one of the agriculture
and markets law; provided, however, that nothing in this subdivision shall be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law.
54.Special policemen appointed pursuant to section one hundred fifty-eight of the
town law; provided, however, that nothing in this subdivision shall be deemed to
authorize such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
55.[Expired]
56.Dog control officers of the town of Brookhaven, who at the discretion of the
town board may be designated as constables for the purpose of enforcing article
twenty-six of the agriculture and markets law and for the purpose of issuing
appearance tickets permitted under article seven of such law; provided, however,
that nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
A0344

2012 NY CPL § 2.10

57.Harbor Park rangers employed by the Snug Harbor cultural center in
Richmond county and appointed as New York city special patrolmen by the
police commissioner pursuant to subdivision c of section 14-106 of the
administrative code of the city of New York. Notwithstanding any provision of
law, rule or regulation, such officers shall be authorized to issue appearance
tickets pursuant to section 150.20 of this chapter, and shall have such other
powers as are specified in section 2.20 of this article only when acting pursuant
to their special duties. Nothing in this subdivision shall be deemed to authorize
such officers to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law and the employer has authorized such officer to possess a firearm
during any phase of the officer's on-duty employment.
57-a. [2]Seasonal park rangers of the Westchester county department of public
safety while employed as authorized by the commissioner of public safety/sheriff
of the county of Westchester; provided, however, that nothing in this subdivision
shall be deemed to authorize such officer to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
57-a. [3]Officers of the Westchester county public safety emergency force, when
activated by the commissioner of public safety/sheriff of the county of
Westchester; provided, however that nothing in this subdivision shall be deemed
to authorize such officer to carry, possess, repair or dispose of a firearm unless
the appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
58.Uniformed members of the security force of the Troy housing authority
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
59.Officers and members of the sanitation police of the department of sanitation
of the city of New York, duly appointed and designated as peace officers by such
department; provided, however, that nothing in this subdivision shall be deemed
to authorize such officer to carry, possess, repair or dispose of a firearm unless
the appropriate license therefor has been issued pursuant to section 400.00 of the
penal law. Provided, further, that nothing in this subdivision shall be deemed to

[2]

[n2] There are two subdivisions 57-a.

[3]

[n3] There are two subdivisions 57-a.

A0345

2012 NY CPL § 2.10

apply to officers and members of the sanitation police regularly and exclusively
assigned to enforcement of such city's residential recycling laws.
60.[Repealed]
61. [4]Chief fire marshall, assistant chief fire marshall, fire marshall II and fire
marshall I, all of whom are full-time employees of the Suffolk county department
of fire, rescue and emergency services, when acting pursuant to their special
duties in matters arising under the laws relating to fires, the extinguishment
thereof and fire perils; provided, however, that nothing in this subdivision shall
be deemed to authorize such officer to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
61. [5][Repealed]
62. [6]Chief fire marshall, assistant chief fire marshall, fire marshall II and fire
marshall I, all of whom are full-time employees of the town of Babylon, when
acting pursuant to their special duties in matters arising under the laws relating to
fires, the extinguishment thereof and fire perils; provided, however, that nothing
in this subdivision shall be deemed to authorize such officer to carry, possess,
repair or dispose of a firearm unless the appropriate license therefor has been
issued pursuant to section 400.00 of the penal law.
62. [7]Employees of the division for youth assigned to transport and warrants units
who are specifically designated by the director in accordance with section five
hundred four-b of the executive law, provided, however, that nothing in this
subdivision shall be deemed to authorize such employees to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
63. [8]Uniformed members of the fire marshal's office in the town of [fig 1]
Southampton and the town of Riverhead, when acting pursuant to their special
duties in matters arising under the laws relating to fires, the extinguishment
thereof and fire perils; provided, however that nothing in this subdivision shall be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law.
[4]

[n4] There are two subdivisions 61.

[5]

[n5] There are two subdivisions 61.

[6]

[n6] There are two subdivisions 62.

[7]

[n7] There are two subdivisions 62.

[8]

[n8] There are two subdivisions 63.

A0346

2012 NY CPL § 2.10

63. [9]Employees of the town court of the town of Greenburgh serving as a
security officer; provided, however, that nothing in this subdivision will be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law or to authorize such officer to carry or possess a firearm except
while on duty.
64.Cell block attendants employed by the city of Buffalo police department;
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
65.Chief fire marshall, assistant chief fire marshall, fire marshall II and fire
marshall I, all of whom are full-time employees of the town of Brookhaven,
when acting pursuant to their special duties in matters arising under the laws
relating to fires, the extinguishment thereof and fire perils; provided, however,
that nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license thereof has
been issued pursuant to section 400.00 of the penal law.
66.Employees of the village court of the village of Spring Valley serving as
security officers at such village court; provided, however, that nothing in this
subdivision shall be deemed to authorize such officer to carry, possess, repair or
dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
67.Employees of the town court of the town of Putnam Valley serving as a
security officer; provided, however, that nothing in this subdivision will be
deemed to authorize such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section 400.00
of the penal law or to authorize such officer to carry or possess a firearm except
while on duty.
68. [10]Employees of the town court of the town of Southampton serving as
uniformed court officers at such town court; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.

[9]
[10]

[n9] There are two subdivisions 63.
[n10] There are five subdivisions 68.

A0347

2012 NY CPL § 2.10

68. [11]The state inspector general and investigators designated by the state
inspector general; provided, however, that nothing in this subdivision shall be
deemed to authorize the state inspector general or such investigators to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
68. [12]Dog control officers of the town of Arcadia, who at the discretion of the
town board may be designated as constables for the purpose of enforcing article
twenty-six of the agriculture and markets law and for the purpose of issuing
appearance tickets permitted under article seven of such law; provided, however,
that nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
68. [13]Employees appointed by the sheriff of Livingston county, when acting
pursuant to their special duties serving as uniformed marine patrol officers;
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license has been issued pursuant to section 400.00 of the penal law or
to authorize such officer to carry or possess a firearm except while on duty.
68. [14]Persons employed by the Chautauqua county sheriff's office serving as
court security officers; provided, however, that nothing in this subdivision shall
be deemed to authorize such officer to carry, possess, repair or dispose of a
firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
69.Employees of the village court of the village of Amityville serving as
uniformed court officers at such village court; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
70.Employees appointed by the sheriff of Yates county, pursuant to their special
duties serving as uniformed marine patrol officers; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license has been

[11]

[n11] There are five subdivisions 68.

[12]

[n12] There are five subdivisions 68.

[13]

[n13] There are five subdivisions 68.

[14]

[n14] There are five subdivisions 68.

A0348

2012 NY CPL § 2.10

issued pursuant to section 400.00 of the penal law or to authorize such officer to
carry or possess a firearm except while on duty.
71.Town of Smithtown fire marshalls when acting pursuant to their special duties
in matters arising under the laws relating to fires, the extinguishment thereof and
fire perils; provided, however, that nothing in this subdivision shall be deemed to
authorize such officers to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
72.Persons employed by Canisius college as members of the security force of
such college; provided, however, that nothing in this subdivision shall be deemed
to authorize such officer to carry, possess, repair or dispose of a firearm unless
the appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
73.Employees of the town court of the town of Newburgh serving as uniformed
court officers at such town court; provided, however, that nothing in this
subdivision shall be deemed to authorize such officer to carry, possess, repair or
dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
74. [15]
a.Special deputy sheriffs appointed by the sheriff of Tompkins county
pursuant to paragraphs b and c of this subdivision; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor
has been issued pursuant to section 400.00 of the penal law.
b.For the protection of the grounds, buildings and property of Ithaca college
the prevention of crime and the enforcement of law and order, and for the
enforcement of such rules and regulations as the board of trustees of Ithaca
college shall from time to time make, the sheriff of Tompkins county may
appoint and remove following consultation with Ithaca college such number
of special deputy sheriffs as is determined by the sheriff to be necessary for
the maintenance of public order at Ithaca college, such appointments to be
made from persons nominated by the president of Ithaca college. Such special
deputy sheriffs shall comply with requirements as established by the sheriff
and shall act only within Tompkins county. Such special deputy sheriffs so
appointed shall be employees of the college and subject to its supervision and
control as outlined in the terms and conditions to be mutually agreed upon
[15]

[n15] There are four subdivisions 74.

A0349

2012 NY CPL § 2.10

between the sheriff and Ithaca college. Such special deputy sheriffs shall have
the powers of peace officers and shall act solely within the said grounds or
premises owned or administered by Ithaca college, except in those rare and
special situations when requested by the sheriff to provide assistance on any
public highway which crosses or adjoins such property. Ithaca college will
provide legal defense and indemnification, and hold harmless the county of
Tompkins, its officers and employees and the Tompkins county sheriff, its
officers and employees, from all claims arising out of conduct by or injury to,
such personnel while carrying out their law enforcement functions except in
those situations when they are acting under the direct supervision and control
of the county or sheriff's department.
c.Every special deputy sheriff so appointed shall, before entering upon the
duties of his or her office, take and subscribe the oath of office prescribed by
article thirteen of the constitution of the state of New York which oath shall
be filed in the office of the county clerk of Tompkins county. Every special
deputy sheriff appointed under this subdivision when on regular duty shall
wear conspicuously a metallic shield with a designating number and the
words "Special Deputy Sheriff Ithaca College" thereon.
74. [16]Parks and recreation forest rangers employed by the office of parks,
recreation and historic preservation; provided, however, that nothing in this
subdivision shall be deemed to authorize such individuals to carry, possess,
repair or dispose of a firearm unless the appropriate license therefor has been
issued pursuant to section 400.00 of the penal law.
74. [17]Employees of the village court of the village of Quogue, town of
Southampton serving as uniformed court officers at such village court; provided,
however, that nothing in this subdivision shall be deemed to authorize such
officer to carry, possess, repair or dispose of a firearm unless the appropriate
license therefor has been issued pursuant to section 400.00 of the penal law.
74. [18]Employees of the town court of the town of East Hampton serving as
uniformed court officers at such town court; provided, however, that nothing in
this subdivision shall be deemed to authorize such officer to carry, possess, repair
or dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.

[16]

[n16] There are four subdivisions 74.

[17]

[n17] There are four subdivisions 74.

[18]

[n18] There are four subdivisions 74.

A0350

2012 NY CPL § 2.10

75. [19]Dog control officers of the town of Clarence, who at the discretion of the
town board may be designated as constables for the purpose of enforcing article
twenty-six of the agriculture and markets law and for the purpose of issuing
appearance tickets permitted under article seven of the agriculture and markets
law; provided, however, that nothing in this subdivision shall be deemed to
authorize such officers to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
75. [20]Airport security guards, senior airport security guards, airport security
supervisors, retired police officers, and supervisors of same, who are designated
by resolution of the town board of the town of Islip to provide security at Long
Island MacArthur Airport when acting pursuant to their duties as such, and such
authority being specifically limited to the grounds of the said airport. However,
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
75. [21]Officers and members of the fire investigation unit of the fire department of
the city of Buffalo when acting pursuant to their special duties in matters arising
under the laws relating to fires, the extinguishment thereof and fire perils;
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
76. [22]Employees of the village court of the village of Southampton, town of
Southampton serving as uniformed court officers at such village court; provided,
however, that nothing in this subdivision shall be deemed to authorize such
officer to carry, possess, repair or dispose of a firearm unless the appropriate
license therefor has been issued pursuant to section 400.00 of the penal law.
76. [23]Animal control officers employed by the city of Peekskill; provided,
however, that nothing in this subdivision shall be deemed to authorize such
individuals to carry, possess, repair or dispose of a firearm unless the appropriate
license therefor has been issued pursuant to section 400.00 of the penal law.

[19]

[n19] There are three subdivisions 75.

[20]

[n20] There are three subdivisions 75.

[21]

[n21] There are three subdivisions 75.

[22]

[n22] There are two subdivisions 76.

[23]

[n23] There are two subdivisions 76.

A0351

2012 NY CPL § 2.10

77. [24]
(a)[fig 1] Syracuse University peace officers appointed by the chief law
enforcement officer of the city of Syracuse pursuant to paragraphs (b), (c) and
(d) of this subdivision, who shall be authorized to issue appearance tickets and
simplified traffic informations; provided, however, that nothing in this
subdivision shall be deemed to authorize any such officer to carry, possess,
repair or dispose of a firearm unless the appropriate license therefor has been
issued pursuant to section 400.00 of the penal law.
(b)For the protection of the grounds, buildings and property of Syracuse
University, the prevention of crime and the enforcement of law and order, and
for the enforcement of such rules and regulations as Syracuse University shall
from time to time establish, the chief law enforcement officer of the city of
Syracuse may appoint and remove, following consultations with Syracuse
University; such number of Syracuse University peace officers as is
determined by the chief law enforcement officer of the city of Syracuse to be
necessary for the maintenance of public order at such university, such
appointments to be made from persons nominated by the chancellor of
Syracuse University. Such peace officers shall comply with such requirements
as shall be established by the chief law enforcement officer of the city of
Syracuse. Such Syracuse University peace officers so appointed shall be
employees of such university, and subject to its supervision and control and
the terms and conditions to be mutually agreed upon between the chief law
enforcement officer of the city of Syracuse and Syracuse University. Nothing
in this paragraph shall limit the authority of Syracuse University to remove
such peace officers. Such Syracuse University peace officers shall have the
powers of peace officers within the geographical area of employment of the
grounds or premises owned, controlled or administrated by Syracuse
University within the county of Onondaga, except in those situations when
requested by the chief law enforcement officer of the city of Syracuse or his
or her designee, including by means of written protocols agreed to by the
chief law enforcement officer of the city of Syracuse and Syracuse University,
to provide assistance on any public highway which crosses or adjoins such
grounds or premises. Syracuse University shall provide legal defense and
indemnification, and hold harmless the city of Syracuse, and its officers and
employees from all claims arising out of conduct by or injury to, such peace
officers while carrying out their law enforcement functions, except in those
situations when they are acting under the direct supervision and control of the
chief law enforcement officer of the city of Syracuse, or his or her designee.
[24]

[n24] There are two subdivisions 77.

A0352

2012 NY CPL § 2.10

(c)Every Syracuse University peace officer so appointed shall, before entering
upon the duties of his or her office, take and subscribe the oath of office
prescribed by article thirteen of the state constitution, which oath shall be filed
in the office of the county clerk of the county of Onondaga. Every such peace
officer appointed pursuant to this subdivision when on regular duty shall
conspicuously wear a metallic shield with a designating number and the
words "Syracuse University Peace Officer" engraved thereon.
(d)To become eligible for appointment as a Syracuse University peace officer
a candidate shall, in addition to the training requirements as set forth in
section 2.30 of this article, complete the course of instruction in public and
private law enforcement established pursuant to paragraph (c) of subdivision
five of section sixty-four hundred fifty of the education law.
77. [25]Chief fire marshal, assistant chief fire marshal, and fire marshals, all of
whom are full-time employees of the town of East Hampton, when acting
pursuant to their special duties in matters arising under the laws relating to fires,
the extinguishment thereof and fire perils; provided, however, that nothing in this
subdivision shall be deemed to authorize such officer to carry, possess, repair or
dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
78.A security officer employed by a community college who is specifically
designated as a peace officer by the board of trustees of a community college
pursuant to subdivision five-a of section sixty-three hundred six of the education
law, or by a community college regional board of trustees pursuant to subdivision
four-a of section sixty-three hundred ten of the education law; provided,
however, that nothing in this subdivision shall be deemed to authorize such
officer to carry, possess, repair or dispose of a firearm unless the appropriate
license therefor has been issued pursuant to section 400.00 of the penal law.
79. [26]Court security officers employed by the Wayne county sheriff's office;
provided however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
79. [27]Supervisors and members of the arson investigation bureau and fire
inspection bureau of the [fig 1] office of fire prevention and control when acting
[25]

[n25] There are two subdivisions 77.

[26]

[n26] There are four subdivisions 79.

[27]

[n27] There are four subdivisions 79.

A0353

2012 NY CPL § 2.10

pursuant to their special duties in matters arising under the laws relating to fires,
their prevention, extinguishment, investigation thereof, and fire perils; provided,
however, that nothing in this subdivision shall be deemed to authorize such
employees to carry, possess, repair, or dispose of a firearm unless the appropriate
license therefor has been issued pursuant to section 400.00 of the penal law.
79. [28]Peace officers appointed by the city university of New York pursuant to
subdivision sixteen of section sixty-two hundred six of the education law, who
shall have the powers set forth in section 2.20 of this article whether or not they
are acting pursuant to their special duties; provided, however, that nothing in this
subdivision shall be deemed to authorize such officer to carry, possess, repair or
dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
79. [29]Animal control officers of the city of Elmira, who at the discretion of the
city council of the city of Elmira may be designated as constables for the purpose
of enforcing article twenty-six of the agriculture and markets law, and for the
purpose of issuing appearance tickets permitted under article seven of such law;
provided, however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
80.Employees of the Onondaga county sheriff's department serving as uniformed
court security officers at Onondaga county court facilities; provided, however,
that nothing in this subdivision shall be deemed to authorize such officers to
carry, possess, repair or dispose of a firearm unless the appropriate license
therefor has been issued pursuant to section 400.00 of the penal law.
81. [30]Members of the security force employed by Erie County Medical Center;
provided however, that nothing in this subdivision shall be deemed to authorize
such officer to carry, possess, repair or dispose of a firearm unless the
appropriate license therefor has been issued pursuant to section 400.00 of the
penal law.
81. [31]Employees of the town of Riverhead serving as court officers at town of
Riverhead court facilities; provided, however, that nothing in this subdivision
shall be deemed to authorize such officers to carry, possess, repair or dispose of a
[28]

[n28] There are four subdivisions 79.

[29]

[n29] There are four subdivisions 79.

[30]

[n30] There are six subdivisions 81.

[31]

[n31] There are six subdivisions 81.

A0354

2012 NY CPL § 2.10

firearm unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
81. [32]Employees of the town court of the town of Southold serving as uniformed
court officers at such town court; provided, however, that nothing in this
subdivision shall be deemed to authorize such officer to carry, possess, repair or
dispose of a firearm unless the appropriate license therefor has been issued
pursuant to section 400.00 of the penal law.
81. [33]Commissioners of and court officers in the department of public safety for
the town of Rye when acting pursuant to their special duties in matters arising
under the laws relating to maintaining the safety and security of citizens, judges
and court personnel in the town court, and effecting the safe and secure transport
of persons under the custody of said department; provided, however, that nothing
in this subdivision shall be deemed to authorize such employees to carry,
possess, repair, or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
81. [34]Employees of the town of Yorktown serving as court attendants at town of
Yorktown court facilities; provided, however, that nothing in this subdivision
shall be deemed to authorize such employees to carry, possess, repair or dispose
of a firearm unless the appropriate license therefor has been issued pursuant to
section 400.00 of the penal law.
81. [35]Employees of the Lewis county sheriff's department serving as uniformed
court security officers at Lewis county court facilities; provided, however, that
nothing in this subdivision shall be deemed to authorize such officers to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
82.Employees of the New York city business integrity commission designated as
peace officers by the chairperson of such commission; provided, however, that
nothing in this subdivision shall be deemed to authorize such officer to carry,
possess, repair or dispose of a firearm unless the appropriate license therefor has
been issued pursuant to section 400.00 of the penal law.
83. [36][Eff June 15, 2013] Members of the security force employed by Kaleida
Health within and directly adjacent to the hospital buildings on the medical
[32]

[n32] There are six subdivisions 81.

[33]

[n33] There are six subdivisions 81.

[34]

[n34] There are six subdivisions 81.

[35]

[n35] There are six subdivisions 81.

[36]

[n36] There are two subdivisions 83.

A0355

2012 NY CPL § 2.10

campus located between East North Street, Goodell Street, Main Street and
Michigan Avenue. These officers shall only have the powers listed in paragraph
(c) of subdivision one of section 2.20 of this article, as well as the power to
detain an individual for a reasonable period of time while awaiting the arrival of
law enforcement, provided that the officer has actual knowledge, or probable
cause to believe, that such individual has committed an offense; provided
however, that nothing in this subdivision shall be deemed to authorize such
officer to carry, possess, repair or dispose of a firearm unless the appropriate
license therefor has been issued pursuant to section 400.00 of the penal law.
83. [37]
(a)Security services officers employed by the University of Rochester who
are designated as peace officers by the board of trustees of the University of
Rochester pursuant to paragraphs (b), (c), (d) and (e) of this subdivision;
provided, however, that nothing in this subdivision shall be deemed to
authorize any such officer to carry, possess, repair or dispose of a firearm
unless the appropriate license therefor has been issued pursuant to section
400.00 of the penal law.
(b)For the protection of the grounds, buildings and property of the University
of Rochester, the prevention of crime and the enforcement of law and order,
the board of trustees of the University of Rochester may appoint and remove
such number of security services officers designated as peace officers as is
determined by the board of trustees to be necessary for the maintenance of
public order consistent with this subdivision. Such peace officers shall comply
with such requirements as shall be mutually agreed upon between the chief
law enforcement officers of the applicable local law enforcement jurisdictions
and the University of Rochester. Such University of Rochester peace officers
so appointed shall be employees of the University of Rochester and subject to
its supervision and control. Such University of Rochester peace officers shall
have the powers of peace officers within the geographic area of employment
of the grounds or premises owned, controlled or administered by the
University of Rochester within the county of Monroe except as provided in
paragraph (c) of this subdivision; provided, however, such peace officers shall
have the powers of peace officers beyond such geographic area upon the
request of the chief law enforcement officer of the local law enforcement
jurisdiction or his or her designee, for the purpose of transporting an
individual who has been arrested in accordance with section 140.27 of this

[37]

[n37] There are two subdivisions 83.

A0356

2012 NY CPL § 2.10

chapter and when no local law enforcement officer is available for
transporting such individual in a timely manner.
(c)University of Rochester peace officers who are assigned to work at Strong
Memorial Hospital shall only have the powers in section 9.41 of the mental
hygiene law and the powers listed in paragraphs (a), (c) and (h) of subdivision
one of section 2.20 of this article. Provided that in order to exercise the power
set forth in paragraph (a) of subdivision one of section 2.20 of this article, the
officer has actual knowledge, or probable cause to believe, that such
individual has committed an offense.
(d)The University of Rochester shall provide legal defense and
indemnification to applicable municipality and its officers and employees, and
hold them harmless, against all claims arising out of conduct by or injury to
such peace officers while carrying out their special duties, except in those
situations when they are acting as agents of the chief law enforcement officer
of the applicable local law enforcement jurisdiction or his or her designee.
(e)To become eligible for designation as a University of Rochester peace
officer, a candidate shall, in addition to the training requirements as set forth
in section 2.30 of this article, complete the course of instruction in public and
private law enforcement established pursuant to subdivision three of section
sixty-four hundred thirty-five of the education law.
History
Add, L 1980, ch 843, § 2, eff Sept 1, 1980; amd, L 1981, ch 175, §§ 6, 8, 9, eff July 2,
1981 and applicable to offenses committed on or after such date; amd, L 1981, ch 175, § 7,
L 1981, ch 462, § 1, L 1981, ch 470, § 1, L 1981, ch 523, § 1, L 1981, ch 720, § 5, eff Nov
1, 1981 (see 1993 note below), L 1982, ch 658, § 2, retroactive to and deemed to have
been in full force and effect on and after July 1, 1979 (see 1982 note below), L 1983, ch
969, §§ 3-6, 9, eff Aug 8, 1983 (see 1983 note below), L 1984, ch 740, § 1, L 1985, ch 65,
§ 4, eff April 17, 1985, L 1985, ch 266, § 1, L 1986, ch 318, § 2, eff July 17, 1986, L 1986,
ch 364, § 1 ,L 1987, ch 617, § 11, eff Jan 1, 1988 (see 1987 note below), L 1987, ch 734,
§§ 1, 2, L 1987, ch 734, § 2, eff Nov 1, 1987 (see 1987 note below) eff Nov 1, 1987 (see
1987 note below), L 1988, ch 141, § 70, eff June 20, 1988, L 1988, ch 438, § 1, eff July
29, 1988, L 1988, ch 274, § 1, L 1988, ch 695, § 3, eff Jan 1, 1989, L 1989, ch 188, § 1, eff
June 24, 1989, L 1989, ch 189, § 1, L 1989, ch 285, § 1, L 1989, ch 426, § 1,L 1990, ch
931, § 1, eff Oct 15, 1990, L 1991, ch 166, § 341, eff June 12, 1991, expired Nov 1, 1993
(see 1991 note below), L 1992, ch 93, § 1, eff May 17, 1992, L 1992, ch 257, § 1, eff June
30, 1992, L 1992, ch 294, § 1, eff June 30, 1992, L 1992, ch 321, § 4, eff July 17, 1992, L
1992, ch 487, § 1, eff July 17, 1992, L 1992, ch 858, § 1, eff Dec 23, 1992, L 1993, ch
157,
A0357

2012 NY CPL § 2.10

§ 1, eff July 28, 1993, L 1993, ch 204, § 1, eff July 6, 1993, L 1993, ch 508, § 12 (see 1993
and 2008 notes below), L 1993, ch 687, § 9, eff Dec 2, 1993, L 1994, ch 466, § 1, eff July
20, 1994, expired and repealed Jan 31, 1995 (see 1994 note below), L 1994, ch 519, § 1,
eff July 26, 1994, L 1994, ch 620, § 1, eff July 26, 1994, L 1994, ch 665, § 1, eff Aug 2,
1994, L 1994, ch 668, § 1, L 1995, ch 2, §§ 70 and 71, eff Sept 1, 1995 (see 1995 note
below), L 1995, ch 206, § 1, eff Sept 24, 1995, L 1995, ch 457, § 1, eff Aug 2, 1995, L
1995, ch 462, § 1, eff Aug 2, 1995, L 1995, ch 521, § 1, eff Aug 2, 1995, L 1995, ch 658, §
1, eff Aug 8, 1995, L 1996, ch 314, § 1, eff July 17, 1996, L 1996, ch 379, § 1, eff July 30,
1996, L 1997, ch 378, § 1, eff Aug 5, 1997, L 1997, ch 555, § 1, eff Sept 10, 1997, L 1997,
ch 562, § 1, eff Sept 10, 1997, L 1998, ch 224, § 1, eff July 7, 1998, L 1998, ch 424, § 3,
eff Jan 1, 1999, L 1995, ch 206, § 1, eff Sept 24, 1995, L 1999, ch 212, § 2, eff July 6,
1999, L 1999, ch 584, § 1, eff Nov 1, 1999, L 2000, ch 168, § 1, eff July 18, 2000, L 2000,
ch 227, § 1, eff Aug 16, 2000, L 2000, ch 393, § 1, Aug 30, 2000, L 2000, ch 385, § 1, eff
Aug 30, 2000, L 2000, ch 404, § 1, eff Aug 30, 2000, L 2001, ch 120, § 1, eff Aug 6, 2001,
L 2001, ch 481, § 1, eff Nov 21, 2001, L 2001, ch 548, § 1, eff Dec 12, 2001, L 2002, ch
260, § 1, eff July 30, 2002, L 2002, ch 261, § 1, eff July 30, 2002, L 2002, ch 318, §§ 3, 4,
eff Aug 6, 2002 (see 2002 note below), L 2002, ch 320, § 1, Aug 6, 2002, L 2002, ch 321,
§ 1, Aug 6, 2002, L 2002, ch 623, § 1, eff Oct 2, 2002, L 2002, ch 623, § 1, eff Oct 2,
2002, L 2003, ch 626, § 1, eff Sept 30, 2003, L 2003, ch 638, § 1, eff Oct 7, L 2003, ch
654, § 1, eff Oct 7, 2003, 2003, L 2003, ch 665, § 1, eff Oct 15, 2003, L 2003, ch 671, § 1,
eff Oct 15, 2003, L 2003, ch 689, § 3, eff Oct 21, 2003, L 2004, ch 17, § 1, eff March 23,
2004, L 2004, ch 24, § 3, eff April 6, 2004, L 2004, ch 235, § 1, eff July 27, 2004, L 2004,
ch 241, § 1, eff July 27, 2004, L 2004, ch 367, § 1, Aug 17, 2004, L 2004, ch 664, §§ 2, 3,
eff Oct 26, 2004, L 2004, ch 752, § 1, eff Jan 28, 2005, L 2005, ch 557, § 1, eff Aug 23,
2005, L 2006, ch 438, § 1, eff July 26, 2006, expired and repealed Dec 31, 2006 (see 2006
note below), L 2006, ch 467, § 1, eff Feb 12, 2007, L 2006, ch 482, § 1, eff Aug 16, 2006,
L 2006, ch 501, § 1, eff Aug 16, 2006, L 2006, ch 581, § 1, eff Aug 16, 2006, L 2006, ch
584, § 1, eff Aug 16, 2006, L 2006, ch 653, § 1, eff Sept 13, 2006, L 2006, ch 693, § 2, eff
Sept 13, 2006, L 2008, ch 564, § 1, eff Sept 4, 2008, L 2009, ch 329, § 7, eff Aug 8, 2009
(see 2009 note below), L 2009, ch 329, § 8, eff Aug 11, 2009, expires and repealed Aug
11, 2014 (see 2009 note below), L 2010, ch 56, § 50 (Part B), eff July 1, 2010, L 2011, ch
61, § 56 (Part K), eff Sept 1, 2011 (see 2011 note below), L 2011, ch 62, §§ 78, 78-a (Part
A), eff Oct 3, 2011 (see 2011 note below), L 2011, ch 62, § 70 (Part C, Subpart B), eff
March 31, 2011, L 2012, ch 502, § 1, eff June 15, 2013, L 2012, ch 504, § 1, eff Dec 17,
2012.

A0358

2012 N.Y. CRIM. PROC. LAW § 2.20

§ 2.20. Powers of peace officers

1.The persons designated in section 2.10 of this article shall have the following powers:
(a)The power to make warrantless arrests pursuant to section 140.25 of this
chapter.
(b)The power to use physical force and deadly physical force in making an arrest
or preventing an escape pursuant to section 35.30 of the penal law.
(c)The power to carry out warrantless searches whenever such searches are
constitutionally permissible and acting pursuant to their special duties.
(d)The power to issue appearance tickets pursuant to subdivision three of section
150.20 of this chapter, when acting pursuant to their special duties. New York
city special patrolmen shall have the power to issue an appearance ticket only
when it is pursuant to rules and regulations of the police commissioner of the city
of New York.
(e)The power to issue uniform appearance tickets pursuant to article twentyseven of the parks, recreation and historic preservation law and to issue
simplified traffic informations pursuant to section 100.25 of this chapter and
section two hundred seven of the vehicle and traffic law whenever acting
pursuant to their special duties.
(f)The power to issue a uniform navigation summons and/or complaint pursuant
to section nineteen of the navigation law whenever acting pursuant to their
special duties.
(g)The power to issue uniform appearance tickets pursuant to article seventy-one
of the environmental conservation law, whenever acting pursuant to their special
duties.
(h)The power to possess and take custody of firearms not owned by the peace
officer, for the purpose of disposing, guarding, or any other lawful purpose,
consistent with his duties as a peace officer.
Appendix W

A0359

2012 NY CPL § 2.20

(i)Any other power which a particular peace officer is otherwise authorized to
exercise by any general, special or local law or charter whenever acting pursuant
to his special duties, provided such power is not inconsistent with the provisions
of the penal law or this chapter.
(j)Uniformed court officers shall have the power to issue traffic summonses and
complaints for parking, standing, or stopping violations pursuant to the vehicle
and traffic law whenever acting pursuant to their special duties.
2.For the purposes of this section a peace officer acts pursuant to his special duties
when he performs the duties of his office, pursuant to the specialized nature of his
particular employment, whereby he is required or authorized to enforce any general,
special or local law or charter, rule, regulation, judgment or order.
3.A peace officer, whether or not acting pursuant to his special duties, who lawfully
exercises any of the powers conferred upon him pursuant to this section, shall be
deemed to be acting within the scope of his public employment for purposes of defense
and indemnification rights and benefits that he may be otherwise entitled to under the
provisions of section fifty-k of the general municipal law, section seventeen or eighteen
of the public officers law, or any other applicable section of law.
History
Add, L 1980, ch 843, § 2, eff Sept 1, 1980.
Sub 1, formerly opening par, so numbered, L 1985, ch 722, § 1, eff Aug 1, 1985.
Former sub 1, redesignated sub 1, par (a), L 1985, ch 722, § 1, eff Aug 1, 1985.
Sub 1, par (a), formerly sub 1, redesignated sub 1, par (a), L 1985, ch 722, § 1, eff Aug 1,
1985.
Sub 1, par (b), formerly sub 2, redesignated sub 1, par (b), L 1985, ch 722, § 1, eff Aug
1, 1985.
Sub 1, par (c), formerly sub 3, redesignated sub 1, par (c), L 1985, ch 722, § 1, eff Aug 1,
1985.
Sub 1, par (d), formerly sub 4, redesignated sub 1, par (d), L 1985, ch 722, § 1, eff Aug
1, 1985.
Sub 1, par (e), formerly sub 5, redesignated sub 1, par (e) and amd, L 1985, ch 722, § 1,
eff Aug 1, 1985.
Sub 1, par (f), formerly sub 6, redesignated sub 1, par (f), L 1985, ch 722, § 1, eff Aug 1,
1985.
A0360

2012 NY CPL § 2.20

Sub 1, par (g), formerly sub 7, redesignated sub 1, par (g), L 1985, ch 722, § 1, eff Aug
1, 1985.
Sub 1, par (h), formerly sub 8, redesignated sub 1, par (h), L 1985, ch 722, § 1, eff Aug
1, 1985.
Sub 1, par (i), formerly sub 9, redesignated sub 1, par (i), L 1985, ch 722, § 1, eff Aug 1,
1985.
Sub 1, par (j), add,L 2005, ch 685, § 1, eff Oct 4, 2005.
Sub 2, formerly last undesignated par, so numbered, L 1985, ch 722, § 1, eff Aug 1,
1985.
Former sub 2, designated sub 1, par (b), L 1985, ch 722, § 1, eff Aug 1, 1985.
Sub 3, add, L 1985, ch 722, § 1, eff Aug 1, 1985.
Former sub 3, redesignated sub 1, par (c), L 1985, ch 722, § 1, eff Aug 1, 1985.
Subs 4-9, redesignated sub 1, pars (d)-(i), L 1985, ch 722, § 1, eff Aug 1, 1985.

End of Document

A0361

2012 N.Y. CRIM. PROC. LAW § 10.10

§ 10.10. The criminal courts; enumeration and definitions

1.The "criminal courts" of this state are comprised of the superior courts and the local
criminal courts.
2."Superior court" means:
(a)The supreme court; or
(b)A county court.
3."Local criminal court" means:
(a)A district court; or
(b)The New York City criminal court; or
(c)A city court; or
(d)A town court; or
(e)A village court; or
(f)A supreme court justice sitting as a local criminal court; or
(g)A county judge sitting as a local criminal court.
4."City court" means any court for a city, other than New York City, having trial
jurisdiction of offenses of less than felony grade only committed within such city,
whether such court is entitled a city court, a municipal court, a police court, a recorder's
court or is known by any other name or title.
5."Town court." A "town court" is comprised of all the town justices of a town.
6."Village court." A "village court" is comprised of the justice of a village, or all the
justices thereof if there be more than one, or, at a time when he or they are absent, an
acting justice of a village who is authorized to perform the functions of a village justice
during his absence.
7.Notwithstanding any other provision of this section, a court specified herein which
possesses civil as well as criminal jurisdiction does not act as a criminal court when
Appendix X

A0362

2012 NY CPL § 10.10

acting solely in the exercise of its civil jurisdiction, and an order or determination made
by such a court in its civil capacity is not an order or determination of a criminal court
even though it may terminate or otherwise control or affect a criminal action or
proceeding.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971.

A0363

2010 N.Y. CRIM. PROC. LAW § 120.10

§ 120.10. Warrant of arrest; definition, function, form and content

1.A warrant of arrest is a process issued by a local criminal court directing a police
officer [fig 1] to arrest a defendant designated in an accusatory instrument filed with
such court and to bring him before such court in connection with such instrument. The
sole function of a warrant of arrest is to achieve a defendant's court appearance in a
criminal action for the purpose of arraignment upon the accusatory instrument by which
such action was commenced.
2.A warrant of arrest must be subscribed by the issuing judge and must state or contain
(a) the name of the issuing court, and (b) the date of issuance of the warrant, and (c) the
name or title of an offense charged in the underlying accusatory instrument, and (d) the
name of the defendant to be arrested or, if such be unknown, any name or description
by which he can be identified with reasonable certainty, and (e) the police officer or
officers [fig 1] to whom the warrant is addressed, and (f) a direction that such officer
arrest the defendant and bring him before the issuing court.
3.A warrant of arrest may be addressed to a classification of police officers, or to two or
more classifications thereof, as well as to a designated individual police officer or
officers [fig 1] . Multiple copies of such a warrant may be issued.
History
Add, L 1970, ch 996, § 1, with substance derived from Crim C §§ 151, 152; amd, L
1980, ch 843, § 8, eff Sept 1, 1980.
Amd,L 1998, ch 424, § 4, eff Jan 1, 1999.
Sub 1, amd,L 1998, ch 424, § 4, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or a peace officer appointed by the state university"
Sub 2, amd,L 1998, ch 424, § 4, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officers appointed by the state university"
Appendix Y

A0364

2010 N.Y. CRIM. PROC. LAW § 120.20

§ 120.20. Warrant of arrest; when issuable
1.When a criminal action has been commenced in a local criminal court by the filing
therewith of an accusatory instrument, other than a simplified traffic information,
against a defendant who has not been arraigned upon such accusatory instrument and
has not come under the control of the court with respect thereto [fig 1] :
(a)such court may, if such accusatory instrument is sufficient on its face, issue a
warrant for such defendant's arrest; or
(b)if such accusatory instrument is not sufficient on its face as prescribed in
section 100.40, and if the court is satisfied that on the basis of the available facts
or evidence it would be impossible to draw and file an accusatory instrument that
is sufficient on its face, the court must dismiss the accusatory instrument.
2.Even though such accusatory instrument is sufficient on its face, the court may refuse
to issue a warrant of arrest based thereon until it has further satisfied itself, by inquiry
or examination of witnesses, that there is reasonable cause to believe that the defendant
committed an offense charged. Upon such inquiry or examination, the court may
examine, under oath or otherwise, any available person whom it believes may possess
knowledge concerning the subject matter of the charge.
3.Notwithstanding the provisions of subdivision one, if a summons may be issued in
lieu of a warrant of arrest pursuant to section 130.20, and if the court is satisfied that the
defendant will respond thereto, it may not issue a warrant of arrest. Upon the request of
the district attorney, in lieu of a warrant of arrest or summons, the court may instead
authorize the district attorney to direct the defendant to appear for arraignment on a
designated date if it is satisfied that the defendant will so appear.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971.
Sub 1, opening par, formerly part of entire sub 1, so designated sub 1, opening par and
amd,L 2000, ch 506, § 1, eff Nov 1, 2000.
A0365

Appendix Z

2010 NY CPL § 120.20

The 2000 act deleted at fig 1 a comma
Sub 1, par (a), formerly part of entire sub 1, so designated sub 1, par (a) and amd,L 2000,
ch 506, § 1, eff Nov 1, 2000.
Sub 1, par (b), add,L 2000, ch 506, § 1, eff Nov 1, 2000.
Sub 3, amd,L 1993, ch 446, § 3, eff Nov 1, 1993.

A0366

2010 N.Y. CRIM. PROC. LAW § 120.70

§ 120.70. Warrant of arrest; where executable

1.A warrant of arrest issued by a district court, by the New York City criminal court or
by a superior court judge sitting as a local criminal court may be executed anywhere in
the state.
2.A warrant of arrest issued by a city court, a town court or a village court may be
executed:
(a)In the county of issuance or in any adjoining county; or
(b)Anywhere else in the state upon the written endorsement thereon of a local
criminal court of the county in which the arrest is to be made. When so endorsed,
the warrant is deemed the process of the endorsing court as well as that of the
issuing court.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971, with substance derived from Crim C §§ 155,
156.

End of Document

Appendix AA

A0367

2010 N.Y. CRIM. PROC. LAW § 120.80

§ 120.80. Warrant of arrest; when and how executed

1.A warrant of arrest may be executed on any day of the week and at any hour of the
day or night.
2.Unless encountering physical resistance, flight or other factors rendering normal
procedure impractical, the arresting police officer [fig 1] must inform the defendant that
a warrant for his arrest for the offense designated therein has been issued. Upon request
of the defendant, the officer must show him the warrant if he has it in his possession.
The officer need not have the warrant in his possession, and, if he has not, he must
show it to the defendant upon request as soon after the arrest as possible.
3.In order to effect the arrest, the police officer [fig 1] may use such physical force as is
justifiable pursuant to section 35.30 of the penal law.
4.In order to effect the arrest, the police officer [fig 1] may, under circumstances and in
the manner prescribed in this subdivision, enter any premises in which he reasonably
believes the defendant to be present; provided, however, that where the premises in
which the officer reasonably believes the defendant to be present is the dwelling of a
third party who is not the subject of the arrest warrant, the officer shall proceed in the
manner specified in article 690 of this chapter. Before such entry, he must give, or
make reasonable effort to give, notice of his authority and purpose to an occupant
thereof, unless there is reasonable cause to believe that the giving of such notice will:
(a)Result in the defendant escaping or attempting to escape; or
(b)Endanger the life or safety of the officer or another person; or
(c)Result in the destruction, damaging or secretion of material evidence.
5.If the officer is authorized to enter premises without giving notice of his authority and
purpose, or if after giving such notice he is not admitted, he may enter such premises,
and by a breaking if necessary.
History
Appendix BB

A0368

2010 NY CPL § 120.80

Add, L 1970, ch 996, § 1, eff Sept 1, 1971, with substance derived from Crim C §§ 170176.
Sub 2, amd, L 1980, ch 843, § 11, eff Sept 1, 1980.
Sub 3, amd, L 1980, ch 843, § 11, eff Sept 1, 1980.
Sub 4, amd, L 1980, ch 843, § 11,L 1991, ch 504, § 1, eff Nov 1, 1991.
Sub 4, opening par, amd,L 1991, ch 504, § 1, eff Nov 1, 1991.
Sub 5, reenacted without change, L 1980, ch 843, § 11, eff Sept 1, 1980.
Sub 2, amd,L 1998, ch 424, § 7, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 3, amd,L 1998, ch 424, § 7, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 4, opening par, amd,L 1998, ch 424, § 7, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"

End of Document

A0369

2012 N.Y. CRIM. PROC. LAW § 690.05

§ 690.05. Search warrants; in general; definition

1.Under circumstances prescribed in this article, a local criminal court may, upon
application of a police officer, a district attorney or other public servant acting in the
course of his official duties, issue a search warrant.
2.A search warrant is a court order and process directing a police officer [fig 1] to
conduct:
(a)a search of designated premises, or of a designated vehicle, or of a designated
person, for the purpose of seizing designated property or kinds of property, and
to deliver any property so obtained to the court which issued the warrant; or
(b)a search of a designated premises for the purpose of searching for and
arresting a person who is the subject of:
(i)a warrant of arrest issued pursuant to this chapter, a superior court warrant
of arrest issued pursuant to this chapter, or a bench warrant for a felony issued
pursuant to this chapter, where the designated premises is the dwelling of a
third party who is not the subject of the arrest warrant; or
(ii)a warrant of arrest issued by any other state or federal court for an offense
which would constitute a felony under the laws of this state, where the
designated premises is the dwelling of a third party who is not the subject of
the arrest warrant.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971.
Sub 2, amd, L 1980, ch 843, § 20, eff Sept 1, 1980.
Sub 2, opening par, formerly part of sub 2, so designated and amd,L 1991, ch 504, § 2,
eff Nov 1, 1991.
Sub 2, opening par, amd,L 1998, ch 424, § 9, eff Jan 1, 1999.
Appendix CC

A0370

2012 NY CPL § 690.05

The 1998 act deleted at fig 1 "or a peace officer appointed by the state university"
Sub 2, par (a), formerly part of sub 2, so designated and amd,L 1991, ch 504, § 2, eff
Nov 1, 1991.
Sub 2, par (b), add,L 1991, ch 504, § 2, eff Nov 1, 1991.

A0371

2012 N.Y. CRIM. PROC. LAW § 690.25

§ 690.25. Search warrants; to whom addressable and by whom executable

1.A search warrant must be addressed to a police officer whose geographical area of
employment embraces or is embraced or partially embraced by the county of issuance.
The warrant need not be addressed to a specific police officer but may be addressed to
any police officer of a designated classification, or to any police officer of any
classification employed or having general jurisdiction to act as a police officer in the
county.
2.A police officer to whom a search warrant is addressed, as provided in subdivision
one, may execute it pursuant to its terms anywhere in the county of issuance or an
adjoining county, and he may execute it pursuant to its terms in any other county of the
state in which it is executable if (a) his geographical area of employment embraces the
entire county of issuance or (b) he is a member of the police department or force of a
city located in such county of issuance.
3.[Repealed]
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971.
Sub 3, add, L 1980, ch 843, § 21, eff Sept 1, 1980.
Sub 3, repealed,L 1998, ch 424, § 10, eff Jan 1, 1999.

End of Document

Appendix DD

A0372

2012 N.Y. CRIM. PROC. § 690.35

§ 690.35. Search warrants; the application

1.An application for a search warrant may be in writing or oral. If in writing, it must be
made, subscribed and sworn to by a public servant specified in subdivision one of
section 690.05. If oral, it must be made by such a public servant and sworn to and
recorded in the manner provided in section 690.36.
2.The application shall be made to:
(a)A local criminal court, as defined in section 10.10 of this chapter, having
preliminary jurisdiction over the underlying offense, or geographical jurisdiction
over the location to be searched when the search is to be made for personal
property of a kind or character described in section 690.10 of this article except
that:
(i)if a town court has such jurisdiction but is not available to issue the search
warrant, the warrant may be issued by the local criminal court of any village
within such town or, any adjoining town, village embraced in whole or in part
by such adjoining town, or city of the same county;
(ii)if a village court has such jurisdiction but is not available to issue the
search warrant, the warrant may be issued by the town court of the town
embracing such village or any other village court within such town, or, if such
town or village court is not available either, before the local criminal court of
any adjoining town, village embraced in whole or in part by such adjoining
town, or city of the same county; and
(iii)if a city court has such jurisdiction but is not available to issue the search
warrant, the warrant may be issued by the local criminal court of any
adjoining town or village, or village court embraced by an adjoining town,
within the same county as such city.
(b)A local criminal court, as defined in section 10.10 of this chapter, with
geographical jurisdiction over the location where the premises to be searched is
located, or which issued the underlying arrest warrant, when the search warrant
is
A0373
Appendix EE

2012 NY CPL § 690.35

sought pursuant to paragraph (b) of subdivision two of section 690.05 of this
article, for the purpose of arresting a wanted person.
Any search warrant issued pursuant to this section shall be subject to the
territorial limitations provided by section 690.20 of this article.
3.The application must contain:
(a)The name of the court and the name and title of the applicant; and
(b)A statement that there is reasonable cause to believe that property of a kind or
character described in section 690.10 may be found in or upon a designated or
described place, vehicle or person, or, in the case of an application for a search
warrant as defined in paragraph (b) of subdivision two of section 690.05, a
statement that there is reasonable cause to believe that the person who is the
subject of the warrant of arrest may be found in the designated premises; and
(c)Allegations of fact supporting such statement. Such allegations of fact may be
based upon personal knowledge of the applicant or upon information and belief,
provided that in the latter event the sources of such information and the grounds
of such belief are stated. The applicant may also submit depositions of other
persons containing allegations of fact supporting or tending to support those
contained in the application; and
(d)A request that the court issue a search warrant directing a search for and
seizure of the property or person in question; and
(e)In the case of an application for a search warrant as defined in paragraph (b) of
subdivision two of section 690.05, a copy of the warrant of arrest and the
underlying accusatory instrument.
4.The application may also contain:
(a)A request that the search warrant be made executable at any time of the day or
night, upon the ground that there is reasonable cause to believe that (i) it cannot
be executed between the hours of 6:00 A.M. and 9:00 P.M., or (ii) the property
sought will be removed or destroyed if not seized forthwith, or (iii) in the case of
an application for a search warrant as defined in paragraph (b) of subdivision two
of section 690.05, the person sought is likely to flee or commit another crime, or
may endanger the safety of the executing police officers or another person if not
seized forthwith or between the hours of 9:00 P.M. and 6:00 A.M.; and
(b)A request that the search warrant authorize the executing police officer [fig 1]
to enter premises to be searched without giving notice of his authority and
purpose, upon the ground that there is reasonable cause to believe that (i) the
property sought may be easily and quickly destroyed or disposed of, or (ii) the
giving of such notice may endanger the life or safety of the executing officer
or
A0374

2012 NY CPL § 690.35

another person, or (iii) in the case of an application for a search warrant as
defined in paragraph (b) of subdivision two of section 690.05 for the purpose of
searching for and arresting a person who is the subject of a warrant for a felony,
the person sought is likely to commit another felony, or may endanger the life or
safety of the executing officer or another person.
Any request made pursuant to this subdivision must be accompanied and
supported by allegations of fact of a kind prescribed in paragraph (c) of
subdivision two.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971.
Sub 1, amd, L 1982, ch 679, § 1, eff Sept 20, 1982.
Sub 2, add,L 1992, ch 815, § 2; amd, L 1992, ch 816, § 2, eff Nov 1, 1992.
Former sub 2, redesignated sub 3,L 1992, ch 815, § 2, eff Nov 1, 1992.
Sub 2, par (a), formerly first undesignated par, opening par, so designated par (a),L 1992,
ch 816, § 2, eff Nov 1, 1992.
Sub 2, par (a), subpar (i), formerly par (a), so designated,L 1992, ch 816, § 2, eff Nov 1,
1992.
Sub 2, par (a), subpar (ii), formerly par (b), so designated,L 1992, ch 816, § 2, eff Nov 1,
1992.
Sub 2, par (a), subpar (iii), formerly par (c), so designated,L 1992, ch 816, § 2, eff Nov 1,
1992.
Sub 2, par (b), add,L 1992, ch 816, § 2, eff Nov 1, 1992.
Former sub 2, par (b), redesignated sub 2, par (a), subpar (ii),L 1992, ch 816, § 2, eff
Nov 1, 1992.
Sub 2, par (c), redesignated sub 2, par (a), subpar (iii),L 1992, ch 816, § 2, eff Nov 1,
1992.
Sub 3, formerly sub 2, so designated,L 1992, ch 815, § 2, eff Nov 1, 1992.
Former sub 3, amd, L 1980, ch 843, § 22; redesignated sub 4,L 1992, ch 815, § 2, eff
Nov 1, 1992.
A0375

2012 NY CPL § 690.35

Sub 3, par (b), formerly sub 2, par (b), amd,L 1991, ch 504, § 3, eff Nov 1, 1991.
Sub 3, par (d), formerly sub 2, par (d), amd,L 1991, ch 504, § 4, eff Nov 1, 1991.
Sub 3, par (e), formerly sub 2, par (e), add,L 1991, ch 504, § 4, eff Nov 1, 1991.
Sub 4, formerly sub 3, so designated,L 1992, ch 815, § 2, eff Nov 1, 1992.
Sub 4, par (a), formerly sub 3, par (a), amd,L 1991, ch 504, § 5, eff Nov 1, 1991.
Sub 4, par (b), formerly sub 3, par (b), amd,L 1991, ch 504, § 5, eff Nov 1, 1991.
Sub 4, par (b), amd,L 1998, ch 424, § 11, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"

End of Document

A0376

2012 N.Y. CRIM. PROC. LAW § 690.36

§ 690.36. Search warrants; special provisions governing oral applications therefor

1.An oral application for a search warrant may be communicated to a judge by
telephone, radio or other means of electronic communication.
2.Where an oral application for a search warrant is made, the applicant therefor must
identify himself and the purpose of his communication. After being sworn as provided
in subdivision three of this section, the applicant must also make the statement required
by paragraph (b) of subdivision two of section 690.35 and provide the same allegations
of fact required by paragraph (c) of such subdivision; provided, however, persons,
properly identified, other than the applicant may also provide some or all of such
allegations of fact directly to the court. Where appropriate, the applicant may also make
a request specified in subdivision three of section 690.35.
3.Upon being advised that an oral application for a search warrant is being made, a
judge shall place under oath the applicant and any other person providing information
in support of the application. Such oath or oaths and all of the remaining
communication must be recorded, either by means of a voice recording device or
verbatim stenographic or verbatim longhand notes. If a voice recording device is used
or a stenographic record made, the judge must have the record transcribed, certify to the
accuracy of the transcription and file the original record and transcription with the court
within twenty-four hours of the issuance of a warrant. If longhand notes are taken, the
judge shall subscribe a copy and file it with the court within twenty-four hours of the
issuance of a warrant.
History
Add, L 1982, ch 679, § 2, eff Sept 20, 1982.

Appendix FF

A0377

2012 N.Y. CRIM. PROC. LAW § 690.40

§ 690.40. Search warrants; determination of application

1.In determining an application for a search warrant the court may examine, under oath,
any person whom it believes may possess pertinent information. Any such examination
must be either recorded or summarized on the record by the court.
2.If the court is satisfied that there is reasonable cause to believe that property of a kind
or character referred to in section 690.10, and described in the application, may be
found in or upon the place, premises, vehicle or person designated or described in the
application, or, in the case of an application for a search warrant as defined in
paragraph (b) of subdivision two of section 690.05, that there is reasonable cause to
believe that the person who is the subject of a warrant of arrest, a superior court warrant
of arrest, or a bench warrant for a felony may be found at the premises designated in the
application, it may grant the application and issue a search warrant directing a search of
the said place, premises, vehicle or person and a seizure of the described property or the
described person. If the court is further satisfied that grounds, described in subdivision
[fig 1] four of section 690.35, exist for authorizing the search to be made at any hour of
the day or night, or without giving notice of the police officer's [fig 2] authority and
purpose, it may make the search warrant executable accordingly.
3.When a judge determines to issue a search warrant based upon an oral application, the
applicant therefor shall prepare the warrant in accordance with section 690.45 and shall
read it, verbatim, to the judge.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971.
Sub 2, amd, L 1980, ch 843, § 23,L 1991, ch 504, § 6, eff Nov 1, 1991.
Sub 3, add, L 1982, ch 679, § 3, eff Sept 20, 1982.
Sub 2, amd,L 1998, ch 424, § 12, eff Jan 1, 1999.
Appendix GG

A0378

2012 NY CPL § 690.40

The 1998 act deleted at fig 1 "three" and at fig 2 "or peace officer's appointed by the state
university,"

End of Document

A0379

2012 N.Y. CRIM. PROC. LAW § 690.45

§ 690.45. Search warrants; form and content

A search warrant must contain:
1.The name of the issuing court and, except where the search warrant has been
obtained on an oral application, the subscription of the issuing judge; and
2.Where the search warrant has been obtained on an oral application, it shall so
indicate and shall state the name of the issuing judge and the time and date on
which such judge directed its issuance.
3.The name, department or classification of the police officer [fig 1] to whom it
is addressed; and
4.A description of the property which is the subject of the search, or, in the case
of a search warrant as defined in paragraph (b) of subdivision two of section
690.05, a description of the person to be searched for; and
5.A designation or description of the place, premises or person to be searched, by
means of address, ownership, name or any other means essential to identification
with certainty; and
6.A direction that the warrant be executed between the hours of 6:00 A.M. and
9:00 P.M., or, where the court has specially so determined, an authorization for
execution thereof at any time of the day or night; and
7.An authorization, where the court has specially so determined, that the
executing police officer [fig 1] enter the premises to be searched without giving
notice of his authority and purpose; and
8.A direction that the warrant and any property seized pursuant thereto be
returned and delivered to the court without unnecessary delay; and
9.In the case of a search warrant as defined in paragraph (b) of subdivision two of
section 690.05, a copy of the warrant of arrest and the underlying accusatory
instrument.
Appendix HH

A0380

2012 NY CPL § 690.45

History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971, with substance derived from Crim C §§ 797,
799, 801.
Sub 1, amd, L 1982, ch 679, § 4, eff Sept 20, 1982.
Sub 2, add, L 1982, ch 679, § 5, eff Sept 20, 1982.
Former sub 2, amd, L 1980, ch 843, § 24; renumbered sub 3, L 1982, ch 679, § 5, eff
Sept 20, 1982.
Sub 3, formerly sub 2, amd, L 1980, ch 843, § 24; renumbered sub 3, L 1982, ch 679, §
5, eff Sept 20, 1982.
Former sub 3, renumbered sub 4, L 1982, ch 679, § 5, eff Sept 20, 1982.
Sub 4, formerly sub 3, renumbered sub 4, L 1982, ch 679, § 5; amd,L 1991, ch 504, § 7,
eff Nov 1, 1991.
Former sub 4, renumbered sub 5, L 1982, ch 679, § 5, eff Sept 20, 1982.
Sub 5, formerly sub 4, renumbered sub 5, L 1982, ch 679, § 5, eff Sept 20, 1982.
Former sub 5, renumbered sub 6, L 1982, ch 679, § 5, eff Sept 20, 1982.
Sub 6, formerly sub 5, renumbered sub 6, L 1982, ch 679, § 5, eff Sept 20, 1982.
Former sub 6, amd, L 1980, ch 843, § 24; renumbered sub 7, L 1982, ch 679, § 5, eff
Sept 20, 1982.
Sub 7, formerly sub 6, amd, L 1980, ch 843, § 24; renumbered sub 7, L 1982, ch 679, §
5, eff Sept 20, 1982.
Former sub 7, renumbered sub 8, L 1982, ch 679, § 5, eff Sept 20, 1982.
Sub 8, formerly sub 7, renumbered sub 8, L 1982, ch 679, § 5; amd,L 1991, ch 504, § 8,
eff Nov 1, 1991.
Sub 9, add,L 1991, ch 504, § 8, eff Nov 1, 1991.
Sub 3, amd,L 1998, ch 424, § 13, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 7, amd,L 1998, ch 424, § 13, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
A0381

2012 NY CPL § 690.45

End of Document

A0382

2012 N.Y. CRIM. PROC. LAW § 690.50

§ 690.50. Search warrants; execution thereof

1.In executing a search warrant directing a search of premises or a vehicle, a police
officer [fig 1] must, except as provided in subdivision two, give, or make reasonable
effort to give, notice of his authority and purpose to an occupant thereof before entry
and show him the warrant or a copy thereof upon request. If he is not thereafter
admitted, he may forcibly enter such premises or vehicle and may use against any
person resisting his entry or search thereof as much physical force, other than deadly
physical force, as is necessary to execute the warrant; and he may use deadly physical
force if he reasonably believes such to be necessary to defend himself or a third person
from what he reasonably believes to be the use or imminent use of deadly physical
force.
2.In executing a search warrant directing a search of premises or a vehicle, a police
officer [fig 1] need not give notice to anyone of his authority and purpose, as prescribed
in subdivision one, but may promptly enter the same if:
(a)Such premises or vehicle are at the time unoccupied or reasonably believed by
the officer to be unoccupied; or
(b)The search warrant expressly authorizes entry without notice.
3.In executing a search warrant directing or authorizing a search of a person, a police
officer [fig 1] must give, or make reasonable effort to give, such person notice of his
authority and purpose and show him the warrant or a copy thereof upon request. If
such person, or another, thereafter resists or refuses to permit the search, the officer
may use as much physical force, other than deadly physical force, as is necessary to
execute the warrant; and he may use deadly physical force if he reasonably believes
such to be necessary to defend himself or a third person from what he reasonably
believes to be the use or imminent use of deadly physical force.
4.Upon seizing property pursuant to a search warrant, a police officer [fig 1] must write
and subscribe a receipt itemizing the property taken and containing the name of the
court by which the warrant was issued. If property is taken from a person, such receipt
Appendix II

A0383

2012 NY CPL § 690.50

must be given to such person. If property is taken from premises or a vehicle, such
receipt must be given to the owner, tenant or other person in possession thereof if he is
present; or if he is not, the officer must leave such a receipt in the premises or vehicle
from which the property was taken.
5.Upon seizing property pursuant to a search warrant, a police officer [fig 1] must
without unnecessary delay return to the court the warrant and the property, and must
file therewith a written inventory of such property, subscribed and sworn to by such
officer.
6.Upon arresting a person during a search for him or her pursuant to a search warrant as
defined in paragraph (b) of subdivision two of section 690.05, a police officer [fig 1]
shall comply with the terms of the warrant of arrest, superior court warrant of arrest, or
bench warrant for a felony, and shall proceed in the manner directed by this chapter.
Upon arresting such person, the police officer [fig 2] shall also, without unnecessary
delay, file a written statement with the court which issued the search warrant,
subscribed and sworn to by such officer, setting forth that the person has been arrested
and duly brought before the appropriate court, return to the court the warrant and the
property seized in the course of its execution, and file therewith a written inventory of
any such property, subscribed and sworn to by such officer.
History
Add, L 1970, ch 996, § 1, eff Sept 1, 1971, with substance derived from Crim C §§ 799,
803, 805.
Sub 1, amd, L 1980, ch 843, § 25, eff Sept 1, 1980.
Sub 2, opening par, amd, L 1980, ch 843, § 26, eff Sept 1, 1980.
Sub 3, amd, L 1980, ch 843, § 27, eff Sept 1, 1980.
Sub 4, amd, L 1980, ch 843, § 27, eff Sept 1, 1980.
Sub 5, amd, L 1980, ch 843, § 27, eff Sept 1, 1980.
Sub 6, add,L 1991, ch 504, § 9, eff Nov 1, 1991.
Amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
Sub 1, amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 2, opening par, amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"

A0384

2012 NY CPL § 690.50

Sub 3, amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 4, amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 5, amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
The 1998 act deleted at fig 1 "or peace officer appointed by the state university"
Sub 6, amd,L 1998, ch 424, § 14, eff Jan 1, 1999.
The 1998 act deleted at figs 1 and 2 "or peace officer appointed by the state university"

End of Document

A0385

2012 N.Y. FAM. CT. ACT § 141

§ 141. Findings
This act defines the conditions on which the family court may intervene in the life of a
child, parent and spouse. Once these conditions are satisfied, the court is given a wide
range of powers for dealing with the complexities of family life so that its action may fit
the particular needs of those before it. The judges of the court are thus given a wide
discretion and grave responsibilities.
The people of the state of New York have concluded that legal training and experience
should be required before any person may assume the office of family court judge and so
provided in section twenty, paragraph a, of the judiciary article of the constitution of the
state of New York. Judges of the family court should also be familiar with areas of
learning and practice that often are not supplied by the practice of law.
History
Add, L 1962, ch 686, § 1, eff Sept 1, 1962.

End of Document

Appendix JJ

A0386

2012 N.Y. FAM. CT. ACT § 153

§ 153. Subpoena, warrant and other process to compel attendance
The family court may issue a subpoena or in a proper case a warrant or other process to
secure or compel the attendance of an adult respondent or child or any other person whose
testimony or presence at a hearing or proceeding is deemed by the court to be necessary,
and to admit to, fix or accept bail, or parole him pending the completion of the hearing or
proceeding. The court is also authorized to issue a subpoena duces tecum in accordance
with the applicable provisions of the civil practice act and, upon its effective date, in
accordance with the applicable provisions of the CPLR. A judge of the family court is also
authorized to hear and decide motions relating to child support subpoenas issued pursuant
to section one hundred eleven-p of the social services law.

History
Add, L 1962, ch 686, § 1; amd, L 1963, ch 809, § 1,L 1997, ch 398, § 60, eff Jan 1, 1998
(see 1997 note below).

Appendix KK

A0387

2012 N.Y. FAM. CT. ACT § 153-a

§ 153-a. Warrant of arrest; when and how executed

(a)A warrant of arrest may be executed on any day of the week, and at any hour of the
day or night.
(b)Unless encountering physical resistance, flight or other factors rendering normal
procedure impractical, the arresting police officer must inform the subject named
therein that a warrant for his arrest for attendance at the proceeding designated therein
has been issued. Upon request of such subject, the police officer must show him the
warrant if he has it in his possession. The officer need not have the warrant in his
possession, and, if he has not, he must show it to the subject upon request as soon after
the arrest as possible.
(c)In order to effect the arrest, the police officer may use such physical force as is
justifiable pursuant to section 35.30 of the penal law.
(d)In order to effect the arrest, the police officer may enter any premises in which he
reasonably believes the subject named therein to be present. Before such entry, he must
give, or make reasonable effort to give, notice of his authority and purpose to an
occupant thereof.
(e)If the officer, after giving such notice, is not admitted, he may enter such premises,
and by a breaking if necessary.
History
Add, L 1975, ch 416, § 1, eff July 8, 1975.

Appendix LL

A0388

2012 N.Y. FAM CT. ACT § 157

§ 157. Interpretation of this part
If there is any conflict between the application of any provision of this part to any
proceeding under this act and any provision of the article of this act governing the
proceeding, the article governing the proceeding controls.

History
Add, L 1962, ch 686, § 1, eff Sept 1, 1962.

End of Document

Appendix MM

A0389

2012 N.Y. FAM. CT. ACT § 1022

§ 1022. Preliminary orders of court before petition filed
(a)(i) The family court may enter an order directing the temporary removal of a child
from the place where he or she is residing before the filing of a petition under this
article, if
(A)the parent or other person legally responsible for the child's care is absent or,
though present, was asked and refused to consent to the temporary removal of the
child and was informed of an intent to apply for an order under this section and
of the information required by section one thousand twenty-three of this [fig 1]
part; and
(B)the child appears so to suffer from the abuse or neglect of his or her parent or
other person legally responsible for his or her care that his or her immediate
removal is necessary to avoid imminent danger to the child's life or health; and
(C)there is not enough time to file a petition and hold a preliminary hearing
under section one thousand twenty-seven of this part.
(ii)When a child protective agency applies to a court for the immediate
removal of a child pursuant to this subdivision, the court shall calendar the
matter for that day and shall continue the matter on successive subsequent
court days, if necessary, until a decision is made by the court.
(iii)In determining whether temporary removal of the child is necessary to
avoid imminent risk to the child's life or health, the court shall consider and
determine in its order whether continuation in the child's home would be
contrary to the best interests of the child and where appropriate, whether
reasonable efforts were made prior to the date of application for the order
directing such temporary removal to prevent or eliminate the need for removal
of the child from the home. If the court determines that reasonable efforts to
prevent or eliminate the need for removal of the child from the home were not
made but that the lack of such efforts was appropriate under the
circumstances, the court order shall include such a finding.
Appendix NN

A0390

Page 2 of 5
2012 NY Family Ct Act § 1022

(iv)If the court determines that reasonable efforts to prevent or eliminate the
need for removal of the child from the home were not made but that such
efforts were appropriate under the circumstances, the court shall order the
child protective agency to provide or arrange for the provision of appropriate
services or assistance to the child and the child's family pursuant to section
one thousand fifteen-a of this article or subdivision (c) of this section.
(v)The court shall also consider and determine whether imminent risk to the
child would be eliminated by the issuance of a temporary order of protection,
pursuant to section [fig 1] one thousand twenty-nine of this [fig 2] part,
directing the removal of a person or persons from the child's residence.
(vi)Any order directing the temporary removal of a child pursuant to this
section shall state the court's findings with respect to the necessity of such
removal, whether the respondent was present at the hearing and, if not, what
notice the respondent was given of the hearing, [fig 1] whether the respondent
was represented by counsel, and, if not, whether the respondent waived his or
her right to counsel.
(vii)At the conclusion of a hearing where it has been determined that a child
should be removed from his or her parent or other person legally responsible,
the court shall set the date certain for an initial permanency hearing pursuant
to paragraph two of subdivision (a) of section one thousand eighty-nine of this
act. The date certain shall be included in the written order issued pursuant to
subdivision (b) of this section and shall set forth the date certain scheduled for
the permanency hearing.
(b)[fig 1] Any written order pursuant to this section shall be issued immediately, but in
no event later than the next court day following the removal of the child. The order
shall specify the facility to which the child is to be brought. Except for good cause
shown or unless the child is sooner returned to the place where he or she was residing, a
petition shall be filed under this article within three court days of the issuance of the
order. The court shall hold a hearing pursuant to section one thousand twenty-seven of
this part no later than the next court day following the filing of the petition if the
respondent was not present, or was present and unrepresented by counsel, and has not
waived his or her right to counsel, for the hearing pursuant to this section.
(c)The family court, before the filing of a petition under this article, may enter an order
authorizing the provision of services or assistance, including authorizing a physician or
hospital to provide emergency medical or surgical procedures, if
(i)such procedures are necessary to safeguard the life or health of the child; and
(ii)there is not enough time to file a petition and hold a preliminary hearing under
section one thousand twenty-seven. Where the court orders a social servicesA0391

Page 3 of 5
2012 NY Family Ct Act § 1022

official to provide or contract for services or assistance pursuant to this section,
such order shall be limited to services or assistance authorized or required to be
made available pursuant to the comprehensive annual services program plan then
in effect.
(d)The person removing the child shall, coincident with removal, give written notice to
the parent or other person legally responsible for the child's care of the right to apply to
the family court for the return of the child pursuant to section one thousand twentyeight of this act, the name, title, organization, address and telephone number of the
person removing the child, the name and telephone number of the child care agency to
which the child will be taken, if available, the telephone number of the person to be
contacted for visits with the child, and the information required by section one thousand
twenty-three of this act. Such notice shall be personally served upon the parent or other
person at the residence of the child provided, that if such person is not present at the
child's residence at the time of removal, a copy of the notice shall be affixed to the door
of such residence and a copy shall be mailed to such person at his or her last known
place of residence within twenty-four hours after the removal of the child. If the place
of removal is not the child's residence, a copy of the notice shall be personally served
upon the parent or person legally responsible for the child's care forthwith, or affixed to
the door of the child's residence and mailed to the parent or other person legally
responsible for the child's care at his or her last known place of residence within
twenty-four hours after the removal. The form of the notice shall be prescribed by the
chief administrator of the courts.
(e)Nothing in this section shall be deemed to require that the court order the temporary
removal of a child as a condition of ordering services or assistance, including
emergency medical or surgical procedures pursuant to subdivision (c) of this section.
(f)The court may issue a temporary order of protection pursuant to section ten hundred
twenty-nine of this article as an alternative to or in conjunction with any other order or
disposition authorized under this section.
History
Add, L 1970, ch 962, § 9, eff May 1, 1970, with substance derived from § 322.
Former § 1022, add, L 1969, ch 264, § 2; repealed, L 1970, ch 962, § 8, eff May 1, 1970.
Sub (a), amd, L 1988, ch 527, § 1, L 1988, ch 478, § 3, eff Nov 1, 1988.
Sub (a), first undesignated par, subpar (i), amd, L 1988, ch 527, § 1, eff Aug 11, 1988.
Sub (a), second and third undesignated pars, add, L 1988, ch 478, § 3, eff Nov 1, 1988.
Sub (a), fourth undesignated par, add, L 1989, ch 727, § 2, eff Oct 1, 1989.
A0392

Page 4 of 5
2012 NY Family Ct Act § 1022

Sub (a), closing par, add,L 1990, ch 171, § 1, eff Sept 1, 1990.
Sub (c), opening par, amd, L 1987, ch 776, § 1, eff Aug 7, 1987.
Sub (c), par (ii), amd, L 1987, ch 776, § 1, eff Aug 7, 1987.
Sub (d), add, L 1982, ch 379, § 1; amd, L 1989, ch 727, § 2, eff Oct 1, 1989.
Sub (e), add, L 1987, ch 776, § 2, eff Aug 7, 1987.
Sub (f), add, L 1988, ch 673, § 1, eff Sept 1, 1988.
Sub (a), par (i), formerly sub (a), opening par, so designated sub (a), par (i) and amd,L
2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
Former sub (a), par (i), redesignated sub a, par (i), subpar (A),L 2005, ch 3, § 13 (Part
A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), par (i), subpar (A), formerly sub (a), par (i), so designated sub (a), par (i), subpar
(A) and amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
The 2005 act deleted at fig 1 "act"
Sub (a), par (i), subpar (B), formerly sub (a), par (ii), so designated sub (a), par (i),
subpar (B) and amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), par (i), subpar (C), formerly sub (a), par (iii), so designated sub (a), par (i),
subpar (C) and amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), par (ii), add,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
Former sub (a), par (ii), redesignated sub (a), par (i), subpar (B),L 2005, ch 3, § 13 (Part
A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), par (iii), formerly sub (a), second undesignated par, so designated sub (a), par
(iii),L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
Former sub (a), par (iii), redesignated sub (a), par (i), subpar (C),L 2005, ch 3, § 13 (Part
A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), par (iv), formerly sub (a), third undesignated par, so designated sub (a), par (iv)
and amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), par (v), formerly sub (a), fourth undesignated par, so designated sub (a), par (v)
and amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
The 2005 act deleted at fig 1 "ten hundred" and at fig 2 "act"
A0393

Page 5 of 5
2012 NY Family Ct Act § 1022

Sub (a), par (vi), formerly sub (a), fifth undesignated par, so designated sub (a), par (vi)
and amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
The 2005 act deleted at fig 1 "and whether the removal or the request therefor has been
made pursuant to this section or section ten hundred twenty-one or ten hundred twentyfour of this article"
Sub (a), par (vii), add,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note
below).
Sub (a), second undesignated par, redesignated sub (a), par (iii),L 2005, ch 3, § 13 (Part
A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), third undesignated par, redesignated sub (a), par (iv),L 2005, ch 3, § 13 (Part A),
eff Dec 21, 2005 (see 2005 note below).
Sub (a), fourth undesignated par, redesignated sub (a), par (v),L 2005, ch 3, § 13 (Part
A), eff Dec 21, 2005 (see 2005 note below).
Sub (a), fifth undesignated par, redesignated sub (a), par (vi),L 2005, ch 3, § 13 (Part A),
eff Dec 21, 2005 (see 2005 note below).
Sub (b), amd,L 2005, ch 3, § 13 (Part A), eff Dec 21, 2005 (see 2005 note below).
The 2005 act deleted at fig 1 "The"

End of Document

A0394

2012 N.Y. FAM. CT. ACT § 1023

§ 1023. Procedure for issuance of temporary order
Any person who may originate a proceeding under this article may apply for, or the court
on its own motion may issue, an order of temporary removal under section one thousand
twenty-two or one thousand twenty-seven or an order for the provision of services or
assistance, including emergency medical or surgical procedures pursuant to subdivision (c)
of section one thousand twenty-two, or a temporary order of protection pursuant to section
ten hundred twenty-nine. The applicant or, where designated by the court, any other
appropriate person, shall make every reasonable effort, with due regard for any necessity
for immediate protective action, to inform the parent or other person legally responsible for
the child's care of the intent to apply for the order, of the date and the time that the
application will be made, the address of the court where the application will be made, of
the right of the parent or other person legally responsible for the child's care to be present
at the application and at any hearing held thereon and, of the right to be represented by
counsel, including procedures for obtaining counsel, if indigent.

History
Add, L 1970, ch 962, § 9, with substance derived from § 323; amd, L 1973, ch 1039, § 6,
L 1987, ch 776, § 3, L 1988, ch 527, § 2, L 1988, ch 673, § 2,L 1990, ch 170, § 1, eff Sept
1, 1990.
Former § 1023, add, L 1969, ch 264, § 2; repealed, L 1970, ch 962, § 8, eff May 1, 1970.
Section heading, amd, L 1988, ch 527, § 2, eff Aug 11, 1988.

End of Document

Appendix OO

A0395

2012 N.Y. FAM. CT. ACT § 1024

§ 1024. Emergency removal without court order
(a)A peace officer, acting pursuant to his or her special duties, police officer, or a law
enforcement official, [fig 1] or a designated employee of a city or county department of
social services shall take all necessary measures to protect a child's life or health
including, when appropriate, taking or keeping a child in protective custody, and any
physician shall notify the local department of social services or appropriate police
authorities to take custody of any child such physician is treating, without an order
under section one thousand twenty-two of this article and without the consent of the
parent or other person legally responsible for the child's care, regardless of whether the
parent or other person legally responsible for the child's care is absent, if
(i)such person has reasonable cause to believe that the child is in such
circumstance or condition that his or her continuing in said place of residence or
in the care and custody of the parent or person legally responsible for the child's
care presents an imminent danger to the child's life or health; and
(ii)there is not time enough to apply for an order under section one thousand
twenty-two of this article.
(b)If a person authorized by this section removes or keeps custody of a child, he shall
(i)bring the child immediately to a place approved for such purpose by the local
social services department, unless the person is a physician treating the child and
the child is or will be presently admitted to a hospital, and
(ii)make every reasonable effort to inform the parent or other person legally
responsible for the child's care of the facility to which he has brought the child,
and
(iii)give, coincident with removal, written notice to the parent or other person
legally responsible for the child's care of the right to apply to the family court for
the return of the child pursuant to section one thousand twenty-eight of this act,
and of the right to be represented by counsel in proceedings brought pursuant to
this article and procedures for obtaining counsel, if indigent. Such notice shall
also include the name, title, organization, address and telephone number of the
Appendix PP

A0396

Page 2 of 3
2012 NY Family Ct Act § 1024

person removing the child, the name, address, and telephone number of the
authorized agency to which the child will be taken, if available, the telephone
number of the person to be contacted for visits with the child, and the
information required by section one thousand twenty-three of this act. Such
notice shall be personally served upon the parent or other person at the residence
of the child provided, that if such person is not present at the child's residence at
the time of removal, a copy of the notice shall be affixed to the door of such
residence and a copy shall be mailed to such person at his or her last known place
of residence within twenty-four hours after the removal of the child. If the place
of removal is not the child's residence, a copy of the notice shall be personally
served upon the parent or person legally responsible for the child's care forthwith,
or affixed to the door of the child's residence and mailed to the parent or other
person legally responsible for the child's care at his or her last known place of
residence within twenty-four hours after the removal. An affidavit of such service
shall be filed with the clerk of the court within twenty-four hours of serving such
notice exclusive of weekends and holidays pursuant to the provisions of this
section. The form of the notice shall be prescribed by the chief administrator of
the courts. Failure to file an affidavit of service as required by this subdivision
shall not constitute grounds for return of the child.
(iv)inform the court and make a report pursuant to title six of the social services
law, as soon as possible.
(c)Any person or institution acting in good faith in the removal or keeping of a child
pursuant to this section shall have immunity from any liability, civil or criminal, that
might otherwise be incurred or imposed as a result of such removal or keeping.
(d)Where the physician keeping a child in his custody pending action by the local
department of social services or appropriate police authorities does so in his capacity as
a member of the staff of a hospital or similar institution, he shall notify the person in
charge of the institution, or his designated agent, who shall then become responsible for
the further care of such child.
(e)Any physician keeping a child in his custody pursuant to this section shall have the
right to keep such child in his custody until such time as the custody of the child has
been transferred to the appropriate police authorities or the social services official of the
city or county in which the physician maintains his place of business. If the social
services official receives custody of a child pursuant to the provisions of this section, he
shall promptly inform the parent or other person responsible for such child's care and
the family court of his action.
History
A0397

Page 3 of 3
2012 NY Family Ct Act § 1024

Add, L 1970, ch 962, § 9, eff May 1, 1970, with substance derived from § 324.
Former § 1024, add, L 1969, ch 264, § 2; repealed, L 1970, ch 962, § 8, eff May 1, 1970.
Sub (a), amd, L 1973, ch 1039, § 7, L 1980, ch 843, § 218, L 1985, ch 677, § 29, eff Jan
1, 1986.
Sub (a), opening par (a), amd,L 2009, ch 329, § 2, eff Aug 11, 2009 (see 2009 note
below).
The 2009 act deleted at fig 1 "or an agent of a duly incorporated society for the
prevention of cruelty to children"
Sub (a), subpar (i), amd,L 2009, ch 329, § 2, eff Aug 11, 2009 (see 2009 note below).
Sub (a), subpar (ii), amd,L 2009, ch 329, § 2, eff Aug 11, 2009 (see 2009 note below).
Sub (b), amd, L 1973, ch 1039, § 7, L 1976, ch 880, § 9, eff Nov 24, 1976.
Sub (b), par (i), reenacted without change, L 1985, ch 677, § 29, eff Jan 1, 1986.
Sub (b), par (iii), add, L 1982, ch 379, § 2; amd, L 1987, ch 162, § 1, eff Oct 27, 1987, L
1989, ch 727, § 3, eff Oct 1, 1989,L 1990, ch 170, § 2, eff Sept 1, 1990.
Former sub (b), par (iii), renumbered sub (b), par (iv), L 1982, ch 379, § 2, eff Sept 1,
1982.
Sub (b), par (iv), formerly sub (b), par (iii), renumbered, L 1982, ch 379, § 2, eff Sept 1,
1982.
Sub (c), reenacted without change, L 1973, ch 1039, § 7, eff Sept 1, 1973.
Sub (d), add, L 1973, ch 1039, § 7; amd, L 1985, ch 677, § 29, eff Jan 1, 1986.
Sub (e), add, L 1973, ch 1039, § 7, eff Sept 1, 1973.

End of Document

A0398

2012 N.Y. FAM. CT. ACT § 1027

§ 1027. Hearing and preliminary orders after filing of petition
(a)
(i)In any case [fig 1] where the child has been removed without court order or
where there has been a hearing pursuant to section one thousand twenty-two of
this part at which the respondent was not present, or was not represented by
counsel and did not waive his or her right to counsel, the family court shall hold a
hearing [fig 2] . Such hearing shall be held no later than the next court day after
the filing of a petition to determine whether the child's interests require
protection, including whether the child should be returned to the parent or other
person legally responsible, pending a final order of disposition and shall continue
on successive court days, if necessary, until a decision is made by the court.
(ii)In any such case where the child has been removed, any person originating a
proceeding under this article shall, or the [fig 1] attorney for the child may apply
for, or the court on its own motion may order, a hearing at any time after the
petition is filed to determine whether the child's interests require protection
pending a final order of disposition. Such hearing must be scheduled for no later
than the next court day after the application for such hearing has been made.
(iii)In any case under this article in which a child has not been removed from his
or her parent or other person legally responsible for his or her care, any person
originating a proceeding under this article or the [fig 1] attorney for the child may
apply for, or the court on its own motion may order, a hearing at any time after
the petition is filed to determine whether the child's interests require protection,
including whether the child should be removed from his or her parent or other
person legally responsible, pending a final order of disposition. Such hearing
must be scheduled for no later than the next court day after the application for
such hearing has been made.
(iv)Notice of [fig 1] a hearing shall be provided pursuant to section one thousand
twenty-three of this [fig 2] part.
(b)(i) Upon such hearing, if the court finds that removal is necessary to avoid imminent
risk to the child's life or health, it shall remove or continue the removal of the child
[fig
A0399
Appendix QQ

2012 NY Family Ct Act § 1027

1] . If the court makes such a determination that removal is necessary, the court shall
immediately inquire as to the status of any efforts made by the local social services
district to locate relatives of the child, including any non-respondent parent and all of
the child's grandparents, as required pursuant to section one thousand seventeen of this
article. The court shall also inquire as to whether the child, if over the age of five, has
identified any relatives who play or have played a significant positive role in his or her
life and whether any respondent parent or any non-respondent parent has identified any
suitable relatives. Such inquiry shall include whether any relative who has been located
has expressed an interest in becoming a foster parent for the child or in seeking custody
or care of the child. Upon completion of such inquiry, the court shall remand [fig 2] or
place the child:
(A)with the local commissioner of social services and the court may direct such
commissioner to have the child reside with a relative or other suitable person
who has indicated a desire to become a foster parent for the child and further
direct such commissioner, pursuant to regulations of the office of children and
family services, to commence an investigation of the home of such relative or
other suitable person within twenty-four hours and thereafter expedite approval
or certification of such relative or other suitable person, if qualified, as a foster
parent. If such home is found to be unqualified for approval or certification, the
local commissioner shall report such fact to the court forthwith so that the court
may make a placement determination that is in the best interests of the child;
(B)to a place approved for such purpose by the social services district; or [fig 1]
(C)in the custody of a relative or suitable person other than the respondent.
(ii)Such order shall state the court's findings which support the necessity of
such removal, whether the respondent was present at the hearing and, if not,
what notice the respondent was given of the hearing, and, where a pre-petition
removal has occurred, whether such removal took place pursuant to section
[fig 1] one thousand twenty-one, [fig 2] one thousand twenty-two or [fig 3]
one thousand twenty-four of this [fig 4] part. If the parent or other person
legally responsible for the child's care is physically present at the time the
child is removed, and has not previously been served with the summons and
petition, the summons and petition shall be served upon such parent or person
coincident with such removal. If such parent or person is not physically
present at the time the child is removed, service of the summons and petition
shall be governed by section one thousand thirty-six of this article. In
determining whether removal or continuing the removal of a child is
necessary to avoid imminent risk to the child's life or health, the court shall
consider and determine in its order whether continuation in the child's home
would be contrary to the best interests of the child and where appropriate,
A0400

2012 NY Family Ct Act § 1027

whether reasonable efforts were made prior to the date of the hearing held
under subdivision (a) of this section to prevent or eliminate the need for
removal of the child from the home and, if the child was removed from his or
her home prior to the date of the hearing held under subdivision (a) of this
section, where appropriate, that reasonable efforts were made to make it
possible for the child to safely return home.
(iii)If the court determines that reasonable efforts to prevent or eliminate the
need for removal of the child from the home were not made but that the lack
of such efforts was appropriate under the circumstances, the court order shall
include such a finding.
(iv)If the court determines that reasonable efforts to prevent or eliminate the
need for removal of the child from the home were not made but that such
efforts were appropriate under the circumstances, the court shall order the
child protective agency to provide or arrange for the provision of appropriate
services or assistance to the child and the child's family pursuant to section
one thousand fifteen-a or as enumerated in subdivision (c) of section one
thousand twenty-two of this article, notwithstanding the fact that a petition
has been filed.
(v)The court shall also consider and determine whether imminent risk to the
child would be eliminated by the issuance of a temporary order of protection,
pursuant to section [fig 1] one thousand twenty-nine of this [fig 2] part,
directing the removal of a person or persons from the child's residence.
(c)Upon such hearing, the court may, for good cause shown, issue a preliminary order
of protection which may contain any of the provisions authorized on the making of an
order of protection under section one thousand fifty-six of this act.
(d)Upon such hearing, the court may, for good cause shown, release the child to the
custody of his parent or other person legally responsible for his care, pending a final
order of disposition, in accord with section one thousand fifty-four.
(e)Upon such hearing, the court may authorize a physician or hospital to provide
medical or surgical procedures if such procedures are necessary to safeguard the child's
life or health.
(f)If the court grants or denies a preliminary order requested pursuant to this section, it
shall state the grounds for such decision.
(g)In all cases involving abuse the court shall order, and in all cases involving neglect
the court may order, an examination of the child pursuant to section two hundred fiftyone of this act or by a physician appointed or designated for the purpose by the court.
As part of such examination, the physician shall arrange to have colored photographs

A0401

2012 NY Family Ct Act § 1027

taken as soon as practical of the areas of trauma visible on such child and may, if
indicated, arrange to have a radiological examination performed on the child. The
physician, on the completion of such examination, shall forward the results thereof
together with the color photographs to the court ordering such examination. The court
may dispense with such examination in those cases which were commenced on the
basis of a physical examination by a physician. Unless colored photographs have
already been taken or unless there are no areas of visible trauma, the court shall arrange
to have colored photographs taken even if the examination is dispensed with.
(h)At the conclusion of a hearing where it has been determined that a child should be
removed from his or her parent or other person legally responsible, the court shall set a
date certain for an initial permanency hearing pursuant to paragraph two of subdivision
(a) of section one thousand eighty-nine of this act. The date certain shall be included in
the written order issued pursuant to subdivision (b) of this section and shall set forth the
date certain scheduled for the permanency hearing. A copy of such order shall be
provided to the parent or other person legally responsible for the child's care.
History
Add, L 1970, ch 962, § 9, eff May 1, 1970; amd, L 1976, ch 880, § 10, eff Nov 24, 1976,
L 1987, ch 469, § 1, L 1988, ch 478, §§ 4, 5, eff Nov 1, 1988, L 1988, ch 487, § 5, L 1988,
ch 527, § 3, eff Aug 11, 1988 (neither act referred to the other), L 1988, ch 478, § 5, L
1988, ch 527, § 4, L 1989, ch 727, § 4,L 1990, ch 171, § 2, L 1991, ch 198, § 5, L 1994, ch
36, § 1, eff April 4, 1994, L 2005, ch 3, § 15 (Part A), eff Dec 21, 2005 (see 2005 note
below), amd, L 2005, ch 671, § 2, eff March 15, 2006 (see 2006 note below), L 2006, ch
12, § 1, eff March 15, 2006 (see 2006 note below), L 2010, ch 41, § 51, eff April 14, 2010.

A0402

2012 N.Y. FAM. CT. ACT § 1029

§ 1029. Temporary order of protection
(a)The family court, upon the application of any person who may originate a
proceeding under this article, for good cause shown, may issue a temporary order of
protection, before or after the filing of such petition, which may contain any of the
provisions authorized on the making of an order of protection under section [fig 1] one
thousand fifty-six. If such order is granted before the filing of a petition and a petition is
not filed under this article within ten days from the granting of such order, the order
shall be vacated. In any case where a petition has been filed and [fig 2] an attorney for
the child has been appointed, such [fig 3] attorney may make application for a
temporary order of protection pursuant to the provisions of this section.
(b)A temporary order of protection is not a finding of wrongdoing.
(c)The court may issue or extend a temporary order of protection ex parte or on notice
simultaneously with the issuance of a warrant directing that the respondent be arrested
and brought before the court pursuant to section ten hundred thirty-seven of this article.
(d)Nothing in this section shall: (i) limit the power of the court to order removal of a
child pursuant to this article where the court finds that there is imminent danger to a
child's life or health; or (ii) limit the authority of authorized persons to remove a child
without a court order pursuant to section one thousand twenty-four of this article; or
(iii) be construed to authorize the court to award permanent custody of a child to a
parent or relative pursuant to a temporary order of protection.
History
Add, L 1975, ch 495, § 1; amd, L 1981, ch 416, § 19, eff Aug 6, 1981, amd, L 1987, ch
67, § 1, L 1988, ch 673, § 4, eff Sept 1, 1988,L 2010, ch 41, § 53, eff April 14, 2010.
__________________________________________________________________________
End of Document

Appendix RR

A0403

2012 N.Y. FAM. CT. ACT § 1034

§ 1034. Power to order investigations
1.A family court judge may order the child protective service of the appropriate [fig 1]
social services [fig 2] district to conduct a child protective investigation as described by
the social services law and report its findings to the court:
(a)in any proceedings under this article, or
(b)in order to determine whether a proceeding under this article should be
initiated.
2.(a) (i) [fig 1] Before a petition is filed and where there is [fig 2] reasonable cause to
[fig 3] suspect that [fig 4] a child or children's life or health may be in danger, child
protective services may seek a court order based upon:
(A)a report of suspected abuse or maltreatment under title six of article six of the
social services law as well as any additional information that a child protective
investigator has learned in the investigation; and
(B)the fact that the investigator has been unable to locate the child named in the
report or any other children in the household or has been denied access to the
child or children in the household sufficient to determine their safety; and
(C)the fact that the investigator has advised the parent or other persons legally
responsible for the child or children that, when denied sufficient access to the
child or other children in the household, the child protective investigator may
consider seeking an immediate court order to gain access to the child or children
without further notice to the parent or other persons legally responsible.
(ii)Where a court order has been requested pursuant to this paragraph the
court may issue an order under this section [fig 1] requiring that the parent or
other persons legally responsible for the child or children produce the child or
children at a particular location which may include a child advocacy center, or
to a particular person for an interview of the child or children, and for
observation of the condition of the child, outside of the presence of the parent
or other person responsible.
(b)

Appendix SS

A0404

2012 NY Family Ct Act § 1034

(i)Before a petition is filed and where there is probable cause to believe
that an abused or neglected child may be found on the premises, child
protective services may seek a court order based upon:
(A)a report of suspected abuse or maltreatment under title six of
article six of the social services law as well as any additional
information that a child protective investigator has learned in the
investigation; and
(B)the fact that the investigator has been denied access to the home
of the child or children in order to evaluate the home environment;
and
(C)the fact that the investigator has advised the parent or other
person legally responsible for the child or children that, when denied
access to the home environment, the child protective investigator
may consider seeking an immediate court order to gain access to the
home environment without further notice to the parent or other
person legally responsible.
(ii)Where a court order has been requested pursuant to this paragraph
the court may issue an order under this section authorizing the person
conducting the child protective investigation to enter the home in order
to determine whether such child or children are present and/or to
conduct a home visit and evaluate the home environment of the child or
children.
(c)The procedure for granting an order pursuant to this subdivision shall be
the same as for a search warrant under article six hundred ninety of the
criminal procedure law. If an order is issued in accordance with this
subdivision the court shall specify which action may be taken and by
whom in the order.
(d)In determining if such orders shall be made, the court shall consider all
relevant information, including but not limited to:
(i)the nature and seriousness of the allegations made in the report;
(ii)the age and vulnerability of the child or children;
(iii)the potential harm to the child or children if a full investigation is
not completed;
(iv)the relationship of the source of the report to the family, including
the source's ability to observe that which has been alleged; and
A0405

2012 NY Family Ct Act § 1034

(v)the child protective or criminal history, if any, of the family and any
other relevant information that the investigation has already obtained.
(e)The court shall assess which actions are necessary in light of the child
or children's safety, provided, however, that such actions shall be the least
intrusive to the family.
(f)The court shall be available at all hours to hear such requests by the
social services district which shall be permitted to make such requests
either in writing or orally, pursuant to section 690.36 of the criminal
procedure law, in person to the family court during hours that the court is
open and orally by telephone or in person, pursuant to section 690.36 of
the criminal procedure law, to a family court judge when the court is not
open. While the request is being made, law enforcement shall remain
where the child or children are or are believed to be present if the child
protective services investigator has requested law enforcement assistance.
Provided, however, that law enforcement may not enter the premises
where the child or children are believed to be present without a search
warrant or another constitutional basis for such entry.
(g)Where the court issues an order under this section, the child protective
investigator shall within three business days prepare a report to the court
detailing his or her findings and any other actions that have been taken
pertaining to the child named in the report and any other children in the
household.
(h)Nothing in this section shall limit the court's authority to issue any
appropriate order in accordance with the provisions of this article after a
petition has been filed.
History
Add, L 1973, ch 1039, § 9; amd, L 1978, ch 627, eff Sept 1, 1978.
Former § 1034, add, L 1970, ch 962, § 9; repealed, L 1973, ch 1039, § 9, eff Sept 1,
1973.
Sub 1, formerly entire section, so numbered, L 1978, ch 627, eff Sept 1, 1978.
Sub 1, opening par, amd,L 2009, ch 329, § 3, eff Aug 11, 2009 (see 2009 note below).
The 2009 act deleted at fig 1 "department of", at fig 2 "or request any other appropriate
child protective agency"
Sub 2, add, L 1978, ch 627, § 7, eff Sept 1, 1978.
A0406

N.Y. Family Ct Act § 1034

Sub 2, par (a), subpar (i), opening par, formerly part of entire sub 2, so designated sub 2,
par (a), subpar (i) and amd,L 2006, ch 740, § 2, eff Jan 18, 2006.
The 2006 act deleted at fig 1 "Where", at fig 2 "probable", at fig 3 "believe" and at fig 4
"an abused or neglected child may be found on premises,"
Sub 2, par (a), subpar (i), cl (A), add,L 2006, ch 740, § 2, eff Jan 18, 2007.
Sub 2, par (a), subpar (i), cl (B), add,L 2006, ch 740, § 2, eff Jan 18, 2007.
Sub 2, par (a), subpar (i), cl (C), add,L 2006, ch 740, § 2, eff Jan 18, 2007.
Sub 2, par (a), subpar (ii), formerly part of entire sub 2, so designates sub 2, par (a),
subpar (ii) and amd,L 2006, ch 740, § 2, eff Jan 18, 2007.
The 2006 act deleted at fig 1 "may authorize a person conducting the child protective
investigation, accompanied by a police officer, to enter the premises to determine whether
such a child is present. The standard of proof and procedure for such an authorization shall
be the same as for a search warrant under the criminal procedure law."
Sub 2, par (d), add,L 2006, ch 740, § 2, eff Jan 18, 2007.
Sub 2, par (e), add,L 2006, ch 740, § 2, eff Jan 18, 2007.
Sub 2, par (f), add,L 2006, ch 740, § 2, eff Jan 18, 2007.
Sub 2, par (g), add,L 2006, ch 740, § 2, eff Jan 18, 2007.

A0407

2012 N.Y. FAM. CT. ACT 1035

§ 1035. Issuance of summons; notice to certain interested persons and intervention
(a)On the filing of a petition [fig 1] under this article where the child has been removed
from his or her home, unless a warrant is issued pursuant to section one thousand thirtyseven of this part, the court shall cause a copy of the petition and a summons to be
issued [fig 2] the same day the petition is filed, clearly marked on the face thereof
"Child Abuse Case", as applicable, requiring the parent or other person legally
responsible for the child's care or with whom he [fig 3] or she had been residing to
appear at the court within three court days to answer the petition, unless a shorter time
for a hearing to occur is prescribed in part two of this article. [fig 4]
(b)In a proceeding to determine abuse or neglect, the summons shall contain a
statement [fig 1] in conspicuous print informing the respondent that:
(i)the proceeding [fig 1] may lead to the filing of a [fig 2] petition under the
social services law for the termination of respondent's parental rights and
commitment of guardianship and custody of the child [fig 3] for the purpose of
adoption; and
(ii)if the child is placed and remains in foster care for fifteen of the most recent
twenty-two months, the agency may be required by law to file a petition for
termination of respondent's parental rights and commitment of guardianship and
custody of the child for the purposes of adoption.
(c)On the filing of a petition under this article [fig 1] where the child has not been
removed from his or her home, the court shall forthwith cause a copy of the petition and
a summons to be issued, clearly marked on the face thereof "Child Abuse Case", as
applicable, requiring the parent or other person legally responsible for the child's care or
with whom [fig 2] the child is residing to appear at the court to answer the petition [fig
3] within seven court days. The court may also require the person thus summoned to
produce the child at the time and place named.
(d)Where the respondent is not the child's parent, service of the summons and petition
shall also be ordered on both of the child's parents; where only one of the child's parents
is the respondent, service of the summons and petition shall also be ordered on the
child's other parent. The summons and petition shall be accompanied by a notice of
A0408
Appendix TT

Page 2 of 4
2012 NY Family Ct Act § 1035

pendency of the child protective proceeding advising the parents or parent of the right
to appear and participate in the proceeding as an interested party intervenor for the
purpose of seeking temporary and permanent custody of the child, and to participate
thereby in all arguments and hearings insofar as they affect the temporary custody of
the child during fact-finding proceedings, and in all phases of dispositional
proceedings. The notice shall also indicate that:
(i)upon good cause, the court may order an investigation pursuant to section one
thousand thirty-four of this part to determine whether a petition should be filed
naming such parent or parents as respondents;
(ii)if the court determines that the child must be removed from his or her home,
the court may order an investigation to determine whether the non-respondent
parent or parents would be suitable custodians for the child; and
(iii)if the child is placed and remains in foster care for fifteen of the most recent
twenty-two months, the agency may be required by law to file a petition for
termination of the parental rights of the parent or parents and commitment of
guardianship and custody of the child for the purposes of adoption, even if the
parent or parents were not named as a respondent or as respondents in the child
abuse or neglect proceeding.
(e)The summons [fig 1] , petition [fig 2] and notice of pendency of a child protective
proceeding served on the child's non-custodial parent in accordance with subdivision
(d) of this section shall [fig 3] , if applicable, be served together with a notice that the
child was removed from his or her home by a social services official. Such notice shall
also include the name and address of the official to whom temporary custody of the
child has been transferred, the name and address of the agency or official with whom
the child has been temporarily placed, if different, and shall advise such parent of the
right to request temporary and permanent custody and to seek enforcement of visitation
rights with the child as provided for in part eight of this article.
(f)The child's adult sibling, grandparent, aunt or uncle not named as respondent in the
petition, may, upon consent of the child's parent appearing in the proceeding, or where
such parent has not appeared then without such consent, move to intervene in the
proceeding as an interested party intervenor for the purpose of seeking temporary or
permanent custody of the child, and upon the granting of such motion shall be
permitted to participate in all arguments and hearings insofar as they affect the
temporary custody of the child during fact-finding proceedings, and in all phases of
dispositional proceedings. Such motions for intervention shall be liberally granted.
History
Add, L 1970, ch 962, § 9; amd, L 1986, ch 699, § 1, eff Aug 29, 1986.

A0409

Page 3 of 4
2012 NY Family Ct Act § 1035

Section heading, amd, L 1986, ch 699, § 1, eff Aug 29, 1986.
Sub (a), amd,L 2005, ch 3, § 16 (Part A), eff Dec 21, 2005 (see 2005 note below).
The 2005 act deleted at fig 1 "involving abuse", at fig 2 "forthwith", at fig 3 "is" and at
fig 4 "The court shall also, unless dispensed with for good cause shown, require the person
thus summoned to produce the child at the time and place named."
Sub (b), add, L 1981, ch 739, § 1, eff Oct 25, 1981.
Former sub (b), designated sub (c), L 1981, ch 739, § 1, eff Oct 25, 1981.
Sub (c), formerly sub (b), so designated sub (c), L 1981, ch 739, § 1; amd, L 1986, ch
699, § 1, eff Aug 29, 1986.
Sub (c), amd,L 2005, ch 3, § 16 (Part A), eff Dec 21, 2005 (see 2005 note below).
The 2005 act deleted at fig 1 "in which neglect only is alleged", at fig 2 "it" and at fig 3
"within three court days, where the child has been temporarily removed under this article,
otherwise"
Sub (d), add, L 1986, ch 699, § 1; amd, L 1987, ch 443, § 1, eff July 27, 1987.
Sub (e), add, L 1988, ch 457, § 5, eff Nov 1, 1988.
Former sub (e), so designated sub (f), L 1988, ch 457, § 5, eff Nov 1, 1988.
Sub (f), formerly sub (e), add, L 1986, ch 699, § 1; amd, L 1987, ch 443, § 1; so
designated sub (f), L 1988, ch 457, § 5, eff Nov 1, 1988.
Sub (b), opening par, formerly part of sub (b), so designated sub (b), opening par and
amd,L 2003, ch 526, § 1, eff Dec 16, 2003.
The 2003 act deleted at fig 1 "clearly marked on the face thereof,"
Sub (b), par (i), formerly part of sub (b), so designated sub (b), par (i) and amd,L 2003,
ch 526, § 1, eff Dec 16, 2003.
The 2003 act deleted at fig 1 "could", at fig 2 "proceeding" and at fig 3 "and that the
rights of the respondent with respect to said child may be terminated in such proceeding
under such law"
Sub (b), par (ii), add,L 2003, ch 526, § 1, eff Dec 16, 2003.
Sub (d), opening par, amd,L 2003, ch 526, § 2, eff Dec 16, 2003.
Sub (d), par (i), add,L 2003, ch 526, § 2, eff Dec 16, 2003.
Sub (d), par (ii), add,L 2003, ch 526, § 2, eff Dec 16, 2003.
A0410

Page 4 of 4
2012 NY Family Ct Act § 1035

Sub (d), par (iii), add,L 2003, ch 526, § 2, eff Dec 16, 2003.
Sub (e), amd,L 2003, ch 526, § 3, eff Dec 16, 2003.
The 2003 act deleted at fig 1 "and", at fig 2 "ordered to be" and at fig 3 "as"

End of Document

A0411

2012 N.Y. FAM. CT. ACT § 1036

§ 1036. Service of summons
(a)Except as provided for in subdivision (c) of this section, in cases involving abuse,
the petition and summons shall be served within two court days after their issuance. If
they cannot be served within that time, such fact shall be reported to the court with the
reasons thereof within three court days after their issuance and the court shall thereafter
issue a warrant in accordance with the provisions of section one thousand thirty-seven.
The court shall also, unless dispensed with for good cause shown, direct that the child
be brought before the court. Issuance of a warrant shall not be required where process
is sent without the state as provided for in subdivision (c) of this section.
(b)Service of a summons and petition shall be made by delivery of a true copy thereof
to the person summoned at least twenty-four hours before the time stated therein for
appearance.
(c)In cases involving either abuse or neglect, the court may send process without the
state in the same manner and with the same effect as process sent within the state in the
exercise of personal jurisdiction over any person subject to the jurisdiction of the court
under section three hundred one or three hundred two of the civil practice law and rules,
notwithstanding that such person is not a resident or domiciliary of the state, where the
allegedly abused or neglected child resides or is domiciled within the state and the
alleged abuse or neglect occurred within the state. In cases involving abuse where
service of a petition and summons upon a non-resident or non-domiciliary respondent is
required, such service shall be made within ten days after its issuance. If service can not
be effected in ten days, an extension of the period to effect service may be granted by
the court for good cause shown upon application of any party or the [fig 1] child's
attorney. Where service is effected on an out of state respondent and the respondent
defaults by failing to appear to answer the petition, the court may on its own motion, or
upon application of any party or the [fig 2] child's attorney proceed to a fact finding
hearing thereon.
(d)If after reasonable effort, personal service is not made, the court may at any stage in
the proceedings make an order providing for substituted service in the manner provided
for substituted service in civil process in courts of record.
Appendix UU

A0412

Page 2 of 2
2012 NY Family Ct Act § 1036

History
Add, L 1970, ch 962, § 9, with substance derived from former § 336; amd,L 1990, ch
268, § 1, eff Sept 1, 1990, L 1991, ch 69, § 1, eff April 22, 1991, L 2010, ch 41, § 56, eff
April 14, 2010.

End of Document

A0413

2012 N.Y. FAM. CT. ACT § 1037

§ 1037. Issuance of warrant and reports to court
(a)The court may issue a warrant directing the parent, or other person legally
responsible for the child's care or with whom he is residing to be brought before the
court, when a petition is filed with the court under this article and it appears that
(i)the summons cannot be served; or
(ii)the summoned person has refused to obey the summons; or
(iii)the parent or other person legally responsible for the child's care is likely to
leave the jurisdiction; or
(iv)a summons, in the court's opinion, would be ineffectual; or
(v)the safety of the child is endangered; or
(vi)the safety of a parent, person legally responsible for the child's care or with
whom he is residing, foster parent or temporary custodian is endangered.
(b)When issuing a warrant under this section, the court may also direct that the child be
brought before the court.
(c)In any case involving abuse, the warrant shall be clearly marked on the face thereof
"Child Abuse Case". If a warrant is not executed within two court days of its issuance,
such fact shall be reported to the court within three court days of its issuance. Rules of
court shall provide that reports of unexecuted warrants issued under this article shall be
periodically made to the court.
(d)In a proceeding to determine abuse, the warrant shall contain a statement clearly
marked on the face thereof, that the proceeding could lead to a proceeding under the
social services law for the commitment of guardianship and custody of the child and
that the rights of the respondent with respect to said child may be terminated in such
proceeding under such law.
History
Add, L 1970, ch 962, § 9, with substance derived from former § 337.
Appendix VV

A0414

2012 NY Family Ct Act § 1037

Sub (a), amd, L 1988, ch 271, § 3, eff July 19, 1988.
Sub (a), par (v), amd, L 1988, ch 271, § 3, eff July 19, 1988.
Sub (a), par (vi), add, L 1988, ch 271, § 3, eff July 19, 1988.
Sub (d), add, L 1981, ch 739, § 2, eff Oct 25, 1981.

End of Document

A0415

2012 N.Y. PENAL LAW § 120.05

§ 120.05. Assault in the second degree
A person is guilty of assault in the second degree when:
1.With intent to cause serious physical injury to another person, he causes such
injury to such person or to a third person; or
2.With intent to cause physical injury to another person, he causes such injury to
such person or to a third person by means of a deadly weapon or a dangerous
instrument; or
3.With intent to prevent a peace officer, a police officer, registered nurse,
licensed practical nurse, sanitation enforcement agent, New York city sanitation
worker, a firefighter, including a firefighter acting as a paramedic or emergency
medical technician administering first aid in the course of performance of duty as
such firefighter, an emergency medical service paramedic or emergency medical
service technician, or medical or related personnel in a hospital emergency
department, a city marshal, a traffic enforcement officer or traffic enforcement
agent, from performing a lawful duty, by means including releasing or failing to
control an animal under circumstances evincing the actor's intent that the animal
obstruct the lawful activity of such peace officer, police officer, registered nurse,
licensed practical nurse, sanitation enforcement agent, New York city sanitation
worker, firefighter, paramedic, technician, city marshal, traffic enforcement
officer or traffic enforcement agent, he or she causes physical injury to such
peace officer, police officer, registered nurse, licensed practical nurse, sanitation
enforcement agent, New York city sanitation worker, firefighter, paramedic,
technician or medical or related personnel in a hospital emergency department,
city marshal, traffic enforcement officer or traffic enforcement agent; or
3-a.With intent to prevent an employee of a local social services district directly
involved in investigation of or response to alleged abuse or neglect of a child, a
vulnerable elderly person or an incompetent or physically disabled person, from
performing such investigation or response, the actor, not being such child,
vulnerable elderly person or incompetent or physically disabled person, or with
Appendix WW

A0416

2012 NY Penal § 120.05

intent to prevent an employee of a local social services district directly involved
in providing public assistance and care from performing his or her job, causes
physical injury to such employee including by means of releasing or failing to
control an animal under circumstances evincing the actor's intent that the animal
obstruct the lawful activities of such employee; or
4.He recklessly causes serious physical injury to another person by means of a
deadly weapon or a dangerous instrument; or
5.For a purpose other than lawful medical or therapeutic treatment, he
intentionally causes stupor, unconsciousness or other physical impairment or
injury to another person by administering to him, without his consent, a drug,
substance or preparation capable of producing the same; or
6.In the course of and in furtherance of the commission or attempted commission
of a felony, other than a felony defined in article one hundred thirty which
requires corroboration for conviction, or of immediate flight therefrom, he, or
another participant if there be any, causes physical injury to a person other than
one of the participants; or
7.Having been charged with or convicted of a crime and while confined in a
correctional facility, as defined in subdivision three of section forty of the
correction law, pursuant to such charge or conviction, with intent to cause
physical injury to another person, he causes such injury to such person or to a
third person; or
8.Being eighteen years old or more and with intent to cause physical injury to a
person less than eleven years old, the defendant recklessly causes serious
physical injury to such person; or
9.Being eighteen years old or more and with intent to cause physical injury to a
person less than seven years old, the defendant causes such injury to such person
[fig 1] ; or
10.Acting at a place the person knows, or reasonably should know, is on school
grounds and with intent to cause physical injury, he or she:
(a)causes such injury to an employee of a school or public school district; or
(b)not being a student of such school or public school district, causes physical
injury to another, and such other person is a student of such school who is
attending or present for educational purposes. For purposes of this subdivision
the term "school grounds" shall have the meaning set forth in subdivision
fourteen of section 220.00 of this chapter.
11.With intent to cause physical injury to a train operator, ticket inspector,
conductor, signalperson, bus operator or station agent employed by any transit
A0417

2012 NY Penal § 120.05

agency, authority or company, public or private, whose operation is authorized
by New York state or any of its political subdivisions, a city marshal, a traffic
enforcement officer, traffic enforcement agent [fig 1] , sanitation enforcement
agent, New York city sanitation worker, registered nurse or licensed practical
nurse he or she causes physical injury to such train operator, ticket inspector,
conductor, signalperson, bus operator or station agent, city marshal, traffic
enforcement officer, traffic enforcement agent, registered nurse or licensed
practical nurse [fig 2] , sanitation enforcement agent [fig 3] or New York city
sanitation worker, while such employee is performing an assigned duty on, or
directly related to, the operation of a train or bus, or such city marshal, traffic
enforcement officer, traffic enforcement agent, registered nurse or licensed
practical nurse [fig 4] , sanitation enforcement agent or New York city sanitation
worker, is performing an assigned duty.
11-a.With intent to cause physical injury to an employee of a local social services
district directly involved in investigation of or response to alleged abuse or
neglect of a child, vulnerable elderly person or an incompetent or physically
disabled person, the actor, not being such child, vulnerable elderly person or
incompetent or physically disabled person, or with intent to prevent an employee
of a local social services district directly involved in providing public assistance
and care from performing his or her job, causes physical injury to such employee;
or
12.With intent to cause physical injury to a person who is sixty-five years of age
or older, he or she causes such injury to such person, and the actor is more than
ten years younger than such person.
Assault in the second degree is a class D felony.
History
Add, L 1965, ch 1030, with substance derived from §§ 2, 242, 243; amd, L 1967, ch 791,
§ 7, L 1968, ch 37, § 1, L 1972, ch 598, § 2, L 1974, ch 239, § 1, L 1974, ch 660, § 1, L
1975, ch 134, § 1, L 1975, ch 667, § 37, eff Aug 6, 1975, retroactive to and deemed to
have been in full force and effect on and after April 1, 1975, L 1980, ch 471, § 25, L 1980,
ch 843, § 39, L 1981, ch 372, §§ 4, 5, eff Sept 1, 1981, L 1984, ch 284, § 1, L 1985, ch
262, § 1, eff Sept 1, 1985,L 1990, ch 477, § 2, eff Nov 1, 1990, L 1996, ch 122, § 4, eff
Aug 1, 1996 (see 1996 note below), 1998, ch 269, § 1, eff Nov 1, 1998, L 1998, ch 287, §
1, eff Nov 1, 1998, L 2000, ch 181, § 13, eff Nov 1, 2000 (see 2000 note below),L 2002, ch
598, § 1, eff Nov 1, 2002, L 2003, ch 607, § 1, eff Nov 1, 2003, L 2006, ch 100, § 1, eff
Nov 1, 2006 L 2008, ch 45, § 1, eff July 22, 2008, L 2008, ch 68, § 1, eff June 29, 2008, L
A0418

2012 NY Penal § 120.05

2010, ch 318, §§ 1, 2, eff Nov 1, 2010, L 2010, ch 345, § 1, eff Sept 12, 2010, L 2012, ch
377, § 1, eff Sept 16, 2012, L 2012, ch 434, § 1, eff Nov 1, 2012.

A0419

2012 N.Y. PENAL LAW § 195.05

§ 195.05. Obstructing governmental administration in the second degree
A person is guilty of obstructing governmental administration when he intentionally
obstructs, impairs or perverts the administration of law or other governmental function or
prevents or attempts to prevent a public servant from performing an official function, by
means of intimidation, physical force or interference, or by means of any independently
unlawful act, or by means of interfering, whether or not physical force is involved, with
radio, telephone, television or other telecommunications systems owned or operated by the
state, or a county, city, town, village, fire district or emergency medical service or by
means of releasing a dangerous animal under circumstances evincing the actor's intent that
the animal obstruct governmental administration.
Obstructing governmental administration is a class A misdemeanor.
History
Add, L 1965, ch 1030, § 1, with substance derived from §§ 196, 490, 1320, 1322, 1824,
1825, 1851; amd, L 1984, ch 956, § 1,L 1998, ch 269, § 2, eff Nov 1, 1998.
First undesignated par, amd,L 1998, ch 269, § 2, eff Nov 1, 1998.

End of Document

Appendix XX

A0420

2012 N.Y. PENAL LAW § 205.30

§ 205.30. Resisting arrest
A person is guilty of resisting arrest when he intentionally prevents or attempts to prevent
a police officer or peace officer from effecting an authorized arrest of himself or another
person.
Resisting arrest is a class A misdemeanor.
History
Add, L 1965, ch 1030, § 1; amd, L 1980, ch 843, § 41, eff Sept 1, 1980.

Appendix YY
A0421

